Office of Inspector General
Semiannual Report to Congress

October 1, 2000 - March 31, 2001
                                                FOREWORD



I am pleased to submit the semiannual report on the activities of the Department of
Veterans Affairs (VA), Office of Inspector General (OIG) for the period ended March 31,
2001. The OIG is dedicated to help ensure that veterans and their families receive the
care, support, and recognition they have earned through service to their country. This
report is issued in accordance with the provisions of the Inspector General Act of 1978,
as amended.

OIG oversight of major VA programs resulted in systemic improvements and increased
efficiencies in areas of medical care, benefits administration, procurement, financial
management, information technology, and facilities management. Overall, OIG audits,
investigations, and other reviews identified $2.5 billion in monetary benefits, for an OIG
return on investment of $112 for every dollar expended.

Our criminal investigations place a priority on safety and security at VA facilities. This
coupled with proactive initiatives has resulted in increases in the number of
investigations conducted, which has resulted in significant increases in the numbers of
arrests made by OIG special agents. During the period, the office concluded 322
investigations resulting in 373 judicial actions and over $26 million recovered or saved.
Investigative activities resulted in the arrests of 215 individuals who had committed
crimes involving VA programs and operations or on VA facilities. Most significant was
the conclusion of a 5-year investigation in which a former VA medical center (VAMC)
nurse was convicted of three counts of first degree murder, one count of second degree
murder, four counts of assault with intent to commit murder, and one count of assault
with intent to commit bodily injury. The nurse was convicted of killing and/or assaulting
veteran patients during the time of her VAMC employment. She was sentenced to four
consecutive life sentences without parole.

Our audit oversight of VA, the second largest Department in the Federal Government,
focused on determining how programs can work better, while improving service to
veterans and their families. For example, an audit presented opportunities to better use
$1.33 billion by establishing a streamlined Veterans Health Administration (VHA)-wide
process to fill prescriptions written by veterans’private physicians, and increase
revenues by $284 million by increasing the pharmacy co-pay level for priority group 7
veterans. Also, an audit of Veterans Benefits Administration’s (VBA) income verification
match found that opportunities exist for VBA to: significantly increase the number of
potential overpayments recovered by $806 million through greater efficiency and
effectiveness; ensure better program integrity and identification of program fraud; and
improve delivery of services to beneficiaries. Monetary benefits of this type can be
redirected to programs that can improve or increase services to veterans.

Our Office of Healthcare Inspections focuses on quality of care issues in VA, which
operates the largest health care system in the United States. This included a proactive
review of VHA’s missing patients program. Healthcare inspectors also provided
oversight of the VHA’s Office of Medical Inspector and the newly created Office of
Research Compliance and Assurance activities, and reviewed the adequacy of VHA’s
responses to allegations of inadequate health care delivery and management.

The OIG’s ongoing Combined Assessment Program (CAP) evaluates the quality,
efficiency, and effectiveness of VA facilities. Through this program, auditors,
investigators, and healthcare inspectors collaborate to assess key operations and
programs at VAMCs on a cyclical basis. The CAP reviews completed during this 6-
month reporting period highlighted numerous opportunities for improvement in quality
of care, management controls, and fraud prevention. Through increased or
restructured resources, I am committed to extending this program to enable more
frequent oversight of VA activities.

I look forward to continued partnership with the Secretary and the Congress in
improving service to our Nation’s veterans.




RICHARD J. GRIFFIN
Inspector General
                       VA OIG CASE YIELDS
    INSPECTOR
                      MURDER CONVICTION
     GENERAL


Once described as a top-notch nurse who shined during medical
emergencies, Kristen H. Gilbert was found guilty in Federal court
for the murder of four veterans who were under her care at the
Department of Veterans Affairs (VA) Medical Center in
Northampton, Massachusetts. An extensive investigation by
members of the VA Office of Inspector General, the
Massachusetts State Police and the U. S. Attorney’s Office,
resulted in Ms. Gilbert being tried for capital murder in the deaths
of four veterans and the attempted murder of three other
veterans.

SUSPICIONS ARISE
Ms. Gilbert worked at the VA
Medical Center from March 1989
through February 1996. Co-
workers became suspicious
because of the high number of
deaths that occurred during her
shift on a 30-bed acute-care
medical unit. Sixty-three deaths
occurred on the ward between
January 1, 1995 and February 19,
1996. Ms. Gilbert was on duty
when 37 of those patients died –
many of them following emergency
codes she called for cardiac arrest.

Staff noticed that emergency codes
were often called when Ms.
Gilbert’s extramarital boyfriend, a    Bruce Sackman, Special Agent in Charge, VA OIG Northeast Field
member of the hospital’s security      Office, speaks at a press conference at the U.S. District Court House
staff, was on duty and was             in Springfield, MA following the conviction of Gilbert. Standing behind
involved in the code call. None        Sackman are (l to r): U.S. Attorney Donald K. Stern; Massachusetts
                                       State Police Detective Kevin Murphy; VA OIG Special Agent Steven
                                       Plante; and Assistant U.S. Attorney Ariane D. Vuono.
were called when he was off duty.           convicted, Gilbert murdered a veteran
Described by some of her co-workers as      following her request to leave early to
an excellent emergency nurse, Gilbert       meet her boyfriend should the particular
was pictured in court as a thrill seeker    patient under her care die. Within an
who sent patients into cardiac arrest for   hour, the veteran in question was dead
the excitment of responding to              and his body removed to the morgue.
emergencies in front of her boyfriend.      She left by the hour she requested.

EXPEDITIOUS DEATHS                          BOMB THREAT

The seven veterans listed in the charges    Prior to her trial for murder, Gilbert
had chronic diseases but none had life-     served a 15-month sentence in a Federal
threatening conditions. Five of the         prison in Danbury, Connecticut for
seven had no history of heart disease.      telephoning a bomb threat to the VA
In one of the cases for which she was       hospital in September 1996. The threat
was described as her attempt
to hinder the investigation of
                                     “In the end what this case is about is a
the suspicious deaths at the
Northampton Medical Center.          defendant who took advantage of the system
                                     in which patients placed their trust in the
TRIAL OUTCOME                        hands of a caregiver...and committed cold-
                                     blooded murder.”
Following the 12-week trial, a                                           William M. Welch
Federal jury took 12 additional                                     Assistant U.S. Attorney
days to find Gilbert guilty of
first degree murder in the
deaths of Henry R. Hudon, 35, Kenneth D.       Thomas P. Callahan, 60. She was found
Cutting, 41, and Edward S. Skwira, 66; of      innocent of the attempt to kill Francis F.
second degree murder in the death of           Marier, 72. Although they survived
Stanley J. Jagodowski, 66; and with assault    Gilbert’s murder attempt, Vella, Callahan,
with intent to kill Angelo F. Vella, 68, and   and Marier all subsequently died.

                                                                   The same jury that
                                                                   convicted her of the
                                                                   killings spared her life
                                                                   by recommending life
                                                                   in prison with no
                                                                   parole. The judge
                                                                   sentenced her to four
                                                                   consecutive life
                                                                   sentences, assuring
                                                                   that she will spend the
                                                                   rest of her natural life
                                                                   in Federal prison.
                                                   TABLE OF CONTENTS

                                                                                                                                                  Page

HIGHLIGHTS OF OIG OPERATIONS ..............................................................................................                         i
VA AND OIG MISSION, ORGANIZATION, AND RESOURCES ........................................................                                            1
COMBINED ASSESSMENT PROGRAM ..........................................................................................                              7
OFFICE OF INVESTIGATIONS
     Mission Statement ..................................................................................................................           9
     Resources..............................................................................................................................        9
     Criminal Investigations ...........................................................................................................            9
             Veterans Health Administration ..................................................................................                     10
             Veterans Benefits Administration ...............................................................................                      18
             Office of Human Resources and Administration .........................................................                                27
             OIG Forensic Documents Laboratory.........................................................................                            27
     Administrative Investigations ..................................................................................................              28
             Veterans Health Administration ..................................................................................                     29
             Veterans Benefits Administration ...............................................................................                      30
OFFICE OF AUDIT
     Mission Statement ..................................................................................................................          33
     Resources..............................................................................................................................       33
     Overall Performance ..............................................................................................................            33
             Veterans Health Administration ..................................................................................                     34
             Veterans Benefits Administration ...............................................................................                      37
             Office of Management ...............................................................................................                  38
             Implementation of GPRA in VA ..................................................................................                       40
OFFICE OF HEALTHCARE INSPECTIONS
     Mission Statement ..................................................................................................................          43
     Resources..............................................................................................................................       43
     Overall Performance ..............................................................................................................            43
            Veterans Health Administration....................................................................................                     43
OFFICE OF MANAGEMENT AND ADMINISTRATION
     Mission Statement ..................................................................................................................          47
     Resources..............................................................................................................................       47
     Hotline Division ......................................................................................................................       48
             Veterans Health Administration ..................................................................................                     49
             Veterans Benefits Administration ...............................................................................                      54
             National Cemetery Administration ..............................................................................                       55
             Board of Veterans’Appeals ........................................................................................                    55
             Outside Organization .................................................................................................                56
     Operational Support Division..................................................................................................                56
     Status of OIG Reports Unimplemented for Over 3 Years ........................................................                                 58
             Veterans Health Administration ..................................................................................                     58
             Veterans Benefits Administration ...............................................................................                      60
     Information Technology and Data Analysis Division................................................................                             61
     Resources Management Division ...........................................................................................                     65
OTHER SIGNIFICANT OIG ACTIVITIES
     President’s Council on Integrity and Efficiency .......................................................................                       67
     OIG Management Presentations ............................................................................................                     67
     Awards ...................................................................................................................................    68
     OIG Congressional Testimony ................................................................................................                  68
     Obtaining Required Information or Assistance........................................................................                          69
                                                                                                                                        Page

APPENDIX A -   REVIEWS BY OIG STAFF .............................................................................                        71
APPENDIX B -   CONTRACT REVIEWS BY OTHER AGENCIES ............................................                                           77
APPENDIX C -   CONTRACT REVIEW REPORTS FOR WHICH A CONTRACTING
               OFFICER DECISION HAD NOT BEEN MADE FOR
               OVER 6 MONTHS ..........................................................................................                  79
APPENDIX D -   FOLLOW UP/RESOLUTION OF OIG REPORTS ..............................................                                        83
APPENDIX E -   REPORTING REQUIREMENTS OF THE INSPECTOR GENERAL .................                                                         87
APPENDIX F -   OIG OPERATIONS PHONE LIST ........................................................................                        89
APPENDIX G -   GLOSSARY .............................................................................................................    91
             HIGHLIGHTS OF OIG OPERATIONS

This semiannual report highlights the activities and accomplishments of the Department of Veterans Affairs
(VA) Office of Inspector General (OIG) for the 6-month period ended March 31, 2001. The following
statistical data highlights OIG activities and accomplishments during the reporting period.

        DOLLAR IMPACT                                                                                           Dollars in Millions

                 Funds Put to Better Use .................................................................... $2,459.2
                 Dollar Recoveries ............................................................................. $24.4
                 Fines, Penalties, Restitutions, and Civil Judgments............................                 $16.3

        RETURN ON INVESTMENT
                 Dollar Impact ($2,499.9) / Cost of OIG Operations ($22.3) ..............                                112 : 1

        OTHER IMPACT
                 Arrests .............................................................................................    215
                 Indictments.......................................................................................       201
                 Convictions ......................................................................................       172
                 Administrative Sanctions..................................................................               233

        ACTIVITIES

            Reports Issued
               Combined Assessment Program ........................................................                        10
               Audits ..............................................................................................        8
               Contract Reviews .............................................................................              28
               Healthcare Inspections ......................................................................                7
               Administrative Investigations............................................................                    5

            Investigative Cases
                Opened .............................................................................................      398
                Closed ..............................................................................................     322

            Hotline Activities
                Contacts ...........................................................................................     8,324
                Cases Opened ...................................................................................           529
                Cases Closed ....................................................................................          530




                                                                         i
OFFICE OF INVESTIGATIONS

Overall Focus

This semiannual period the Office of Investigations achieved major increases in the number of investigative
cases initiated and concluded. These investigations have resulted in the highest number of judicial actions ever
achieved for this office. During the period, the office concluded 322 investigations resulting in 373 judicial
actions and over $26 million recovered or saved. Investigative activities resulted in the arrests of 215
individuals who had committed crimes involving VA programs and operations or on VA facilities. In addition,
the office realized monetary benefits of over $13 returned or saved by the Government for each dollar spent.
Investigative emphasis was placed on safety and security at VA medical centers (VAMCs) and working hand in
hand with VA police we assisted in over 30 arrests of individuals who committed crimes at VAMCs.
Additionally, over 300 investigations were initiated in the benefits fraud area based on computer matching
results which indicated that individuals were fraudulently diverting VA funds. During this semiannual period,
many significant cases were brought to successful conclusions to include the nurse Gilbert conviction noted in
the front of this report. Examples of other cases follow.

Veterans Health Administration

In a major drug diversion investigation, four VAMC pharmacy technicians were arrested and charged with
conspiracy and theft of Government property after a VA OIG investigation disclosed the technicians were
involved in the diversion of prescription drugs from a VAMC outpatient pharmacy. Investigation showed the
employees routinely withdrew prescription drugs from the VA pharmacy drug vault and diverted the drugs to a
veteran who was reselling them. The technicians admitted that for a 1-year period, each individual stole from
300 - 2,000 pills a week that had a street value in excess of $250,000.

Veterans Benefits Administration

Three individuals, a veterans’service officer, a registered nurse, and the owner of a nursing company, were
convicted and sentenced to imprisonment for their participation in a conspiracy to defraud VA. A VA OIG
investigation disclosed the three individuals devised a scheme whereby veterans would submit paperwork to
obtain VA pension benefits by reporting unreimbursed medical expenses from the nursing company. Nursing
company expenses were created solely to offset each beneficiary’s income thereby maximizing VA benefits; the
reported nursing company expenses had nothing to do with the level of care being provided. The nursing
company then hired a friend or relative of each VA beneficiary to serve as a caregiver, who in many cases
provided little or no care to the veterans.

In another investigation, a former VA regional office (VARO) employee and her associate were indicted by a
Federal grand jury on multiple counts of theft, mail and wire fraud, and conspiracy. The indictment is the result
of an investigation by VA OIG which determined that over a 3-year period the employee, in her capacity as a
veterans’service officer, created a false veteran payee within VA data systems, subsequently causing VA to
issue benefit checks in the name of a fictitious veteran to an address controlled by her associate. The employee
then negotiated the checks. As a result, monetary loss to the Government exceeds $229,700. Further judicial
actions are pending in this case.




                                                       ii
OFFICE OF AUDIT

Audit Saved or Identified Improved Uses for $2.47 Billion

Audits and evaluations were conducted which focused on performance results, while improving service to
veterans. During this reporting period, 18 performance, financial, and Combined Assessment Program (CAP)
audits, evaluations, and reviews as well as 28 contract reviews identified opportunities to save or make better
use of $2.47 billion. The Office of Audit returned $256 for every dollar spent on performance, financial, and
CAP audits, evaluations, and reviews. Contract reviews returned $30 in monetary benefits for every dollar
spent.

Veterans Health Administration

The following are examples of major health care related audits. Our audit of Veterans Health Administration’s
(VHA) pharmacy co-payment levels and restrictions on filling privately written prescriptions for priority group
7 veterans found that VHA can reduce the cost of providing prescriptions to priority group 7 veterans about
$284 million by increasing the pharmacy co-pay level from the current $2 for each 30-day prescription supply
to $10, and about $1.33 billion by filling prescriptions written for enrolled veterans by private physicians.
Another audit, requested by the Under Secretary for Health of the Health Eligibility Center (HEC), found that
income verification matching procedures of VHA did not provide reasonable assurance that income verification
matches include only self-reported income from veterans.

Veterans Benefits Administration

Our audit of Veterans Benefits Administration’s (VBA) Income Verification Match (IVM) found that
opportunities exist for VBA to: significantly increase the number of potential overpayments recovered by $806
million through greater efficiency and effectiveness; ensure better program integrity and identification of
program fraud; and improve delivery of services to beneficiaries.

Office of Management

The audit of the Department’s Consolidated Financial Statements for Fiscal Years (FYs) 2000 and 1999
resulted in an unqualified opinion. The report on internal control and compliance with laws and regulations
reported that VA management demonstrated commitment to addressing management control weaknesses and had
made progress towards improving weaknesses concerning information technology security controls, Treasury
reconciliations, and Housing Credit Assistance program accounting. However, opportunities exist for further
improvement. The report discusses two material weaknesses concerning: (i) information technology security
controls and (ii) integrated financial management system; and identified three other reportable conditions
concerning: (i) the need to improve application programming and operating system change controls;
(ii) business continuity and disaster recovery planning; and (iii) operational oversight and three internal control
matters.

Contract Review and Evaluation

During the period, we completed 28 contract reviews – 18 preaward and 10 postaward reviews. These reviews
identified monetary benefits of $32 million resulting from contractor actual or potential overcharges to VA.



                                                        iii
OFFICE OF HEALTHCARE INSPECTIONS

During this reporting period, CAP reviews occupied approximately 75 percent of the Office of Healthcare
Inspections’(OHI) resources. In addition, OHI focused on active oversight of the 124 Hotline cases sent to
VHA program offices and the VHA medical inspector. In 11 of these cases, OHI was not satisfied with the
VHA response and recommended that they receive further study. The reporting period also saw the conviction
and sentencing to life in prison of a VA nurse charged with murdering patients at a VAMC. OHI staff worked
diligently as clinical team members/consultants to the Office of Investigations in order to locate and develop
evidence sufficient for the conviction.

Program Review

A major program review of this period was conducted in follow up to a preliminary assessment of VHA’s
missing patient policies and search procedures that we conducted in FY 1999. The review assessed the
adequacy of VHA’s policies and procedures for assuring the safety and security of impaired or otherwise high-
risk patients who may elope or wander from their VA treatment settings, sometimes with tragic results. While
we found that VHA managers had increased their efforts to locate missing patients, we also validated our
preliminary conclusions that VHA managers could improve their procedures and practices to safeguard against
future tragic incidents. We made recommendations to strengthen existing missing patient policies and
procedures and to promote the safety of all VA patients.

OFFICE OF MANAGEMENT AND ADMINISTRATION

Hotline

The Hotline program provides an opportunity for employees, veterans, and other concerned citizens to report
fraud, waste, abuse, and mismanagement. The identification and reporting of issues such as these are integral
to the goal of improving the efficiency and effectiveness of the Government. During the reporting period, the
Hotline received 8,324 contacts. We opened 529 cases, and closed 530 cases which contained 151
substantiated allegations. Hotline staff responded to 90 inquiries received from members of the Senate and
House of Representatives. The cases we opened led to 33 administrative sanctions against employees and 71
corrective actions taken by management to improve VA operations and activities. Our reviews identified: (i)
employees who abused time and leave and violated ethical conduct standards; (ii) VA facilities with poor fiscal
controls; (iii) several instances of misconduct by medical staff in the care and treatment of veteran patients; and
(iv) problems in VBA operations with a number of compensation and pension cases that warranted corrective
action by management.

Follow Up on OIG Reports

The Operational Support Division tracks implementation actions on issued audits, inspections, and reviews with
over $2.9 billion of actual or potential monetary benefits as of March 31, 2001. Of this amount, $1.2 billion is
resolved as VA officials have agreed to implement the recommendations, but have not yet done so. In addition,
$1.7 billion relates to unresolved contractor reviews awaiting resolution by VA contracting officers, and an
unresolved VHA audit on pharmacy co-payment levels and restrictions on filling privately written prescriptions
for priority group 7 veterans with VHA deferment on concurrence or non-concurrence with the




                                                        iv
recommendations pending more focused attention and direction by VHA’s National Leadership Board. After
obtaining information that showed VA officials had fully implemented corrective actions, the Division took
action to close 58 internal reports and 248 recommendations with a monetary benefit of $486 million.

Status of OIG Reports Unimplemented for Over 3 Years

VA management officials are required to provide the OIG with documentation showing the completion of
corrective actions taken on OIG reports. In the majority of cases, program offices provide us with the actions
required to implement the reports in a reasonable period. However, we are concerned about seven OIG reports
that were issued in FY 98 and earlier that remain unimplemented. VHA has four reports (one report issued in
each of FYs’94, 96, 97, and 98), and VBA has three reports (one report issued in FY 97 and two reports issued
in FY 98).




                                                      v
vi
                                                    VA and OIG Mission, Organization and Resources


VA AND OIG MISSION, ORGANIZATION, AND
RESOURCES

The Department of
Veterans Affairs (VA)
Background

In one form or another, American governments
have provided veterans benefits since before the
Revolutionary War. VA’s historic predecessor
agencies demonstrate our Nation’s long
commitment to veterans.

The Veterans Administration was founded in 1930,
when Public Law 71-536 consolidated the Veterans’
Bureau, the Bureau of Pensions, and the National
Home for Disabled Volunteer Soldiers.
                                                                            VA Central Office
The Department of Veterans Affairs was                          810 Vermont Avenue, NW, Washington, DC
established on March 15, 1989, by Public Law
100-527, which elevated the Veterans                       Organization
Administration, an independent agency, to Cabinet-
level status.                                              VA has three administrations that serve veterans:
                                                           l Veterans Health Administration (VHA) provides
Mission                                                    health care,
                                                           l Veterans Benefits Administration (VBA)
                                                           provides benefits, and
VA’s motto comes from Abraham Lincoln’s second
                                                           l National Cemetery Administration (NCA)
inaugural address, given March 4, 1865, “to care
                                                           provides interment and memorial services.
for him who shall have borne the battle and for his
widow and his orphan.” These words are inscribed
on large plaques on the front of the VA Central            To support these services and benefits, there are six
Office building on Vermont Avenue in Washington,           Assistant Secretaries:
DC.                                                        l Management (Budget, Finance, Acquisition and
                                                           Materiel Management),
The Department’s mission is to serve America’s             l Information and Technology,
veterans and their families with dignity and               l Policy and Planning,
compassion and to be their principal advocate in           l Human Resources and Administration (Equal
ensuring that they receive the care, support, and          Opportunity, Human Resources Management,
recognition earned in service to this Nation.              Administration, Security and Law Enforcement,
                                                           and Resolution Management),



                                                       1
VA and OIG Mission, Organization and Resources

l   Public and Intergovernmental Affairs, and             veterans and survivors. VA life insurance programs
l   Congressional and Legislative Affairs.                have 4.4 million policies in force with a face value
                                                          of over $556 billion. Almost 250,000 home loans
In addition to VA’s Office of Inspector General,          will be guaranteed in FY 2001, with a value of
other staff offices providing support to the              almost $30 billion.
Secretary include the Board of Contract Appeals,
the Board of Veterans’Appeals, the Office of              The National Cemetery Administration currently
General Counsel, the Office of Small and                  operates and maintains 119 cemeteries and
Disadvantaged Business Utilization, the Centers for       employed over 1,400 staff in FY 2001. Operations
Minority Veterans and for Women Veterans, and the         of NCA and all of VA’s burial benefits account for
Office of Employment Discrimination Complaint             approximately $323 million of VA’s budget.
Adjudication.                                             Interments in VA cemeteries continue to increase
                                                          each year, with 86,400 estimated for FY 2001.
Resources                                                 Approximately 349,000 headstones and markers
                                                          will be provided for veterans and their eligible
                                                          dependents in VA and other Federal cemeteries,
While most Americans know that VA exists, few
                                                          state veterans’cemeteries, and private cemeteries.
realize that it is the second largest Federal
employer. For FY 2001, VA employed
approximately 205,900 employees and had a                 VA Office of Inspector
$47.5 billion budget. There are an estimated 25
million living veterans. To serve our Nation’s            General (OIG)
veterans, VA maintains facilities in every state of
the union, the District of Columbia, the                  Background
Commonwealth of Puerto Rico, Guam, and the
Philippines.                                              VA’s OIG was administratively established on
                                                          January 1, 1978, to consolidate audit, investigation,
Approximately 188,000 of VA’s employees work in           and related operations into a cohesive, independent
the health care system. Health care is funded at          organization. In October 1978, the Inspector
$20.6 billion, approximately 43 percent of VA’s           General Act (Public Law 95-452) was enacted,
budget in FY 2001. VHA provides care to an                establishing a statutory Inspector General (IG) in
average of 57,000 inpatients daily. During FY             VA.
2001, slightly more than 41 million episodes of
care are estimated for outpatients. There are 172
                                                          Role and Authority
hospitals, 781 outpatient clinics, 135 nursing home
units, 206 Vietnam veterans centers, and 43
domiciliaries.                                            The Inspector General Act of 1978 states that the
                                                          IG is responsible for: (i) conducting and
Veterans benefits are funded at $26.1 billion,            supervising audits and investigations; (ii)
almost 55 percent of VA’s budget in FY 2001.              recommending policies designed to promote
Over 11,800 VBA employees provide benefits to             economy and efficiency in the administration of,
veterans and their families. About 2.6 million            and to prevent and detect fraud and abuse in, the
veterans and their beneficiaries receive                  programs and operations of VA; and (iii) keeping
compensation benefits valued at $20 billion. Also,        the Secretary and the Congress fully informed
over $3 billion in pension benefits are provided to       about problems and deficiencies in VA programs
                                                          and operations and the need for corrective action.




                                                      2
                                                       VA and OIG Mission, Organization and Resources

Organization                                                  The following chart indicates the percent of OIG
                                                              resources which have been applied to mandated,
Allocated full time equivalent (FTE) for the FY               reactive, and proactive work.
2001 staffing plan was as follows:

                                                                                                  Proactive
                                                                        Mandated
                                   A L L O C A T E D                                                50%
            O F F IC E
                                          F T E                           9%
In s p e c t o r G e n e r a l                    4

C o u n s e lo r                                  5

In v e s t i g a t i o n s                   1 0 8

A u d it                                     1 6 6
                                                                          Reactive
M a n a g e m e nt a n d
A d m inistra tio n
                                               5 2                          41%
H e a lth c a r e
                                               3 4
In s p e c t i o n s
               T o ta l                      3 6 9
                                                              Mandated work is required by law and the Office
                                                              of Management and Budget (OMB); examples are
In addition, 24 FTE are reimbursed for a
                                                              our audits of VA’s consolidated financial
Department contract review function.
                                                              statements, follow up activities, and Freedom of
                                                              Information Act information releases.
FY 2001 funding for OIG operations is
$48.9 million, with $46.3 million from
                                                              Reactive work is generated in response to requests
appropriations and $2.6 million through
                                                              for assistance received from external sources
reimbursable agreements. Approximately
                                                              concerning allegations of fraud, waste, abuse, and
75 percent of the total funding is for salaries and
                                                              mismanagement. Most of the work performed by
benefits, 5 percent for official travel, and the
                                                              the Office of Investigations is reactive.
remaining 20 percent for all other operating
expenses such as contractual services, rent,
                                                               Proactive work is self-initiated, focusing on areas
supplies, and equipment.
                                                              where the OIG staff determines there are significant
                                                              issues; some healthcare inspections and most audits
The percent of OIG resources, which have been
                                                              fall into this category.
devoted during this semiannual reporting period to
VA’s major organizational areas, are indicated in
the following chart.

             A&MM                      VBA
              14%                      28%

                                      Financial
                                    Management
                                        7%

              VHA                Information
               48%               Technology
                                     3%




                                                          3
VA and OIG Mission, Organization and Resources


                                               OIG Mission Statement

                                               The OIG is dedicated to helping VA ensure that
                                               veterans and their families receive the care,
                                               support, and recognition they have earned
                                               through service to their country. The OIG strives
                                               to help VA achieve its vision of becoming the best
                                               managed service delivery organization in
                                               Government. The OIG continues to be
                                               responsive to the needs of its customers by
                                               working with the VA management team to
                                               identify and address issues that are important to
                                               them and the veterans served.

                                               In performing its mandated oversight function,
                                               the OIG conducts investigations, audits, and
                                               health care inspections to promote economy,
                                               efficiency, and effectiveness in VA activities, and
                                               to detect and deter fraud, waste, abuse, and
                                               mismanagement. The OIG’s oversight efforts
                                               emphasize the goals of the National Performance
                                               Review and the Government Performance and
     TechWorld, home to the VA Office of       Results Act (GPRA) for creating a Government
            Inspector General                  that works better and costs less. Inherent in
                                               every OIG effort are the principles of quality
                                               management and a desire to improve the way VA
                                               operates by helping it become more customer
                                               driven and results oriented.

                                               The OIG will keep the Secretary and the
                                               Congress fully and currently informed about
                                               issues affecting VA programs and the
                                               opportunities for improvement. In doing so, the
                                               staff of the OIG will strive to be leaders and
                                               innovators, and perform their duties fairly,
                                               honestly, and with the highest professional
                                               integrity.




                                           4
VA and OIG Mission, Organization and Resources




   5
VA and OIG Mission, Organization and Resources




                                         6
                                                                         Combined Assessment Program

COMBINED ASSESSMENT PROGRAM

Combined Assessment Program                                  Special agents conduct fraud and integrity
Overview - Medical                                           awareness briefings. The purpose of these
                                                             briefings is to provide key staff located at VAMC
The Combined Assessment Program (CAP) is part                with insight into the types of fraudulent activities
of the OIG's effort to ensure that quality health care       that can occur in VA programs. The briefings
service is provided to our Nation’s veterans. CAP            include an overview and case-specific examples of
reviews provide cyclical oversight of VA medical             fraud affecting health care procurements, false
facility operations; focusing on the quality,                claims, conflict of interest, bribery, and illegal
efficiency, and effectiveness of service provided to         gratuities. Special agents also investigate certain
veterans.                                                    matters which have been referred to the OIG by VA
                                                             employees, members of Congress, veterans, and
The CAP combines the skills and abilities of the             others.
OIG’s major components to provide collaborative
assessments of VA medical facilities. The OIG                The following is a summary of the nine medical
team consists of representatives from the Offices of         CAP reports completed during the period October
Healthcare Inspections, Audit, and Investigations.           1, 2000 through March 31, 2001. (See Appendix A
They provide an independent and objective                    for listing of CAP reviews issued during the
assessment of key operations and programs at                 period.) During these on-site CAP visits, the Office
VAMCs on a recurring basis.                                  of Investigations conducted 35 fraud and integrity
                                                             briefings for approximately 1,200 employees.
Healthcare inspectors conduct proactive reviews to
evaluate care provided in VA health care facilities          Our reviews identified the following areas requiring
and procedures for ensuring the appropriateness              the attention of VHA management:
and safety of patient care. The facilities are
                                                             l   Staffing.
evaluated to determine the extent to which they are
contributing to VHA's ability to accomplish its
                                                             l   Compliance with VHA clinic waiting time
mission of providing high quality health care,
improved patient access to care, and high patient            goals.
satisfaction. Their effort includes the use of
                                                             l   Documentation of physician-patient encounters
standardized survey instruments.
                                                             and current procedural terminology codes in patient
Auditors conduct a review to ensure management               medical records.
controls are in place and operating effectively.
                                                             l   Employee morale.
Auditors assess key areas of concern which are
derived from a concentrated and continuing
                                                             l   Maintenance and cleanliness of health care
analysis of VHA, Veterans Integrated Service
Network (VISN), and VAMC databases and                       system facilities.
management information. These areas include
                                                             l  Controlled substances documentation in the
patient management, credentialing and privileging,
agent cashier activities, data integrity, and the            medical records.
medical care cost fund.
                                                             l   Clinic and pharmacy waiting times.




                                                         7
Combined Assessment Program

l   Physicians credentialing, privileging, and             guaranty service, vocational rehabilitation and
background checks.                                         counseling service, fiduciary service, fraud
                                                           prevention and detection, and information security.
l   Quality management.                                    During the reporting period we issued one CAP
                                                           report on the delivery of benefits.
l  Compliance with VHA’s national pain
management strategy.                                       VARO Boston, MA
l   Oversight of the community nursing home                We concluded that the VARO’s administrative
program.                                                   activities were generally operating satisfactorily
                                                           and management controls over benefits delivery
l   Means testing to determine eligibility for VA          were generally effective. However, to improve
services.                                                  compensation and pension claims processing, we
                                                           made the following recommendations to VARO
l   Supply inventory management.                           management: (i) ensure the veterans service center
                                                           staff timely review incoming claims and initiate
l   Negotiation and administration of clinical             required claims development, and make reasonable
service contracts.                                         efforts to determine proper addresses when VA mail
                                                           sent to beneficiaries is returned as undeliverable;
l   Accountability over controlled substances.             and (ii) implement overpayment prevention
                                                           practices.
l   Controls over the Government purchase card
program.                                                   We also identified opportunities for management to
                                                           improve the automated information system and
Combined Assessment Program                                records security. We recommended the VARO
Overview - Benefits                                        management ensure that: (i) a high-level risk
                                                           assessment is completed; (ii) security awareness
In FY 2001, we expanded our CAP program                    and ethics training are conducted annually; (iii)
services to include coverage of the VBA programs.          Benefits Delivery Network (BDN) multiple user
These reviews are similar to CAPs of medical               identification codes are eliminated; (iv) physical
facilities but focus on the delivery of benefits to        security is improved over BDN terminals logged on
veterans and their dependents.                             to the BDN shell; (v) BDN security logs are
                                                           reviewed and violations addressed; (vi) access to
Auditors conduct a review to ensure that                   the station’s network server is controlled; and (vii)
management controls are in place and working               claims files of veteran-employees are identified and
effectively. Healthcare inspectors and investigators       properly secured.
assess key areas of concern derived from a
concentrated and continuing analysis of VBA, VA            VARO management corrected many of these areas
regional office (VARO), and management                     during our review. The Director concurred with the
information. These areas may include                       recommendations and provided acceptable
compensation and pension claims processing, loan           implementation plans.




                                                       8
                                                                                    Office of Investigations


OFFICE OF INVESTIGATIONS

Mission Statement                                            Resources

    Conduct investigations of criminal                       The Office of Investigations has 108 FTE allocated
    activities and administrative matters                    to the following areas.
    affecting the programs and operations of
    VA in an independent and objective
    manner, and assist the Department in
    detecting and preventing fraud and other                   Criminal
    violations.                                              Investigations
                                                                                                Administrative
                                                                  87%
                                                                                                Investigations
The Office of Investigations is responsible for                                                      8%
conducting criminal and administrative
investigations affecting the programs and
operations of VA. The office consists of three
divisions.                                                                                       Analysis
                                                                                                   5%
I. Criminal Investigations Division- The Division
is primarily responsible for conducting
investigations into allegations of criminal activities
related to the programs and operations of VA.                I. CRIMINAL
Criminal violations are referred to the Department
of Justice for prosecution. The Division is also             INVESTIGATIONS
responsible for operation of the forensic document           DIVISION
laboratory.

II. Administrative Investigations Division- The              Mission Statement
Division is responsible for investigating allegations,
generally against high-ranking VA officials,                     Conduct investigations of criminal
concerning misconduct and other matters of interest              activities affecting the programs and
to the Congress and the Department.                              operations of VA in an independent and
                                                                 objective manner, and assist the
III. Analysis and Oversight Division- The                        Department in detecting and preventing
Division is responsible for the oversight                        fraud and other criminal violations.
responsibilities of all Office of Investigations
operations through a detailed, recurring inspection          Resources
program. The Division is the primary point of
contact for law enforcement communications                   The Criminal Investigations Division has 94 FTE
through the National Crime Information Center, the           for its headquarters and 20 field locations. These
National Law Enforcement Telecommunications                  individuals are deployed in the following program
System, and the Financial Crimes Criminal                    areas:
Enforcement Network.




                                                         9
Office of Investigations

                                                            Customer Satisfaction
                                                            l Customer satisfaction survey forms were
                                  VHA                       provided to each prosecutor upon referral of an
                                  34%                       investigation for criminal prosecution. All ratings
                                                            received were 5.0 out of a possible 5.0 (5.0 means
                                                            highly satisfied and 1.0 means dissatisfied).
      VBA                                                   Following are summaries of some of the
      61%                                                   investigations conducted during the reporting
                                                            period by VA component. We discuss VHA, VBA,
                                     A&MM                   Board of Veterans’Appeals, and Office of Human
                                      5%                    Resources and Administration. This is followed by
                                                            the OIG forensic document laboratory summary.

Overall Performance
                                                            Veterans Health
Output
l 322 investigations were concluded during the              Administration
reporting period.
                                                            Fraud and other criminal activities committed
Outcome                                                     against VHA include actions such as patient
l Arrests - 215                                             abuse, theft of Government property, drug
l Indictments - 201                                         diversion, bribery/kickback activities by employees
l Convictions - 172                                         and contractors, false billings, and inferior
l Monetary benefits - $26.7 million ($16.3                  products.
million - fines, penalties, restitutions, and civil
judgements; $6.4 million - efficiencies/funds put to        The Criminal Investigations Division investigates
better use; and $4.0 million - recoveries)                  those instances of criminal activity against VHA
l Administrative sanctions - 192                            that have the greatest impact and deterrent value.
                                                            Working closely with VA police the office has
Cost Effectiveness                                          placed an increased emphasis on crimes occurring
                                                            at VA facilities throughout the nation to help
l The average cost of conducting the 322 closed
                                                            ensure safety and security for those working in or
investigations was $4,415. Each investigation
                                                            visiting VA medical centers.
averaged a return of $59,783, resulting in
approximately $13 returned for every $1 spent.
                                                            Suspicious Patient Deaths/Murder
Timeliness
l Work days from receipt of allegation to                   l    A former VAMC nurse was convicted of three
initiation of an investigation averages 45 days.            counts of first degree murder, one count of second
                                                            degree murder, four counts of assault with intent to
l Average work days from initiation of
                                                            commit murder, and one count of assault with
investigation to referral to an assistant U.S.
                                                            intent to commit bodily injury. This conviction
attorney was 220 days.
                                                            resulted from a 5 year investigation by VA OIG and
                                                            state police. The jury deliberated 12 days before
                                                            reaching its decision. The former VAMC nurse
                                                            was convicted of killing and/or assaulting patients




                                                       10
                                                                                    Office of Investigations

by injecting them with a lethal dose of epinephrine          Investigations Division. The investigation
during the time of her VAMC employment from                  disclosed that, for approximately 3 years, the four
1995 to 1996. She was sentenced to life in prison            VAMC employees conspired to remove large
without parole.                                              amounts of non-controlled pharmaceutical drugs
                                                             from the VAMC pharmacy and exchanged these
l    A physician pleaded guilty in a county court to         drugs for cash with the private pharmacy owner,
killing one of his patients, a 19-year-old at a              who then sold them to the public. Loss to the
university hospital, in January 1984. The guilty             Government exceeded $1.3 million.
plea for aggravated murder was the result of a
review of hospital records conducted by VA OIG               l    Three VAMC pharmacy technicians were
special agents who were investigating the doctor’s           arrested and charged with conspiracy and theft of
role in the deaths of veteran patients at a VAMC.            Government property after a VA OIG investigation
Suspicions were aroused when a review of the                 disclosed the three technicians, along with a fourth
university hospital patient’s medical records                technician and a veteran, were involved in the
disclosed similarities to the deaths of the veterans,        diversion of prescription drugs from the VAMC
with documentation in both cases reflecting                  outpatient pharmacy. The fourth technician and the
elevated potassium levels resulting from injections          veteran previously were arrested on the same
given prior to death. The doctor admitted in court           charges. Investigation showed the employees
to injecting the university hospital patient with a          routinely withdrew a prescription anti-anxiety drug
deadly dose of potassium while he was employed as            from the VA pharmacy drug vault and diverted the
an intern at that hospital. The doctor previously            drug to the veteran who was reselling it. The
pleaded guilty in Federal court to killing three             diverted pharmaceuticals were valued at
patients at a VAMC as well as attempting to kill             approximately $100,000. The technicians admitted
other patients both in the U.S. and in Africa. The           for a 1 year period, each person stole from 300 -
doctor was subsequently sentenced to three                   2,000 pills a week that had a street value of
consecutive life terms in prison for his involvement         approximately $250,000.
in the VAMC deaths. Pursuant to the guilty plea
for the patient’s death, the doctor was sentenced to         l    A VA pharmacy technician was arrested on
life in prison that will run concurrently with his           felony charges of possession of diazepam (Valium)
Federal sentence.                                            with intent to distribute. The individual was in
                                                             possession of 1,000 tablets of Valium that she stole
Employee Integrity                                           from a VAMC. The arrest was made as a result of
                                                             information obtained from a co-conspirator who
Theft/Diversion of Pharmaceuticals                           was previously arrested. This is a joint
                                                             investigation involving VA OIG, FDA, Drug
                                                             Enforcement Administration, state police, and a
l    A former VAMC pharmacy technician pleaded
                                                             state narcotics task force.
guilty to theft of Government property and
conspiracy. A second individual, who owned and
                                                             l   A former VA registered nurse was sentenced to
operated a private pharmacy, pleaded guilty to
                                                             24 months’probation and ordered to pay restitution
similar charges. Three other VAMC pharmacy
                                                             to VA. The individual was previously convicted of
technicians, who were also indicted on multiple
                                                             one count each of fraudulent acquisition of a
counts of theft and conspiracy, are awaiting further
                                                             controlled substance and theft of public property.
judicial action. The guilty pleas were the result of
                                                             An investigation disclosed the individual diverted
a joint investigation by the VA OIG and the U.S.
                                                             12,842 mg of morphine and 1,540 mg of percocet
Food and Drug Administration (FDA), Criminal
                                                             for his personal use while employed at a VAMC.




                                                        11
Office of Investigations

l    A former VAMC nurse entered into an                     l   A former VA employee pleaded guilty to a
agreement for pre-trial diversion after admitting she        felony theft charge and was subsequently sentenced
stole VA pharmaceuticals. A joint VA OIG and VA              to 2 years’probation and ordered to pay $5,000 in
police investigation revealed the former employee            restitution. A VA OIG investigation determined the
stole controlled narcotics, meperidine (Demerol)             individual, who served as treasurer of the VA
and morphine, over an 18-month period. The                   employees’association, misappropriated over
employee admitted to injecting these narcotics on a          $10,000 from the association account into her
daily basis which she obtainedby failing to give VA          personal bank account. The investigation also
patients their full dosage, or removing the narcotics        determined the individual had purchased numerous
from vials and then replacing the same amount with           computer accessories and other items for her
saline solution. The stolen VA pharmaceuticals had           personal use using the Government purchase card.
an approximate street value of $215,000. The
employee voluntarily entered a drug treatment                l    A VAMC health care technician was arrested
program for chemical dependency.                             and charged with three felony counts of forgery and
                                                             one felony count of theft by deception. A joint
l    A former VAMC pharmacy technician pleaded               investigation by the VA OIG and VA police
guilty to theft of Government property and                   disclosed that, on three occasions, the employee
conspiracy, pursuant to a plea agreement. The                entered the room of an elderly veteran patient who
individual’s guilty plea resulted from a joint VA            resided at the VAMC’s extended care center while
OIG investigation with the FDA which determined              the patient was sleeping and removed blank checks
that over the past 3 years, the individual and two           from his checkbook. The employee then forged and
co-workers conspired to divert large amounts of              negotiated the checks, resulting in a loss of $4,500
noncontrolled pharmaceutical drugs from the                  to the veteran. At the time of the theft, the
VAMC pharmacy where they were employed. The                  employee was out on bond for a separate criminal
trio then exchanged the drugs for cash from a                narcotics charge.
fourth individual who sold the drugs to the public
from his privately owned pharmacy. The co-                   l   A former VAMC student trainee and his brother
conspirators and the pharmacy owner are awaiting             were both indicted for conspiracy to commit credit
further adjudication. Loss to the Government is              card fraud. The indictment followed a joint
over $1.3 million.                                           investigation between the VA OIG and U.S. Postal
                                                             Inspection Service regarding allegations the student
                                                             trainee was fraudulently obtaining credit cards
Theft and Embezzlement
                                                             using the names and personal information of VA
                                                             employees. The individual would generally use
l   A VAMC accounting technician pleaded guilty              convenience checks to withdraw funds from these
to a criminal information charging him with                  credit card accounts. The checks were deposited
embezzling public money. A joint investigation by            into the bank accounts of both brothers.
the VA OIG and VA police disclosed the individual            Approximately $43,000 in fraudulent charges was
had U.S. Treasury checks wrongfully issued in his            made on the credit card accounts.
name, taking advantage of his position to defraud
the veterans’co-payment refund program of more
                                                             Theft of Government Property
than $7,500. He proceeded to cash the checks and
use the money to pay personal debts. The
                                                             l   A former VAMC medical administration service
individual subsequently confessed to the scheme
during the course of the investigation. A sentencing         lead clerk pleaded guilty to one count of theft of
date is pending.                                             Government property. Investigation determined the
                                                             individual had instructed a fee basis contractor that




                                                        12
                                                                                   Office of Investigations

had been overpaid by VA to refund the VAMC by               charged with theft of Government property. A joint
making two checks, totaling $5,424, payable to              investigation by the VA OIG and VA police
himself in care of VA. The individual then                  disclosed the individual, using his assigned
deposited the funds in his girlfriend’s bank account        Government credit card, wrongfully purchased
and proceeded to use the money for his own use.             items solely intended for personal use. The
                                                            individual confessed to his acts during the course of
l   Three individuals employed at a VAMC                    the investigation, relinquished the items purchased
canteen and one VAMC homeless program                       that were still in his possession, and resigned from
employee were each charged for unlawfully                   his employment. A trial date is pending.
removing Government property from the VAMC
canteen warehouse and retail store. The charges             l    A VAMC clerk pleaded guilty to charges of
were the result of a joint VA OIG and VA police             larceny and was sentenced to 5 years’suspended
investigation into the theft of canteen products. A         sentence, 5 years’probation, ordered to pay $7,284
recent internal VAMC canteen audit identified that          restitution, serve 100 hours’community service,
an estimated loss of $216,000 occurred during               and submit to drug evaluation and counseling. A
calendar year 2000.                                         joint investigation by the VA OIG, VA police, and
                                                            General Services Administration OIG disclosed the
Workers’Compensation Benefits Fraud                         individual misused a Government fleet service
                                                            credit card to make unauthorized purchases of
A former licensed practical nurse at a VA medical           $7,280.
and regional office center was sentenced to 6
months’home detention with electronic monitoring,           False Statements
60 months’probation, and ordered to pay jointly
with her husband $37,479 in restitution to the              A VAMC pipe-fitter, who also served as vice-
Department of Labor, Office of Workers’                     president of the local American Federation of
Compensation Programs. Her husband was                      Government Employees union, was charged with
sentenced to 60 months’probation and ordered to             one count of forgery of records and one count of
make the joint restitution. The nurse previously            uttering or publishing false records. A joint
had been indicted on one count of false statements          investigation by the VA OIG, VA police, and
to obtain Federal workers’compensation benefits.            Federal Bureau of Investigation (FBI) disclosed the
Her husband had been indicted on charges of aiding          individual and other union members devised a
and abetting. A VA OIG investigation disclosed the          scheme, alleging that a VA police detective
two failed to disclose the wife’s involvement in her        fabricated evidence against another VAMC
husband’s aluminum siding and windows business              employee by altering a witness’written statement
while she received workers’compensation benefits            relating to an alleged assault that took place at the
for an inability to work due to an injury. At the 4-        VAMC. As evidence in the scheme, union members
day trial, the nurse and her husband were each              provided the VA OIG with witness statements
found guilty of their respective charge. At the time        which contained inconsistent signatures and alleged
of the guilty verdict, the nurse’s employment was           the detective had forged one of the statements.
terminated.                                                 Investigation disclosed the VA detective did not
                                                            forge or otherwise alter evidence. The VA OIG
Credit Card Fraud                                           forensic laboratory determined the forged signature
                                                            was actually authored by the pipe-fitter.
l   An individual formerly employed as a VAMC
grounds maintenance supervisor was arrested and




                                                       13
Office of Investigations

Other Employee Misconduct                                   engage in other fraudulent activities. Two of her
                                                            wards, a veteran judged incompetent to handle his
An individual pleaded guilty to a four count                own affairs and another ward in receipt of SSA
indictment charging her with committing bank                benefits, died while in her care. The caretaker had
fraud. An investigation disclosed the individual            a prior conviction for elder abuse. Search warrants
opened a credit union account which she used to             executed on the caretaker’s residence and the
deposit over $34,000 in stolen and forged checks            residences of her three daughters disclosed evidence
belonging to a disabled veteran living in a VA              of illegal firearms possession and evidence that
nursing home.                                               fraud had been committed. Another disabled
                                                            veteran in her care, who was to be a witness in the
Abuse of Veterans by Caregivers                             criminal investigation, was taken into protective
                                                            custody by VA OIG and county adult protection
                                                            services employees after it was alleged that the
Four individuals were indicted and charged with
                                                            caretaker had abused him in order to prevent his
fraud, witness tampering, and illegal possession of
                                                            testifying against her. The disabled veteran was
a firearm. Three of the individuals were arrested
                                                            taken to a VA urgent care clinic where an
pursuant to the indictment and the fourth individual
                                                            examination corroborated witness accounts that the
was already in custody. A joint investigation by the
                                                            caretaker recently had beaten the veteran. The
VA OIG; Social Security Administration (SSA)
                                                            caretaker allegedly instructed the disabled veteran
OIG; Bureau of Alcohol, Tobacco, and Firearms;
                                                            to make false statements to the grand jury, resulting
U.S. Postal Inspection Service; and local
authorities disclosed the individuals engaged in a          in the witness tampering charges filed against her.
scheme to commit fraud, make false claims, and
embezzle funds belonging to VA and SSA benefits             Theft/Diversion of
recipients who were deemed incompetent to handle            Pharmaceuticals (non-employee)
their own affairs. The individual already in
custody, a caretaker for incompetent veterans, used         l   An individual was sentenced to time served, 2
her position to misappropriate VA and SSA benefits          months’supervised release, and to pay a $200
payments intended for her wards, as well as to              special assessment. The individual previously had

                           The Sacramento Bee, Wednesday, October 4, 2000




                                                       14
                                                                                     Office of Investigations

pleaded guilty to two counts of obtaining a                   stolen items to a Medicare recipient and billing
controlled substance by fraud, deceit, or forgery. A          Medicare for the cost. The stolen property was
VA OIG investigation disclosed the individual stole           recovered and the investigation is continuing.
a prescription pad from a VAMC emergency room
doctor, forged a doctor’s prescription, and obtained          l    Five individuals were arrested and charged
120 narcotic tablets from the pharmacy. The                   with participating in a scheme to steal U.S.
individual also stole a prescription pad and doctor’s         Treasury checks from the U.S. mail. A joint
name stamp from another VAMC physician and                    investigation by the VA OIG, U. S. Postal
used these items to forge another prescription for            Inspection Service, U. S. Secret Service, and local
120 additional narcotic tablets.                              agencies disclosed that a Postal Service employee
                                                              stole checks before they could be delivered to the
l   Two VA patients were each sentenced to 60                 addressees. Accomplices manufactured fraudulent
months’probation. This sentence resulted from a               identification documents in order to cash the stolen
3-month undercover joint investigation by VA OIG              checks. The thefts included payroll checks issued
and VA police that disclosed the two patients sold            to VAMC employees.
their prescription narcotics, primarily percocet and
morphine, to VA employees and others.                         Theft of Other Property

Possession of Illegal Drugs on                                l   An individual was arrested on charges of
VAMC Property                                                 conducting a fraudulent scheme and identity theft.
                                                              The individual was found to be in possession of
Two individuals pleaded guilty to one count each of           computer equipment purchased using the personal
illegally distributing heroin after being arrested and        identifying information of several VA employees.
indicted on charges of distributing heroin on VAMC            The individual’s boyfriend was also arrested and
grounds. The guilty pleas resulted from a joint               charged with possession of stolen property. A
investigation by the VA OIG, VA police, and FBI               search of the couple’s apartment uncovered
into heroin distribution schemes operating on                 multiple credit cards in various names and
VAMC grounds. The investigation disclosed the                 counterfeit retail gift certificates.
two individuals, both of whom were in the VAMC
methadone maintenance treatment program, sold                 l    A VAMC detective advised that his office had
heroin to fellow patients enrolled in the program.            received complaints from a number of employees
One individual was sentenced to 12 months’                    that personal credit cards had been stolen from
imprisonment and 3 years’probation. The second                their workspaces. During preliminary inquiries, the
individual was sentenced to 24 months’                        detective identified a female as one of several
imprisonment and 3 years’probation.                           subjects involved in the credit card thefts and
                                                              requested VA OIG assistance. The VA OIG special
Theft of Government Property                                  agents and the U.S. Secret Service joined in the
                                                              investigation. Subsequent inquiries determined the
                                                              stolen cards were used to purchase cigarettes and
l   An individual who operated as a medical                   other items at local retail stores. A store employee
equipment dealer was arrested and charged with                who conducted one of the transactions involving a
dealing in stolen property. A joint investigation by          stolen credit card advised that she personally knew
the VA OIG, FDA, and local police disclosed the               the female who had made the purchase and
individual knowingly engaged in a scheme to                   identified the subject by name. Based on the
purchase medical equipment stolen from a VAMC.                information received, the detective obtained an
He then arranged to broker the stolen merchandise             arrest warrant for the individual charging her with
through his medical supply company, selling the               theft. The individual was subsequently arrested.


                                                         15
Office of Investigations

l   The nephew of a quadriplegic veteran who                l    VA OIG special agents in cooperation with
resides at a VAMC spinal cord injury unit was               VAMC police and the U.S. Marshal’s Service
arrested based on a criminal complaint charging             conducted a review of outstanding arrest warrants
him with bank fraud. A joint investigation by the           issued for individuals who had committed crimes at
VA OIG and VA police disclosed the nephew                   a VAMC. One of the individuals was wanted for
obtained the veteran’s personal identification              failure to appear in two cases in connection with
number to his automated teller machine card while           assaulting a VA police officer and disorderly
assisting the veteran with a financial transaction.         conduct. The agents located and apprehended him.
The nephew later stole the card from the veteran’s
room at the VAMC and used it to steal more than             Misappropriation of Union Funds
$5,000 from the veteran’s bank account. Further
judicial actions are pending.
                                                            An individual formerly employed as secretary-
                                                            treasurer for an American Federation of
l    An individual was indicted on one count of
                                                            Government Employees union office located at a
wire fraud after being arrested pursuant to
                                                            VAMC was sentenced to 3 years’probation and
statements he made and evidence that was disclosed
                                                            ordered to pay $192,000 restitution. The individual
when a search warrant was executed on his
                                                            previously pleaded guilty to a three count criminal
residence. The search warrant disclosed evidence
                                                            information charging that he participated in a
that he had hacked into a computer system that ran
                                                            conspiracy to commit mail fraud, submitted a false
the telephones at a number of locations, including a
                                                            personal income tax return, and possessed a
VAMC. A joint investigation by the VA OIG,
                                                            firearm in a Federal facility. A joint investigation
General Services Administration OIG, U.S. Secret
                                                            by the VA OIG, Department of Labor, and Internal
Service, and a state electronic crimes task force
                                                            Revenue Service (IRS) disclosed the individual
disclosed the individual gained access to toll free
                                                            issued union checks to himself and third parties for
numbers that he sold to others for use in making
                                                            their personal benefit. He then made false
long distance calls. Approximately 17 telephone
                                                            statements in annual reports to the Department of
systems were hacked. The total loss to all affected
                                                            Labor to conceal the misappropriation of funds.
companies was more than $341,000, with a loss of
                                                            Total amount of misappropriated funds was
more than $11,600 to VA.                                    approximately $190,000.

Apprehension of Fugitives                                   Procurement Fraud
l   In response to a request for assistance from            A medical supply company pleaded guilty to a
VAMC authorities, VA OIG initiated a project to             criminal information charging it with introducing
address drug trafficking and related problems. The          into interstate commerce a misbranded medical
VAMC police identified a number of potential                device, failing to furnish appropriate notifications
subjects. A routine background inquiry on one               to the FDA, and submitting false reports to the
subject determined he was wanted for a probation            FDA with respect to a medical device. As part of
violation. VA OIG special agents tracked the                the sentencing, which occurred simultaneously, the
individual, a former VAMC residential patient, to           company was ordered to pay a criminal fine of
an adult group home. After coordinating the                 $29.4 million, civil penalties of $30.6 million, and
warrant with the local police, OIG agents and the           was placed on probation for a period of 3 years. A
local police apprehended the subject without                joint investigation by the VA OIG, FDA,
incident.                                                   Department of Health and Human Services OIG,
                                                            Defense Criminal Investigative Service, and FBI
                                                            disclosed the company manufactured and



                                                       16
                                                                                     Office of Investigations

distributed a glucose monitoring system that had              Criminal Investigative Service disclosed the
known defects that would cause glucose meters to              individual, whose companies contracted with VA
display problematic readings. The company                     and the U.S. Navy to perform construction work on
admitted that it failed to describe the two defects in        facilities, defaulted on a number of the contracts
its submissions for FDA clearance to market the               and used the mail to divert hundreds of thousands
blood glucose monitors. VA purchased more than                of dollars in payments that were designated for
$346,000 worth of the defective products for use in           numerous sub-contractors. The actions of this
the VA health care system.                                    individual and another co-owner of the construction
                                                              company resulted in a $3.2 million loss suffered by
Contract Fraud                                                a bonding company when the contracts were
                                                              defaulted. The investigation further disclosed the
                                                              individual made false statements to the Government
l    An individual, who operated as owner and
                                                              by certifying to the Small Business Administration
president of a medical lab company, pleaded guilty
                                                              that he was the sole owner of the construction
to a 24-count indictment charging her with
                                                              company. Judicial actions are pending against
misrepresenting the company as a Government
                                                              other individuals involved in the conspiracy.
contractor, mail fraud, making false statements to
the Government, and bankruptcy fraud. She had
previously been arrested after a joint investigation          Travel Benefits Fraud
by the VA OIG, FBI, Defense Criminal
Investigative Service, Army Criminal Investigative            l     A VAMC outpatient was arrested on charges
Division, and U.S. Agency for International                   that he received travel benefits to which he was not
Development disclosed she made false statements               entitled. A joint investigation by the VA OIG and
to the Government certifying that medical products            local police disclosed the individual provided a
were made in the U.S. The company had been                    fictitious residential address to VA indicating that
awarded a $64,000 VAMC contract based on the                  he lived farther from the VAMC than he actually
false claim that the company was an authorized                did, in order to obtain increased travel
distributor of medical products for another health            reimbursements in cash. Total loss to VA was more
care firm. That false statement resulted in default           than $12,000 through the submission of more than
of the contract and monetary loss to VA. The                  340 fraudulent travel vouchers.
company failed to provide products, failed to
provide proper amounts of the products, and failed            l    An individual was arrested and pleaded guilty
to provide the products in a timely manner that               to charges of grand theft after a joint investigation
ultimately had an adverse effect on patient care.             by the VA OIG and VA police disclosed that he filed
Further fraudulent activities included                        fraudulent travel reimbursement vouchers.
misrepresenting personnel from the company as                 Investigation showed the individual submitted
Government officials and making false statements              travel vouchers for travel to a VAMC, claiming
that resulted in duplicate payments and contractual           that he lived farther away from the VAMC than he
defaults.                                                     actually did, in order to obtain more than $5,700 in
                                                              travel reimbursement benefits to which he was not
l   A criminal information was filed in U.S.                  entitled.
District Court charging the co-owner of a
construction company with conspiracy to                       l    An individual entered a guilty plea to one count
fraudulently use the U.S. mail for personal gain              of theft by taking and was sentenced to 6 months’
and with making false statements to the                       imprisonment, 114 months’probation, and ordered
Government. A joint investigation by the VA OIG,              to pay probation fees and restitution of $29,600.
Small Business Administration, and Naval                      The sentencing was the result of a joint




                                                         17
Office of Investigations

investigation by VA OIG and local police that               action. To date the match has identified in excess
disclosed the individual, a VAMC outpatient, filed          of 700 possible cases. Over 330 investigative
false documents in order to receive travel benefits         cases have been opened. Investigations have
to which he was not entitled. The individual                resulted in the actual recovery of $2.1 million, with
provided fictitious residential addresses to VA             an additional $6 million in anticipated recoveries.
alleging that he lived farther from the VAMC than           The 5-year projected cost savings to VA is
he actually did, in order to obtain increased travel        estimated at $9.5 million. To date, there have been
reimbursements in cash. The total loss to VA was            eight arrests on these cases with several additional
in excess of $27,100 through the submission of 657          cases awaiting judicial actions.
fraudulent travel vouchers.
                                                            Employee Misconduct

Veterans Benefits                                           Theft and Embezzlement

Administration                                              A former VARO employee and her associate were
                                                            indicted on multiple counts of theft, mail and wire
VBA provides wide-reaching benefits to veterans             fraud, and conspiracy. The indictment is the result
and their dependents including pension and                  of a joint investigation by VA OIG and U.S. Postal
compensation payments, home loan guaranty                   Inspection Service. The investigation determined
services, and educational opportunities. Each of            that over a 3-year period the employee, in her
these benefits programs is subject to fraud by              capacity as a veterans’service officer, created a
those who wish to take advantage of the system.             false veteran payee within VA data systems,
For example, individuals submit false claims for            subsequently causing VA to issue benefit checks in
service connected disability, third parties steal           the name of a fictitious veteran to an address
pension payments issued after the unreported                controlled by her associate. The employee then
death of the veteran, individuals provide false             negotiated the checks. As a result, monetary loss to
information so that veterans qualify for VA                 the Government exceeds $229,700.
guaranteed property loans, equity skimmers dupe
veterans out of their homes, and educational                Procurement Fraud
benefits are obtained under false representations.
The Office of Investigations spends considerable            An individual was sentenced to 5 months’home
resources in investigating and arresting those who          confinement, 5 years’probation, and was ordered
defraud the benefits operations of VA.                      to pay more than $117,000 restitution. The
                                                            individual previously had pleaded guilty to
Death Match Project                                         converting money belonging to VA to his own use.
                                                            A VA OIG investigation disclosed the individual
An ongoing proactive project is being conducted by          operated as the pastor of a church and the president
the VA OIG Information Technology and Data                  of a corporate affiliate of the church, a nonprofit
Analysis Division in coordination with the Office of        corporation whose purpose it is to improve the
Investigations. The match is being conducted to             quality of life in the church’s neighborhood. In
identify individuals who may be defrauding VA by            August 1996, the corporation applied for a
receiving VA benefits intended for veterans who             $500,000 “VA homeless providers and per diem”
have passed away. When indicators of fraud are              grant, to be used to provide transitional housing
discovered, the matching results are transmitted to         and vocational skills to homeless veterans. The
VA OIG investigative field offices for appropriate          corporation’s grant application was approved and




                                                       18
                                                                                   Office of Investigations

in January 1997, VA forwarded $200,000 as the                             The Sacramento Bee
first disbursement of grant funds. The money was                       Tuesday, February 13, 2001
to be used for specific purposes which included the
purchase and rehabilitation of a building in the
neighborhood which was to become a skills center.
The investigation determined the building was
never purchased and the individual used $117,094
of the grant funds for purposes unrelated to the
project, including channeling a portion of the funds
into his for-profit real estate business.

Loan Guaranty Program Fraud

Loan Origination Fraud

l    A disbarred attorney was sentenced to 27
months’imprisonment, 5 years’probation, and
ordered to pay $981,711 restitution to his victims
after pleading guilty to a criminal information
charging him with mail fraud. A joint investigation
                                                            l    Two real estate agents and another individual
by the VA OIG and FBI disclosed he engaged in a
                                                            were found guilty of 10 counts of mail fraud and 1
scheme to defraud while acting as the closing
                                                            count of equity skimming. A joint investigation by
attorney on real estate purchase and sale
                                                            the VA OIG and FBI disclosed the three defendants
transactions. This scheme involved both VA
                                                            promised homeowners facing foreclosures they
guaranteed loans and non-VA loans. Prior to each
                                                            could stop the foreclosures and salvage their credit
closing, the mortgage companies mailed or wired
                                                            ratings by transferring their homes to trusts
the loan proceeds to the closing attorney. The
                                                            controlled by the defendants. The defendants
monies were deposited into the attorney’s escrow
                                                            rented the properties back to the homeowners or
account. Subsequent to each real estate closing,
                                                            other individuals without paying the outstanding
the attorney mailed documents to the mortgage
                                                            mortgages. The defendants used the rent money
companies certifying that the loan proceeds had
                                                            they collected for personal expenses. Five of the
been properly disbursed. The investigation
                                                            homeowners had loans guaranteed by VA. Losses
disclosed that for a number of years the attorney
                                                            to VA in the foreclosures were approximately
delayed paying off mortgages and used the money
                                                            $150,000. Sentencing is pending.
to pay business and personal expenses. As he
closed new loans the money was used to pay off old
mortgages. In some instances, the attorney paid the
                                                            Property Management Fraud
monthly loan payments so the mortgagees would
not realize that there were two loans against their         An individual was sentenced to 60 days’
property. The scheme was discovered when the                incarceration, 3 years’probation, ordered to
attorney’s business declined and he was unable to           complete the court’s larceny program, and to
pay off some of the later mortgages. The total theft        complete 16 hours’of community service each
is more than $936,900.                                      month for the term of her probation. The sentence
                                                            was the result of a joint investigation by the VA
                                                            OIG and local law enforcement authorities, which




                                                       19
Office of Investigations

disclosed the individual broke into, and took               Dependency and Indemnity
wrongful possession of, VA foreclosed properties            Compensation Benefits Fraud
and then leased them to unsuspecting victims.
                                                            l    An individual pleaded guilty to three counts of
Other Loan Guaranty Fraud                                   theft of Government property. An investigation by
                                                            the VA OIG disclosed the individual, the daughter
l    Three individuals involved in a loan guaranty          of a VA beneficiary, failed to disclose her mother’s
fraud scheme pleaded guilty to making false                 death to VA and continued to allow VA Dependency
statements to the Government. The first individual          and Indemnity Compensation (DIC) benefits to be
worked for a mortgage bank, the second individual           issued. The individual received and negotiated 53
operated as a real estate closing attorney, and the         U.S. Treasury checks totaling $53,393 and
third was a property appraiser. All three admitted          deposited the funds into a personal bank account
to taking part in a scheme where property values            for her own use.
were deliberately inflated in order to raise the
amount of the loan so that delinquent credit debts          l    The daughter of a VA DIC benefits recipient
of the borrower could be paid off. These loans              was arrested after a VA OIG and U.S. Postal
were subsequently insured by the Government,                Inspection Service investigation disclosed she
including VA.                                               diverted VA benefit payments. Investigation
                                                            revealed the individual failed to notify VA of the
l    Two individuals each pleaded guilty to a five-         death of her mother. After the mother’s death, the
count criminal information charging them with               individual contacted VA and switched the benefits
bankruptcy fraud, equity skimming, conspiracy,              payment to a direct deposit. For more than 10
false use of a Social Security number, and making           years, the individual carried on this fraud causing a
a false statement in a bankruptcy filing. A joint           loss to VA of $105,276.
investigation by the VA OIG, Department of
Housing and Urban Development, and FBI                      l   An individual was sentenced to 18 months’
disclosed the two operated an equity skimming               imprisonment, 3 years’probation, and ordered to
scheme involving hundreds of loans. To stall                pay $159,348 restitution to VA. The individual had
foreclosure on the properties, the individuals filed        previously pleaded guilty to an indictment charging
bankruptcies in multiple states using fraudulent            her with felony theft of Government funds after a
names and Social Security numbers. Loss to the
                                                            VA OIG investigation disclosed that from
Government exceeds $3 million. Sentencing is
                                                            November 1980 to September 2000, she negotiated
scheduled.
                                                            U.S. Treasury checks payable to her deceased
                                                            mother-in-law. The individual failed to notify VA
Beneficiary Fraud                                           of her mother-in-law’s death, forged forms to
                                                            continue the payments, and converted the money to
Accounting for over 60 percent of the VA OIG                her own use.
investigative case inventory, fraud associated with
VA's benefits payments programs leads to numer-             l   An individual was arrested pursuant to a
ous arrests and judicial actions. The following are         criminal complaint charging her with theft of VA
a sampling of these cases conducting during this            benefits. A VA OIG investigation disclosed the
semiannual period.                                          individual failed to notify VA of her grandmother’s
                                                            death and continued for more than 6 years to divert
                                                            DIC benefits checks mailed to her grandmother as




                                                       20
                                                                                     Office of Investigations

surviving spouse of a deceased veteran. During the            DIC benefits terminates upon remarriage. In
course of the 6-year period, the individual                   addition to receiving DIC benefits, the individual
completed two marital status questionnaires sent to           also received medical benefits through the Civilian
her grandmother by VA, signing her grandmother’s              Health and Medical Program of the Department of
name on both questionnaires in order to continue to           Veterans Affairs (CHAMPVA) program. Due to
receive the DIC checks. Loss to VA was more than              her failure to notify VA of her remarriage, she
$93,000 in benefits wrongfully diverted by the                received $81,322 in DIC benefits and
individual.                                                   approximately $5,000 in CHAMPVA benefits to
                                                              which she was not entitled.
l   The wife of a veteran pleaded guilty to felony
charges of first degree arson, insurance fraud, and           l   An individual pleaded guilty to one count of
theft of Government funds. The charges were the               theft of Government funds. A joint investigation by
result of a joint VA OIG, state insurance fraud               the VA OIG and FBI disclosed the individual failed
agency, and state fire marshal’s office investigation.        to report her mother’s death to VA and continued to
The individual admitted to deliberately setting her           receive VA compensation benefits checks mailed to
home on fire in order to benefit from insurance               her mother, the beneficiary and widow of a veteran.
proceeds and fraudulently receiving VA DIC                    For more than 8 years after her mother’s death, the
benefits. The individual is still under investigation         individual forged her mother’s signature on the
for the death of her first husband, a veteran who             benefits checks and diverted $86,709 for her own
died in a suspicious house fire. She was sentenced            personal use.
to 10 years imprisonment and ordered to pay fines
totaling $6,225.                                              Pension Benefits Fraud
l   An individual was sentenced to 21 months’                 l   An individual who previously pleaded guilty to
confinement, 36 months’probation, and ordered to
                                                              a one count criminal information charging her with
pay $34,400 restitution after pleading guilty to two
                                                              fraudulent acceptance of VA benefit payments was
counts of theft of Government property. The
                                                              sentenced to 60 months’probation and ordered to
sentencing was a result of a joint investigation by
                                                              pay $19,770 in restitution. A VA OIG investigation
VA OIG and SSA OIG which disclosed the
                                                              disclosed the individual, who was entitled to
individual failed to report his mother’s death to VA
                                                              benefits as the widow of a veteran, failed to
and SSA. For more than 20 months after his
                                                              disclose that she had worked while receiving VA
mother’s death, the individual continued to allow
                                                              benefits. When she knowingly failed to report her
VA and SSA benefit payments to be electronically
                                                              earnings to VA while receiving the benefits, an
deposited into a joint checking account that he
                                                              overpayment of more than $19,200 was created.
shared with his mother. He used these payments
for his personal use.
                                                              l    An individual was arrested, indicted and
                                                              subsequently pleaded guilty to charges of theft and
l   An individual was charged in a 10-count
                                                              forgery. A joint investigation by the VA OIG and
criminal indictment with theft of VA benefits. A
                                                              local police disclosed the individual engaged in a
joint investigation by the VA OIG and SSA
                                                              scheme to steal a VA pension benefits check of
disclosed that an anonymous tip indicated the
                                                              $19,728 from a veteran’s mail. The individual
individual was receiving VA benefits to which she
                                                              duped a local businessman into assisting her with
was not entitled. Investigation disclosed the                 negotiating the stolen check and with his assistance
individual, who was receiving VA DIC benefits as              she opened several bank accounts to divert the
surviving spouse of a deceased veteran, remarried             stolen funds.
in 1990 and failed to notify VA. The receipt of




                                                         21
Office of Investigations

l    An individual pleaded guilty to one count of           had nothing to do with the level of care being
wire fraud after a VA OIG investigation uncovered           provided. The nursing company then hired a friend
the individual failed to disclose to VA the death of        or relative of each VA beneficiary to serve as a
his roommate, a veteran in receipt of VA pension            caregiver, who in many cases provided little or no
benefits, and continued to allow the benefits to be         care. Veterans and caregivers were instructed to
deposited into a joint checking account bearing             have the caregiver slip their nursing company’s pay
both of their names. Through this scheme, the               back to the veterans’service officer under the table.
individual diverted more than $51,800 in VA                 The jury determined VA’s loss to be $104,500.
benefits to which he was not entitled.
                                                            l    An individual was indicted on two counts of
l    Three individuals, a county veterans’service           false statements, 12 counts of wire fraud, and 15
officer, a registered nurse, and the owner of a             counts of mail fraud. A VA OIG investigation
nursing company, were convicted and sentenced for           disclosed the individual had been receiving VA
their participation in a conspiracy and wire fraud          widow’s pension benefits since 1990 as surviving
scheme to defraud VA. The veterans service                  spouse of a deceased veteran. VA regulations
officer was sentenced to 1 year probation and               provide that remarriage disqualifies eligibility to
ordered to pay $104,500 restitution. The two                such benefits. The investigation disclosed that in
remaining individuals were each sentenced to 6              applying for the benefits, the individual falsely
months’home confinement, 2 years’probation,                 certified that she had not remarried when, in fact,
ordered to pay $104,500 restitution, and assessed           she had remarried 1 month after the death of the
fines and penalties totaling $21,000 each. A VA             veteran. Also, the VA OIG forensic laboratory
OIG investigation disclosed the three individuals           determined the individual altered the veteran’s
devised a scheme whereby veterans and widows                original death certificate in order to have it falsely
would submit paperwork to obtain VA pension                 state that she was his wife. Subsequent to the false
benefits by reporting unreimbursed medical                  application, she filed yearly certifications stating
expenses from the nursing company. Nursing                  that she had remained a widow. As a result of the
company expenses were created solely to offset              scheme, the individual received more than $56,600
each beneficiary’s income thereby maximizing VA             to which she was not entitled.
benefits; the reported nursing company expenses
                                                            l   A veteran pleaded guilty to four counts of wire
          South Sioux City Star                             fraud. A joint investigation by the VA OIG and
        Thursday, January 11, 2001                          Department of Health and Human Services
                                                            determined the veteran devised a scheme to hide his
                                                            employment from VA while collecting VA pension
                                                            benefits. Using an alias and a false Social Security
                                                            number, the veteran received benefits to which he
                                                            was not entitled. Loss to VA is approximately
                                                            $25,000.

                                                            Education Benefits Fraud

                                                            l   An individual was sentenced to 27 months’
                                                            imprisonment and ordered to pay $17,000
                                                            restitution. The individual used another person’s




                                                       22
                                                                                    Office of Investigations

identity and transcripts to gain admission to a              Marine Corps during the Vietnam War. The
college graduate program, then used his own                  veteran claimed these events caused him to develop
identity to obtain education benefits from VA. The           post-traumatic stress disorder for which he was
individual was not eligible for admission to the             rated 100 percent disabled. The VA OIG forensic
graduate program on his own because his grades               laboratory identified the veteran’s handwriting on a
were too low, therefore he defrauded VA into                 falsified entry in his service medical record. The
providing educational benefits that he would not             false entry intended to show the veteran had
otherwise be entitled to. This was a joint                   sustained a shrapnel wound during combat, when in
investigation with the VA OIG, FBI, SSA, and a               fact, no such event occurred. Loss to VA was more
local police department.                                     than $262,000. An earlier investigation of the
                                                             veteran by the FBI and U.S. Secret Service into
l   An individual who was employed as a contract             threats made against former President Clinton
employee for the U.S. Postal Service was indicted            resulted in a guilty plea to possession of explosive
on charges of obstruction of correspondence and              devices. The veteran is presently serving a 13-year
unlawful possession of letters containing VA                 prison sentence on those charges. Sentencing
checks. A joint investigation by the VA OIG and              relative to the guilty plea has been scheduled.
U.S. Postal Inspection Service disclosed the
individual conspired to divert 27 VA educational                  The Register-Guard, Eugene, OR
benefits checks totaling $14,000.                                    Friday, February 23, 2001

Compensation Benefits Fraud

l    An individual was sentenced to 5 years’
probation and ordered to pay $16,780 restitution
after being indicted on charges of receiving benefits
to which he was not entitled. A VA OIG
investigation disclosed the individual, a veteran
formerly employed as a civilian aircraft mechanic,
collected disability benefits based on a declaration
made to VA that he was not employed and could not
obtain future employment due to service-related
disability. He was in fact continuously employed
when he made the statements. Based on his
declaration of unemployability, VA increased his
benefits by approximately $1,000 per month
resulting in a loss to the Government of more than
$16,700.

l   A veteran pleaded guilty to five counts of wire
fraud and one count of theft of public money. The
plea resulted from a joint investigation by VA OIG
and FBI which disclosed the veteran made
numerous misrepresentations to VA relative to his
military duties, injuries received, and traumatic
events he witnessed while serving in the U.S.




                                                        23
Office of Investigations

l   The brother of a deceased veteran was indicted           defraud VA of $194,198 in benefits payments. The
on one count of theft of Government funds. A joint           individual submitted false claims and made false
investigation by the VA OIG and U.S. Postal                  statements to VA physicians, representing that he
Inspection Service disclosed that for almost 4 years         was severely disabled, wheelchair bound, and in
the brother had assumed the deceased veteran’s               need of aid and attendance from a care giver, when,
identity to obtain VA disability compensation                in fact, he was able to walk and was not as severely
benefits. The loss to VA was $93,601.                        disabled as he represented.

l    An individual was sentenced to 15 months’               Fiduciary Fraud
imprisonment, 36 months’supervised release, and
ordered to pay $53,096 restitution. The individual,          l   An individual who operated as a fiduciary for
a veteran, previously pleaded guilty to charges of           her veteran husband pleaded guilty to theft of
scheming to defraud VA by providing false                    Government funds. A VA OIG investigation
information with regard to his employment history.           disclosed the individual, as fiduciary, was
In 1996, VA awarded the individual 100 percent               responsible for the management of benefit
unemployability benefits based on his certification          payments distributed by VA. When her husband
that he had not been employed since 1994 due to              died in February 1997, the individual failed to
service-connected injuries. A joint investigation by         notify VA, causing benefits payments in excess of
the VA OIG and IRS Criminal Investigations                   $130,000 to continue to be deposited into a jointly
Division disclosed the individual owned a                    held bank account. She then used these benefits for
construction company and worked as a carpenter,              her own use.
performing physical labor during the time that he
was collecting benefits for unemployability. As a            l   An attorney was indicted and charged with one
result of the scheme, the individual received more           count each of false statements, theft, and
than $50,000 in benefits to which he was not                 misappropriation by a fiduciary. The indictment
entitled.                                                    was the result of a VA OIG investigation that
                                                             disclosed the individual, appointed by the state
l    An individual was arrested on charges of                court to act as financial guardian for an
submitting false claims, theft, and providing false          incompetent veteran, failed to provide an
statements. A VA OIG investigation disclosed the             accounting of disbursements of the veteran’s
individual, a veteran alleging 100 percent disability        benefits to VA. It was later determined that
for blindness, bolstered his claim for VA                    $29,000 in VA compensation benefits was missing
compensation, claiming to be completely blind                from the veteran’s account.
when his visual impairment was found to be far
less severe. From December 1995 to August 1999,              l   An individual was sentenced to 8 months’
the individual submitted false statements and                imprisonment, 3 years’probation, and ordered to
documents which caused VA to issue compensation              pay $130,568 restitution to VA. The individual
payments based on his 100 percent blindness claim,           previously pleaded guilty to one count of theft of
creating an overpayment of more than $62,300.                Government funds following a VA OIG
The individual pleaded guilty to the charges and             investigation. The investigation determined she
sentencing is pending.                                       was the fiduciary for her veteran husband and
                                                             responsible for the management of benefit
l    An individual pleaded guilty to one count of            payments distributed by VA, however she failed to
making false and fraudulent statements. A joint              notify VA when her husband died in 1997. The
investigation by the VA OIG and VA police                    benefits payments continued to be deposited into a
disclosed the individual engaged in a scheme to              joint bank account and the individual used these
                                                             benefits for her own use.


                                                        24
                                                                                  Office of Investigations

Theft of Benefits                                          obtain Social Security disability benefits and
                                                           Department of Education benefits.
l    An individual was indicted and charged with 98
counts of forgery and theft. A joint VA OIG and            l   A veteran who was rated with a 100-percent
SSA OIG investigation determined that, over a 5-           service-connected disability and his wife each
year period, the individual cashed both VA and SSA         pleaded guilty to one count of theft of Government
benefits checks issued to a deceased veteran. The          funds. A VA OIG investigation disclosed the
total loss to the Government is estimated at more          veteran’s daughter was injured in an automobile
than $69,400 with VA’s loss estimated at more than         accident and had her medical bills paid by the
$33,800. The individual was arrested prior to the          Civilian Health and Medical Program of the
indictment and a criminal trial is scheduled.              Department of Veterans Affairs (CHAMPVA). The
                                                           daughter was also covered by a private insurance
l    An individual was arrested after being charged        carrier that was ultimately responsible for the
in a 26-count indictment with bank fraud, mail             medical bills. The veteran’s wife disputed who
fraud, and the theft of 13 U.S. Treasury checks. A         should receive the reimbursement payment from the
joint investigation by the VA OIG and U.S. Secret          private insurance company, so the company issued
Service disclosed that checks reported missing by          a $21,792 check payable to the veteran’s wife and
VA beneficiaries living in the same geographical           CHAMPVA and sent the check to the veteran’s
area were all found to have been deposited into the        wife. The veteran and his wife then procured a
individual’s bank account. After depositing the            “CHAMPVA” rubber stamp, falsely endorsed the
checks into his account, the individual requested          check, and deposited the funds into their personal
that his account be closed and a refund check be           bank account. They subsequently withdrew the
mailed to him. Copies of the checks were obtained          money for personal use. Sentencing is pending.
and revealed the alleged signature of each
beneficiary along with the individual’s signature.         l    The wife of a veteran pleaded guilty to one
The VA OIG forensic laboratory confirmed the               count of misprision of a felony in connection with
individual authored the handwriting on the checks.         her role in conspiring to fake her husband’s death
The 13 checks that were diverted totaled more than         and cover up her husband’s identity, identifying him
$48,200.                                                   to others as another individual and not her husband.
                                                           A joint investigation by the VA OIG, SSA OIG, and
Other Benefits Fraud                                       Defense Criminal Investigative Services disclosed
                                                           the woman conspired with her husband’s mother
l   An individual was sentenced to 21 months’              and brothers to fake her husband’s death and then
                                                           illegally enrich themselves by applying for and
incarceration, 3 years’supervised release, and
                                                           receiving VA and SSA benefits totaling over
ordered to pay restitution of $62,000. A joint
                                                           $300,000 as a result of the faked death. The
investigation by the VA OIG, Department of Health
                                                           woman’s husband was a U.S. Marine who faced
and Human Services OIG, and Department of
                                                           charges of child molestation in a military court. He
Education OIG disclosed the individualenlisted in
                                                           faked his own death in order to avoid those charges,
the U.S. Army on two separate occasions,
                                                           but subsequently was charged with additional
fraudulently using the assumed identity of another
                                                           molestation charges for which he received a
individual. The individual sustained injuries while
                                                           sentence of 45 years’imprisonment.
on active duty and, following his military
discharge, applied for and received VA service-
                                                           l   An individual who formerly served as a
connected benefits under this false identity. The
individual continued to use this false identity to         national service officer with the Disabled American
                                                           Veterans was sentenced to 3 years’supervised




                                                      25
Office of Investigations

probation and was ordered to pay restitution of            Work-Study Program Fraud
$500. The individual previously had pleaded guilty
to a criminal information charging him with                l    Two individuals were arrested pursuant to an
illegally soliciting and receiving funds from a            indictment charging them with conspiracy to submit
veteran. A VA OIG investigation disclosed the              false claims to the Government. A VA OIG
individual solicited the funds from the veteran as         investigation disclosed that one of the individuals, a
payment for providing assistance in the preparation        former VA work-study program participant at the
of a claim for VA service connected disability             Congressional Medal of Honor Society, submitted
benefits.                                                  claims for payments for an 11-month period when
                                                           in fact she did not work at the Society. She was
l    An individual pleaded guilty after being              aided in the scheme by her sister who was
arrested and indicted on charges of theft of VA and        employed as a secretary by the Society. The sister
SSA benefits, false statements, and Social Security        intercepted contracts and claims forms issued by
fraud. A joint investigation by the VA OIG and             VA and furnished them to her sister, who completed
SSA OIG disclosed the individual, who received VA          and returned them to VA via the U.S. mail. Total
and SSA benefits based on his unemployment                 loss to the Government was more than $5,000. A
status, obtained employment using his nephew's             trial date is pending.
Social Security number and did not report the
employment to VA or SSA. The scheme resulted in            l    An individual was arrested and charged with
a loss to the Government of more than $16,000 in           one count of fraud in excess of $2,500, a third
benefits that were wrongfully collected.                   degree felony. Subsequently, this individual
                                                           pleaded guilty and was sentenced to 24 months’
l    An individual was sentenced to 4 months’              probation and ordered to make VA restitution of
home detention, 60 months’probation, and ordered           $5,829. A VA OIG investigation disclosed the
to pay more than $63,000 in restitution after              individual, a veteran participating in a VA
pleading guilty to the fraudulent acceptance of VA         education work-study program, forged his
benefits. A VA OIG investigation disclosed the             supervisor’s initials and filed fraudulent time sheets
individual failed to report to VA the death of his         to claim work he did not perform in order to receive
mother, and continued for almost 10 years to allow         benefits to which he was not entitled.
VA to electronically deposit the benefits into a
jointly held bank account.                                 Credit Card Fraud
l    A veteran was sentenced to 18 months’                 A two-count criminal complaint was filed charging
imprisonment, 36 months’probation, and ordered             an individual with one felony count and one
to pay $33,242 in restitution to the Government            misdemeanor count of theft of Government
after pleading guilty to one count of wire fraud. A        property. The charges were filed as a result of a
joint investigation by a benefits fraud task force         VA OIG investigation that disclosed the individual
comprised of investigators from the VA OIG, SSA            used her assigned Government credit card to
OIG, and U.S. Postal Inspection Service disclosed          purchase furniture, dental services, concert tickets,
the individual was involved in identity fraud and          electronic items, and a vacation travel package for
filing false claims with VA, SSA, and the Office of        her personal use. The individual then submitted
Workers’ Compensation Programs.                            false invoices giving the appearance that the goods
                                                           and services were purchased for veterans. Total
                                                           charges on the card were $3,593.




                                                      26
                                                                                         Office of Investigations

Office of Human                                                    Laboratory Cases for the Period
Resources and                                                            Requester                     Cases
                                                                                                    C o m p leted
Administration                                             O IG Office of Investigations                  7

                                                           V A R e g i o n a l Offices                   17
Support to VA Central Office
                                                           Office of Security and Law                     1
                                                           E nfo rcement
A former VA Central Office (VACO) contract                 Other                                          2
security guard pleaded guilty to one count of theft
                                                                           TOTAL                         27
for his role in the theft of VA computers. The
individual was sentenced to 18 months' probation,
ordered to pay $3,000 restitution to VA, and               The following are examples of completed
perform 40 hours' community service. A joint               laboratory work:
investigation by the VA OIG, VA police, and FBI
disclosed the individual’s role as the person              l    VA OIG investigated an individual who was
responsible for the thefts of computers and                employed as a baggage handler for a major airline
computer-related equipment from VACO. Since the            that transports U. S. Treasury checks through the
individual's arrest and departure from VACO                mail. The forensic laboratory analysis determined
employment, no additional thefts of computers have         the individual forged the payee signatures of 13
occurred.                                                  individuals on checks with a total value of over
                                                           $48,000. The forensic analyst prepared court
                                                           exhibits documenting the forgeries. Testimony
OIG Forensic Document                                      during the trial by the laboratory director played a
Laboratory                                                 major role in the jury finding the individual guilty
                                                           of the charges filed against him.
The OIG operates a nationwide forensic document            l    VA OIG investigated an individual who was a
laboratory service for fraud detection that can be         VAMC registered nurse. The criminal investigation
used by all elements of VA. The types of requests          determined that during a 2½ year period, the nurse
routinely submitted to the laboratory include              made false entries on narcotic sign out sheets and
handwriting analysis, typewriting analysis, ink and        diverting narcotic drugs for personal use.
paper analysis, analysis of photocopied documents,         Hundreds of false entries were revealed as a result
and suspected alterations of official documents.           of a forensic analysis which identified the nurse as
                                                           the author of the false entries. Prosecution is
There were a total of 27 reports issued during this        pending.
semiannual period.
                                                           l   A VARO submitted a case to determine if a
                                                           medical record was created on the date that
                                                           appeared on the document. The record was used by
                                                           a veteran to show justification to VA for a service
                                                           connected disability which would have entitled the
                                                           veteran to additional VA benefits. The laboratory
                                                           examinations determined the record was fraudulent
                                                           and resulted in a VA savings of over $47,000.




                                                      27
Office of Investigations

l   The VARO in Manila, Philippines submitted              Overall Performance
two cases to the laboratory in which the surviving
spouse of deceased veterans submitted medical              During the reporting period, the Division closed 25
records referencing their deceased husbands as             cases.
documentation in support of additional VA benefits.
The records were purportedly created in the 1940’s
                                                           Output
and 1950’s. It was requested that laboratory
                                                           l During the reporting period, five reports with
examinations determine if the records were genuine.
                                                           recommendations and seven advisory memoranda
In both cases, analysis determined the records were
                                                           were issued, including an advisory memoranda on a
not genuine and the VARO turned down the
                                                           case not yet closed due to other open issues.
requests for additional VA benefits. This resulted
                                                           Fourteen cases resulted in administrative closures.
in a VA savings of over $54,000.
                                                           Additionally, at the end of the reporting period, the
                                                           Division had four draft reports completed and
II. ADMINISTRATIVE                                         referred to the Department for comment.
INVESTIGATIONS                                             Outcome
DIVISION                                                   l VA managers agreed to take administrative
                                                           actions against eight high-ranking officials, and five
Mission Statement                                          corrective actions to improve operations and
                                                           activities as a result of these investigations, to
                                                           include issuing a bill of collection and providing
    Independently review allegations and
                                                           guidance to field facilities.
    conduct administrative investigations
    generally concerning high ranking senior
    officials and other high profile matters of            Timeliness
    interest to the Congress and the                       l The average time from receipt of an allegation
    Department.                                            to initiation of an investigative case, for all cases
                                                           initiated during the reporting period, was 35
                                                           calendar days. The average time from initiation of
Resources                                                  an investigative case to case closure (or issuance of
                                                           a draft report), for all cases closed (or with draft
The Administrative Investigations Division has nine        reports issued) during the reporting period was 107
FTE assigned. The following chart shows the                calendar days.
 percentage of resources utilized in reviewing
allegations by program area.
                                                           Customer Satisfaction
                                                           l The average rating on customer satisfaction
                                                           surveys returned during the reporting period was
                                                           4.75 out of a possible 5.0 (5.0 means highly
        VHA                                                satisfied and 1.0 means dissatisfied).
        90%
                                                           The Administrative Investigations Division reports
                                    VBA                    discussed below address serious issues of
                                    10%                    misconduct against high-ranking officials and other
                                                           high profile matters of interest.




                                                      28
                                                                                     Office of Investigations

                                                             Domiciliary Director misused Government vehicles
Veterans Health                                              by allowing community organization
Administration                                               representatives to transport property and non-VA
                                                             individuals in them, or drive them, for unofficial
                                                             purposes. During some of these occasions, the
Acquisition and Use of Cellular                              Director also misused other VA property by lending
Telephone                                                    items to the community organizations for unofficial
                                                             purposes, and misused subordinates' official time
An administrative investigation substantiated that a         by directing them to participate in unofficial
VHA Central Office senior official, and senior               community activities. The Director was an officer
officials at a VAMC, agreed to an arrangement that           in one of the recipient organizations which created
resulted in the misappropriation of funds to                 a conflict of interest. Although the Director's intent
purchase a cellular telephone and telephone service.         was to improve the facility's relations with the local
The VHA official requested one of the VAMC                   community, we concluded he created a risk for
officials, a personal friend of his, to acquire a            substantial Government liability. VHA officials
cellular telephone for him. The VAMC paid for the            agreed with our recommendations to take
telephone and monthly telephone service, in                  appropriate administrative action against the
exchange for the periodic transfer of central office-        Director, and to issue guidance to field facilities
controlled travel funds to the medical center. The           regarding the proper use of official resources for
arrangement was a misappropriation of funds                  community activities. (Use of Government
because a VAMC appropriation was used to pay an              Vehicles, Other Property, and Official Time, VA
expense that should have been paid from another              Domiciliary, White City, Oregon, 00-01137-18,
appropriation. We also substantiated that the VHA            11/30/00)
official did not exercise prudence in the use of the
telephone, including using it for personal long-             Nepotism Issue
distance and frivolous calls. Monthly telephone
bills over a 2-year period averaged over $230.               An administrative investigation substantiated that a
VHA management agreed with our                               VAMC senior official violated the Federal nepotism
recommendations to take appropriate                          statute and regulation, which restricts the
administrative action against the senior officials           employment of relatives, and engaged in a
involved, terminate the arrangement, and review the          prohibited personnel practice, by advocating her
VHA official's telephone records and bill him for            sister for a position at the medical center. The
improper calls made. As a result of another                  senior official initiated a conversation with the
recommendation, VHA management took                          former medical center director, who was also the
appropriate administrative action against another            selecting official, during which she discussed her
senior official, who also improperly obtained a              sister's prior experience and qualifications. The
cellular telephone from a field facility. (Improper          senior official also initiated one or more
Acquisition and Use of Cellular Telephone, VHA               conversations with the then Deputy General
Central Office, Washington, DC, 00-00700-23,                 Counsel to discuss issues relevant to the timing and
12/19/00)                                                    outcome of an Office of General Counsel final
                                                             opinion on the matter. We also substantiated that
Use of Government Vehicles,                                  the senior official improperly approved an award
Other Property, and Official Time                            affecting her sister's compensation. In addition,
                                                             other circumstances surrounding the sister's hiring
An administrative investigation substantiated that,          strongly suggested the senior official's influence.
on several occasions over a 4-year period, a VA              For example, the senior official had a strong motive




                                                        29
Office of Investigations

to facilitate her sister's hiring, in that the sister        facility examined two non-VA patients off-station,
wanted to be reunited with her spouse, who had               improperly using a minimal amount of his VA duty
recently accepted employment in the local area. In           time to do so. We also advised VHA management
addition, the senior official and the former medical         in Central Office that they needed to discuss with a
center director took no initiative to have the               senior official how to improve morale among his
propriety of the sister’s employment subjected to a          subordinates, and deal with the subordinates'
legal review, suggesting they hoped it would not be          concerns related to a perceived special relationship
challenged. Finally, although the sister was                 between the senior official and another employee.
virtually tied with another candidate for the                In another instance, we advised VHA management
position, characterized as a “crucial” one, neither          that a facility director authorized the use of
the former director nor the promotion panel                  Veterans Canteen Service funds for an
chairman ensured that the candidates’relative                inappropriate purpose, improperly accepted a gift,
qualifications were thoroughly assessed, suggesting          and misused a Government vehicle. However, we
the sister's selection was a foregone conclusion.            noted that in each instance, the director either acted
Regarding our recommendation that appropriate                in good faith based on guidance provided to him, or
administrative action be taken against the senior            immediately attempted to mitigate the wrongdoing.
official, the Acting Chief Network Officer                   Another advisory memorandum informed VHA
concurred that the circumstances surrounding the             management that a senior official was using a
selection and appointment of the sister, and the             Government vehicle to regularly drive to a
approval of a monetary award for her, warranted              temporary duty site, when use of his private vehicle
corrective action. However, the Acting Chief                 was less expensive. We advised a medical center
Network Officer is awaiting a General Counsel                director that a national union official stationed at
opinion before fully implementing this                       his facility was accumulating frequent flyer miles,
recommendation, to determine the appropriate basis           but not redeeming them for subsequent official
for the action. Further, regarding our                       travel, thereby reducing travel costs to the
recommendation that a bill of collection be issued           Government. Finally, we advised VHA
to recoup salary money paid to the sister, the               management that a facility director improperly
Acting Chief Network Officer is again waiting                approved the transfer of general post funds to
receipt of the General Counsel opinion. In                   reimburse the facility's operating budget for
response to our recommendation that appropriate              previously purchased items. The above
administrative action be taken against the former            investigative findings were referred to management
medical center director for appointing the sister            for their information and whatever action they
after the senior official advocated her consideration        deemed appropriate. (various unnumbered
for employment to him, the Acting Chief Network              memoranda)
Officer informed us the former director retired after
our report was issued. (Nepotism Issue, VA
Medical Center, Philadelphia, Pennsylvania,
98-01138-13, 1/02/01)
                                                             Veterans Benefits
                                                             Administration
Various Issues
                                                             Vehicle Use Issue
Advisory memoranda were issued to management
officials, advising them of administrative                   An administrative investigation substantiated that a
investigation findings not warranting formal                 VBA Central Office official misused a Government
recommendations. For example, we advised a                   vehicle to attend personal medical appointments on
medical center director that a physician at his




                                                        30
                                                              Office of Investigations

six occasions over a 14-month period. The official
told us she once had permission to use the vehicle,
and then continued to do so to minimize her time
away from the office during the workday. We also
substantiated that the official's attendance records
did not reflect that she was on leave while at her
medical appointments. VBA officials agreed with
our recommendations to take appropriate
administrative action against the official, and
correct her time and attendance records.
(Attendance, Personnel, and Vehicle Issues, VBA
Headquarters, Washington, DC, 00-02176-9,
10/30/00)

Resource Misuse Issue

An administrative investigation substantiated that a
VARO high level official improperly approved the
use of Government-rented vehicles and, in one
instance, subordinates' official time, to provide VA
employees and their spouses transportation to and
from entertainment activities incidental to a VBA
training conference. The misuse of these resources
violated the standards of ethical conduct for
employees of the executive branch, appropriations
law, and VA travel policy. VBA officials agreed
with our recommendation to take appropriate
administrative action against the high level official.
(Resource Misuse Issue, VA Regional Office,
Phoenix, Arizona, 00-01829-63, 3/28/01)




                                                         31
Office of Investigations




                           32
                                                                                             Office of Audit

OFFICE OF AUDIT

Mission Statement                                          This Division conducts preaward and postaward
                                                           reviews of certain categories of VA contracts.
    Improve the management of VA
    programs and activities by providing our               Overall Performance
    customers with timely, balanced,
    credible, and independent financial and                Output
    performance audits and evaluations that                l We issued 18 performance, financial, and CAP
    address the economy, efficiency, and                   audits, evaluations, and reviews for an output
    effectiveness of VA operations, and that               efficiency of 1 report per 4.1 FTE during this 6-
    identify constructive solutions and                    month period. We also issued 28 contract review
    opportunities for improvement, and to                  reports (18 preaward contract reviews and 10
    conduct preaward and postaward reviews                 postaward reviews), for an output efficiency of
    to assist contracting officers in price                about 3.1 reports per FTE for the 6-month period.
    negotiations and to ensure
    reasonableness of contract prices.                     Outcome
                                                           l Recommendations were made to enhance
Resources                                                  operations and correct operating deficiencies with
                                                           monetary benefits identified totaling $2.438 billion.
The Office of Audit had an average 148 FTE                 In addition, contract reviews identified monetary
assigned in VA Central Office and 10 operating             benefits of $32 million associated with the
divisions throughout the country during the 6-             performance of preaward and postaward contract
month period covered by this report. The following         reviews.
chart shows the allocation of resources utilized in
auditing each of VA’s major program areas.                 Cost Effectiveness
                                                           l We achieved a return of $256 in monetary
                                                           benefits for every dollar spent on performance,
                      A&MM
                                                           financial, and CAP audits, evaluations, and reviews
                       17%
                                                           during this 6-month period. We also achieved a
                                Financial
                                                           return of $30 in monetary benefits for every dollar
                               Management
                                                           spent on contract reviews. Additionally,
                                  21%
     VHA
                                                           contracting officers sustained 63 percent of our
     49%                       Information                 recommended better use of funds during
                               Technology                  negotiations.
                                   4%
                         VBA                               Customer Satisfaction
                          9%                               l Customer satisfaction with performance and
                                                           financial audits and evaluations was 4.5 on a scale
In addition, the Office of Audit’s Contract Review         of 5, for reports issued during the period. The
and Evaluation Division had 24 FTE authorized for          average customer satisfaction rating achieved for
reimbursement under an agreement with the VA               contract reviews was 4.8 out of a possible 5.
Office of Acquisition and Materiel Management.




                                                      33
Office of Audit

Audits completed during the period identified               believe a $10 co-pay level is supported by
opportunities to improve services to veterans, and          prescription cost data and is more in-line with
identified savings that could be used to increase           private sector medical insurance coverage. A $10
service. The following summarizes some of the               co-pay level will allow VHA to increase its annual
audits completed during the reporting period                pharmacy co-pay collections VA-wide from $75
organized by VA component: VHA, VBA, and                    million in FY 1999 to over $567 million in FY
Office of Management. This is followed by an                2001. This will provide the opportunity to recover
assessment of the validity and integrity of the data        a greater proportion of the average direct cost of
used to evaluate GPRA performance.                          each prescription, which we estimate to be
                                                            approximately $20 per fill.

Veterans Health                                             The audit also found that VHA needs to streamline
                                                            its current process of filling prescriptions written
Administration                                              by enrolled veterans’private physicians. Our
                                                            review showed that the pharmacy benefit is the
Resource Utilization                                        health care service that the majority of priority
                                                            group 7 veterans want. We believe that the
                                                            processes VHA uses to restrict pharmacy services
Issue: Pharmacy co-payment levels.                          to only those veterans for whom it provides direct
Conclusion: VHA can reduce the cost                         medical care is inefficient. Veterans with Medicare
   impact of providing prescriptions to                     eligibility and/or private insurance coverage who
   priority group 7 veterans, make                          choose to be treated by private non-VA health care
   additional resources available for                       providers must frequently submit to duplicate
   veterans health care, and enhance the                    exams, tests, and procedures by VHA simply in
   delivery of prescriptions services to                    order to receive their prescriptions. VA medical
   veterans.                                                centers frequently end up spending more on scarce
Impact: Better use of $1.33 billion and                     clinical resources to “re-write” prescriptions than
   cost avoidance of $284 million.                          the actual cost of the prescriptions. The costs of
                                                            re-examining veterans in order to fill the privately
The audit was conducted to: (i) quantify the                written prescriptions are significant and in FY 1999
number of priority group 7 veterans that use the            totaled as much as $879 million VHA-wide. For
Florida/Puerto Rico Veterans Integrated Service             FY 2001, we estimate the VHA-wide costs for re-
Network’s (VISN 8) health care facilities for the           examining these veterans will increase to
purpose of filling prescriptions written by their           $1.33 billion.
private physicians, and (ii) evaluate the process
used by VA medical facilities to fill prescriptions         The Under Secretary for Health provided comments
written by private sector physicians.                       that agreed with our concerns about the
                                                            inefficiencies associated with the current system of
The audit found that VHA needs to increase the              filling privately written prescriptions for priority
pharmacy co-payment levels for priority group 7             group 7 veterans. The report remains unresolved
veterans who currently pay $2 for each 30-day               based on VHA deferment on concurrence or non-
supply of prescription drugs filled. Generally,             concurrence with the recommendations pending
veterans in priority group 7 are not being treated          more focused attention and direction by VHA’s
for service connected disabilities and have incomes         National Leadership Board. (Audit of VHA
above the limits needed to qualify for free care.           Pharmacy Co-Payment Levels and Restrictions on
Although a VHA workgroup had recently                       Filling Privately Written Prescriptions for Priority
recommended raising the co-pay level to $5, we              Group 7 Veterans, 99-00057-4, 12/20/00)



                                                       34
                                                                                             Office of Audit

Issue: VAMC Clarksburg management.                         Our review of purchase card transactions identified
Conclusion: Action is needed to address                    a number of control weaknesses that showed that
   significant management deficiencies                     the facility paid excessive prices for services and
   and control weaknesses that have                        staff continually split work requirements to
   adversely impacted the facility’s                       circumvent competition requirements. Purchase
   administration of construction                          card reconciliations were not performed timely.
   contracts, purchase card program
   activities, and Government vehicles.                    We found that the administration of Government
Impact: Improved management of the                         vehicles was inadequate and accountability over
   medical facility.                                       vehicles in the facility’s inventory could not be
                                                           assured. As a result, top management’s attention is
We conducted a limited scope review of                     needed to assure the integrity and accountability
construction contracts, purchase card program              over the facility’s construction program, purchase
activities, and the administration of Government           card expenditures, and vehicle property
vehicles. Review work performed supported an               management. The Acting Director concurred with
investigation assessing Hotline allegations that           the report recommendations and provided
focused upon the actions of specific VA employees          appropriate implementation actions.(Review of
working in facility management operations, certain         Selected Construction Contracts, Purchase Card
construction contractors, and local vendors.               Activities, and Vehicle Administration at VAMC
Significant management deficiencies and control            Clarksburg, WV, 99-01685-10, 1/25/01)
weaknesses were identified that impacted the
administration of construction contracts, the              Issue: Research program at VA greater
purchase card program, and Government vehicles.               Los Angeles healthcare system.
                                                           Conclusion: Major financial and
Supervision over facility management operations               administrative deficiencies have been
was ineffective and resources available to support            corrected.
acquisition functions were inadequate. Overall, we         Impact: Improved stewardship of research
found little management control over facility                 assets and resources.
management operations. The review identified
major deficiencies in the current management of            At the request of VHA management, we evaluated
construction contracts. Key deficiencies included          controls in the research program to provide
performance of unauthorized construction,                  independent assurance that deficiencies previously
authorization of contractor work performance               identified by VHA reviewers had been corrected.
before the award of a contract, contract                   We concluded the major deficiencies in financial
modifications outside the scope of original                and administrative operations had been identified
contracts, contract awards lacked or did not               and effectively corrected. To illustrate, current
adequately justify determinations of price                 managers:
reasonableness, and certain modifications lacked
support for increasing project costs. We also found        l   Ended the practice of using grant funds
that prior year funds were used inappropriately and        "earmarked" for specific research protocols to pay
several construction projects experienced                  expenses that were not related to those protocols
unexplained and significant performance delays             and implemented procedures to ensure that funds
while controls over other construction contract            were used only for their intended and authorized
progress payments were non-existent.                       purposes.




                                                      35
Office of Audit

l   Implemented the computerized research                  To further strengthen oversight, we recommended
management system, which provided managers and             the healthcare system Chief Executive Officer
principal investigators (PIs) reliable information         implement procedures for conducting periodic
needed to control research accounts.                       reviews of research operations to ensure that
                                                           controls continue to be effective and that the past
l   Reduced research service staffing and                  deficiencies will not recur. The Chief Executive
implemented procedures to ensure that temporary            Officer concurred with the recommendation and
employees were released when their appointments            provided an acceptable implementation plan.
ended.                                                     (Evaluation of Financial and Administrative
                                                           Controls in the Research Program at the VA
l   Established controls to prevent PIs from               Greater Los Angeles Healthcare System, 99-
spending more funds than they had in their protocol        00191-2, 10/12/00)
accounts and began collecting reimbursements from
PIs whose overspending had been improperly                 Program Management
covered by appropriated research funds.
                                                           Issue: Health Eligibility Center.
We also concluded the healthcare system former             Conclusion: VHA income verification
top management had not provided adequate                      matching procedures do not provide
oversight of research service and did not establish           reasonable assurance that income
effective controls to ensure that they received               verification matches include only self-
reliable information on research operations. The              reported income from veterans.
former top managers were aware of many of the              Impact: Assuring program integrity.
deficiencies and had initiated some corrective
actions, but they did not follow through to ensure         We conducted an audit of the income verification
that these actions were effectively implemented.           matching process used by the VA Health Eligibility
The current management implemented stronger                Center (HEC) to establish patient eligibility for VA
oversight controls, with the main control being the        health benefits. The Under Secretary for Health
establishment of a research budget subcommittee            requested an audit to determine whether corrective
responsible for monitoring research financial              actions taken by VHA would provide reasonable
operations.                                                assurance that: (i) VHA has established a system
                                                           to ensure that only self-reported income is included
                                                           in future matches with the IRS and SSA; and (ii)
                                                           VHA and the HEC have purged their electronic
                                                           files and paper records of all federal tax
                                                           information (FTI) not supported by self-reported
                                                           income.

                                                           We conducted reviews of the means test (MT)
                                                           process at 13 VAMCs that showed: (i) MTs were
                                                           not signed or could not be located in 17 percent of
                                                           the cases reviewed for calendar year 2000; and (ii)
                                                           the HEC did not purge all unauthorized FTI from
                                                           its electronic files and paper records. These
    VA Greater Los Angeles Healthcare System               conditions occurred because: (i) VHA had not
                Los Angeles, CA                            implemented our 1999 recommendation to
                                                           centralize means testing to the HEC; (ii) VHA and




                                                      36
                                                                                               Office of Audit

the HEC had not developed a process to filter               The purpose of the audit was to review the
unsigned MTs prior to conducting the income                 effectiveness of VBA’s IVM in completing required
verification matches with IRS and SSA; and (iii)            benefit payment adjustments and identification of
the HEC relied on inaccurate information reported           program fraud. The audit found that opportunities
in VHA’s signed MT review. As a result, the HEC             exist for VBA to: (i) significantly increase the
did not purge FTI from its files for all cases in           efficiency, effectiveness, and amount of potential
which VAMCs did not have signed MTs.                        overpayments that are recovered; (ii) better ensure
                                                            program integrity and identification of program
Pending implementation of our 1999                          fraud; and (iii) improve delivery of services to
recommendation to expedite centralized means                beneficiaries.
testing to the HEC, we recommended the Under
Secretary for Health establish a process that would         The following key findings were identified: (i)
provide positive assurance that a signed MT                 VBA needs to increase the oversight and tracking
supports all MT information. We further                     of the IVM process; (ii) the claims examination
recommended the HEC purge all FTI that is not               process could be made more effective; (iii) IVM
supported by a signed MT. Implementation of the             related debts need to be established; (iv) waivers of
recommendations would provide reasonable                    IVM related debts should not be granted when
assurance that only self-reported income is matched         fraud is identified; (vi) recoveries could be
with the IRS and SSA, and provide VHA the ability           increased by reducing the number of unmatched
to bill for about $15.3 million in services provided        records; (vii) referrals to VA OIG for fraud need to
to non service-connected veterans. The Under                be increased; and (viii) the IVM process represents
Secretary for Health concurred with the                     a potential material weakness area that should be
recommendations and provided acceptable action              monitored by the Department. We found the
plans. (Audit of the Department of Veterans                 potential monetary impact of these findings to the
Affairs Health Eligibility Center, Atlanta, Georgia,        Department was $806.3 million. Of this amount,
00-02165-54, 3/26/01)                                       we estimated potential overpayments of $773.6
                                                            million associated with benefit claims that
                                                            contained erroneous Social Security numbers, or
Veterans Benefits                                           some other inaccurate key data elements. The
                                                            remaining $32.7 million is related to inappropriate
Administration                                              waiver decisions, failure to establish accounts
                                                            receivable, and other process inefficiencies. We
                                                            also estimated that $299.8 million in beneficiary
Fraud Detection                                             overpayments involving potential fraud had not
                                                            been referred to the OIG for investigation.
Issue: VBA’s income verification match
   (IVM).                                                   As a result of these findings, we recommended that
Conclusion: VBA’s IVM results can be                        the Under Secretary for Benefits: (i) increase
   enhanced with better use of staff                        program oversight of the results of IVM actions
   resources, increased recovery of                         completed; (ii) eliminate review of Section 306 and
   beneficiary overpayments, and referral                   protected pension cases; (iii) eliminate review of
   of program fraud cases to the OIG.                       IVM cases with income discrepancies of less than
Impact: Deterrence of fraud and cost                        $500 (Repeat recommendation from 1996 OIG
   avoidance of $806 million.                               report; (iv) complete necessary validation of
                                                            beneficiary identifier information in the
                                                            Compensation and Pension master record (Repeat




                                                       37
Office of Audit

recommendation from 1990 OIG report); (v)                     Conclusion: Audit resulted in an
assure that accounts receivable are established to               unqualified audit opinion, but points
recover IVM related debts from beneficiaries; (vi)               out that significant control weaknesses
assure that waivers of IVM related debts are not                 and noncompliance items still remain.
granted when fraud is identified; (vii) refer                 Impact: Improved stewardship of VA
potential fraud cases to the OIG based on the                    assets and resources.
referral process that has been established; and (viii)
report the IVM for consideration as an internal high          Our report contains the OIG audit opinion, an
priority area that needs monitoring.                          assessment of VA's internal control structure, and
                                                              compliance with laws and regulations. The OIG
Our review results showed that effective national             contracted with the independent public accounting
oversight and tracking of the IVM process was                 firm Deloitte & Touche LLP, to perform the audit.
needed to adequately address VA’s significant                 The independent auditors’report provided an
program risk for benefit overpayments and fraud               unqualified opinion on VA's FY 2000 consolidated
associated with unreported beneficiary income.                financial statements. We agreed with the auditors’
                                                              opinion and conclusions in the related report on the
 Our review confirmed that the IVM process is                 Departments’internal control over financial
resulting in significant payment recoveries by                reporting and compliance with laws and
individual VAROs. However, VBA has not tracked                regulations.
the results of the matching process to assure the
productivity of the case reviews and the                      The auditors’Report on Internal Control discusses
appropriateness of VARO actions in establishing               material weaknesses concerning: (i) the need to
accounts receivable. The effectiveness and                    improve application programming and operating
efficiency of the IVM process has also been                   system controls; (ii) business continuity and
adversely impacted, because VBA did not                       disaster recovery planning; (iii) operational
implement program enhancements recommended by                 oversight; and (iv) other matters. These internal
the OIG in prior reports that would have provided             control weaknesses expose VA to significant risks
the opportunity for more effective use of staff               and vulnerabilities. In this report, we also
resources and increased recovery of benefit                   reaffirmed our prior recommendations and included
overpayments.                                                 recommendations addressing these weaknesses and
                                                              the reportable conditions.
The VBA Deputy Under Secretary for Management
concurred with the report recommendations and                 Additionally, the report states information
provided appropriate implementation actions.                  technology security controls continues to be a
(Audit of VBA’s IVM Results, 99-00054-1, 11/8/00)             material weakness and discusses integrated
                                                              financial management system controls as a new
                                                              material weakness. The report indicates the
Office of Management                                          management control weaknesses are not in
                                                              compliance with OMB Circulars A-123,
                                                              “Management Accountability and Control”;
VA’s Consolidated Financial                                   A-127, “Financial Management System”; and
Statements                                                     A-130, “Management of Federal Information
                                                              Resources.”
Issue: VA’s Consolidated Financial
   Statements for FYs 2000 and 1999.                          The auditors’Report on Compliance with Laws
                                                              and Regulations discusses the Department’s




                                                         38
                                                                                             Office of Audit

noncompliance with Federal Financial Management            In our report on VA's FY 2000 consolidated
Improvement Act requirements concerning material           financial statements, we added one new item -
weaknesses in internal controls over financial             noncompliance with OMB financial management
reporting. VA is not in full compliance with the           system requirements. VA is in the process of
requirements of OMB Circulars A-123, A-127, and            developing and testing a replacement core financial
A-130. Therefore, it is the auditors’and OIG’s             management and logistics system. Roll-out is
shared opinion that these weaknesses, in the               presently scheduled to begin April 2003.
aggregate, result in significant departures from
certain of the requirements of OMB Circulars A-            Regarding previously reported noncompliance with
123, A-127, and A-130, and show instances of               managerial cost accounting requirements, VA's
substantial noncompliance with the Federal                 National Cemetery Administration completed
financial management systems requirements under            testing and converting system data during FY 2000
the Act. Except for these noncompliances, the              and will be fully implemented in FY 2001. VHA’s
report concludes that for the items tested, VA             target implementation is expected to be in FY 2002,
complied with those laws and regulations                   permitting the cost system to be modified to include
materially affecting the financial statements.             allocated costs such as accrued annual leave and
                                                           judgment fund costs.
The Assistant Secretary for Financial Management
stated appropriate offices have reviewed the report        Preaward Contract Reviews
and concur with the reported findings and
recommendations. (Audit of VA’s Consolidated               Issue: Federal Supply Schedule vendors’
Financial Statements for Fiscal Years 2000 and                best prices.
1999, 00-01702-50, 2/28/01)                                Conclusion: Contractors can offer better
                                                              prices to VA.
Issue: Public Law 104-208, Federal                         Impact: Potential better use of
   Financial Management Improvement                           $11.5 million.
   Act of 1996.
Conclusion: Correction of noncompliance                    l   Preaward reviews of seven medical equipment
   items is in-process.                                    and supply companies’offers resulted in potential
Impact: Improved stewardship of VA                         savings of $9,096,561.
   assets and resources, and better, more
   timely management information.                          l   Preaward review of two diagnostic test kit and
                                                           reagent manufacturers’offers resulted in potential
Correction is in-process for items shown in our            savings of $2,246,595.
report on VA's consolidated financial statements as
being noncompliant with Public Law 102-208                 l  Preaward review of a wheelchair
requirements. VA has taken a number of steps to            manufacturer’s offer resulted in potential savings of
establish a comprehensive information system               $212,160.
security program. The Department's target
completion date is FY 2003. Corrective action was
substantially completed on housing credit
assistance program financial system noncompliance
items reported in our report on VA's FY 1999
consolidated financial statements.




                                                      39
Office of Audit

Issue: Health care resource contracts.                      l   A pharmaceutical manufacturer agreed to pay
Conclusion: VA can negotiate reduced                        $18,296 for overcharges related to violations of the
   contract costs.                                          price reduction clause in their Federal Supply
Impact: Potential better use of $824,592.                   Schedule contract.

We completed reviews of three proposals for scarce
medical specialists’services and concluded that the
contracting officer should negotiate reductions of
                                                            Implementation of GPRA
$824,592 to the proposed contract costs.                    within VA
Postaward Contract Reviews                                  The OIG has a significant role to play in informing
                                                            both VA and Congress on issues concerning efforts
Issue: Contractor overcharges for                           to implement the Government Performance and
   pharmaceuticals and medical supplies.                    Results Act of 1993 (GPRA). As background for
Conclusion: Postaward audits and                            our efforts in this area, it is relevant to note that VA
   surveys disclosed overcharges.                           was an OMB-designated pilot agency for
Impact: Recovery of $18.3 million.                          performance measurement. As such, VA began
                                                            establishing performance measures for its programs
l    We completed four Public Law 102-585                   and operations in FY 1992.
compliance reviews at pharmaceutical companies.
Three of the four companies agreed to pay                   In FY 1998, at the request of the Assistant
$7,612,299 to VA. VA is issuing a bill of collection        Secretary of Policy and Planning, we initiated a
to the fourth company. We also made                         series of audits to examine the integrity of the data
recommendations to all of the companies reviewed            used for GPRA reports. This ongoing project
suggesting ways they could improve their policies           involves a series of audits to evaluate the validity,
and procedures so that the Government and the               reliability, and integrity of the data used to evaluate
company could be assured that its systems were              GPRA performance. During this 6-month
producing accurate Federal Ceiling Prices.                  reporting period, we assessed the accuracy of the
                                                            foreclosure avoidance through servicing.
l   A pharmaceutical and medical supply company
agreed to pay $5,822,656 related to pricing                 Foreclosure Avoidance through Servicing Ratio
disclosures that were not accurate, complete, and
current during negotiations leading to two Federal          The audit was conducted to determine whether
Supply Schedule contracts with VA.                          VBA officials accurately reported the foreclosure
                                                            avoidance through servicing ratio. This was one in
l   We completed a review of a pharmaceutical               a series of audits assessing the accuracy of data
prime vendor. Recoveries amounted to $4,234,671.            used to measure VA’s performance in accordance
                                                            with the GPRA. To assess the accuracy of VBA's
l   A medical equipment and supply company paid             computation of the ratio for FY 1998, we attempted
$580,000 to VA for contract overcharges. The                to verify each of the five components of the
company had failed to provide accurate, complete,           computation. We found that four of the five
and current discount and pricing information to the         components were accurate, but we could not verify
VA contracting officer during contract negotiations.        the fifth component because supporting




                                                       40
                                                                                              Office of Audit

documentation was not available. Accordingly, we              Accuracy of Data Used to Measure Claims
could not attest to the accuracy of the ratio reported        Processing Timeliness, 9R5-B01-005, 10/15/98.
in VA's annual accountability report. During our
audit, VBA activated a new computer system                    Accuracy of Data Used to Measure Percent of
which will retain appropriate supporting                      Veterans with a Burial Option, 9R5-B04-103,
documentation. Since this should correct the only             5/12/99.
material deficiency we identified, we did not make
any formal recommendations.                                   Accuracy of Data Used to Count the Number of
                                                              Unique Patients, 9R5-A19-161, 9/20/99.
Current Status
                                                              Accuracy of Data Used to Compute the
As part of our ongoing assessment to validate the             Foreclosure Avoidance through Servicing Ratio,
accuracy and reliability of VA’s performance                  99-00177-14, 11/16/00.
measures in accordance with GPRA, the OIG is
auditing one VHA performance measures and one
VBA performance measure. These measures are:

VHA Performance Measures: Prevention index.

VBA Performance Measure: Rehabilitation rate.

We will issue reports on each performance measure
as audits are completed. GPRA related audit
reports issued to date include:

Review of Implementation of VHA’s Strategic Plan
and Performance Measurements,
5R1-A19-026, 2/6/95.

Review of Implementation of National Cemetery
Service’s Strategic Plan and Performance
Measurements, 5R1-B18-082, 7/6/95.

Review of Implementation of VBA’s Strategic Plan
and Performance Measurements,
5R1-B18-100, 8/25/95.

Audit of Data Integrity for Veterans Claims
Processing Performance Measures Used for
Reports Required by the GPRA,
8R5-B01-147, 9/22/98.




                                                         41
Office of Audit




                  42
                                                                        Office of Healthcare Inspections

OFFICE OF HEALTHCARE INSPECTIONS
Mission Statement                                           Veterans Health
    Promote the principles of continuous                    Administration
    quality improvement to provide effective
    inspections, oversight, and consultation                Nationwide Health Care Program
    to enhance and strengthen the quality of
                                                            Review
    VA’s health care programs.
                                                            Issue: VHA’s missing patients policies and
Resources                                                      procedures.
                                                            Conclusion: VHA’s missing patients
The Office of Healthcare Inspections (OHI) has 34              policies and procedures are not
FTE assigned to staff headquarters and field                   sufficiently rigorous to protect
operations. OHI inspectors commit all of their                 cognitively impaired patients.
staff time to health care inspections and evaluation        Impact: Strengthened policies and
issues. CAPs occupy approximately 75 percent of                procedures that promote the safety of
OHI resources.                                                 all VA patients.

Overall Performance                                         This review was in follow up to our preliminary
                                                            assessment of VHA’s missing patient policies and
Output                                                      patient searches conducted in FY 1999. In that
l We published one VHA program evaluation                   review, we concluded VHA managers needed to
and six inspection reports during the reporting             improve the monitoring of high-risk patients and
period.                                                     their patient search procedures to reduce adverse
l We published findings in nine CAP reports.                incidents. We also concluded clinical managers
l We evaluated the adequacy of VHA responses                needed to assess and record factors that can help
for 124 Hotline cases.                                      define patients’elopement risks. We recommended
                                                            VHA managers evaluate the effectiveness of
Outcome                                                     existing missing patient policies and search
l We identified VHA program improvements for                procedures. VHA officials informed us they were
monitoring patients who wandered from their                 reluctant to act on our preliminary work because
treatment areas.                                            we based our conclusions on a small number of
l We made 29 recommendations that focused on                incidents that occurred over a several year period.
improving both clinical care delivery management
efficiency and holding responsible staffs                   Therefore, we expanded the scope of our review to
accountable for their actions.                              fully assess the adequacy of VHA’s missing patient
l We followed up on 11 Department responses to              policies and patient search procedures. We
Hotline allegations because not all of the issues           contacted all 142 VAMCs and health care systems
appeared to be satisfactorily resolved.                     and visited 11 VAMCs to assess VHA’s response to
                                                            the issue of missing patients and the adequacy of
                                                            internal controls.




                                                       43
Office of Healthcare Inspections

We found VHA managers: (i) recognized the need               documenting the training provided to employees in
for guidelines and safety measures for protecting            packaging and transporting laboratory specimens
cognitively impaired or otherwise high-risk                  and hazardous or infectious materials. The FAA
patients; (ii) begun to re-assess the manner in              sanctioned the facility from future mailings until
which they approached safety initiatives and                 VA employees complied with all policies and
alternatives for monitoring patients who were at             procedures. The FAA informed us that these
high risk for eloping or wandering from their                procedures have been required for some time,
treatment settings; (iii) implemented innovative             however they have just begun to enforce them.
programs and creative procedures to address the
safety needs of their patients; (iv) increased their
efforts to locate missing patients; (v) could improve
their procedures and practices to safeguard against
potential future tragic incidents; and (vi) need to
revise policy to require clinicians to conduct
elopement/wandering risk assessments for
hospitalized patients, provide formal education and
training regarding missing patient search
procedures, and report missing patients consistently
among all VAMCs.

We made recommendations to strengthen existing                     VA Medical/Regional Office Center
missing patient policies and procedures and to                             Sioux Falls, SD
promote the safety of all VA patients. The Under
Secretary for Health concurred with our                       We found VHA’s Diagnostic Healthcare Group
recommendations and provided responsive                      had recently taken appropriate steps to inform VHA
implementation plans. (Evaluation of Veterans                facilities about the FAA inspection process and had
Health Administration Missing Patient Policies               purchased the training materials. Therefore, we did
and Procedures, 00-00282-12, 11/30/00)                       not make any formal recommendations. We
                                                             suggested: (i) VHA provide written guidance to VA
Healthcare Inspections                                       facilities regarding the Department of
                                                             Transportation training requirement and FAA
Issue: Training requirements for the                         inspection process; and (ii) VHA managers need to
   transport of hazardous or infectious                      conduct periodic reviews of VHA hazardous
   materials.                                                materials policies to ensure compliance with the
Conclusion: VAMC employees had not                           prescribed FAA regulations. (Letter Report,
   received the required Department of                       Department of Transportation Inspection of
   Transportation training on packaging                      Department of Veterans Affairs Clinical
   and transport of hazardous or                             Laboratories, 2000-02096-5, 10/5/00)
   infectious materials.
Impact: Increased nationwide awareness                       Issue: Administration and management of
   of training requirements.                                    psychiatry service and psychiatric
                                                                patients.
While conducting a CAP review at the VAMC                    Conclusion: Numerous opportunities for
Sioux Falls, SD, we learned the Federal Aviation                improvement exist in the management
Administration (FAA) cited the facility for not                 of psychiatry service.
                                                             Impact: Improved care to patients.




                                                        44
                                                                          Office of Healthcare Inspections

Several VAMC employees alleged managers                       progress in completing their rotation, and improve
fostered and perpetuated a climate of                         communication between clinical staff. The VISN
discrimination against psychiatric patients,                  Director concurred with our recommendations and
psychiatrists, and psychiatry as a clinical specialty.        provided acceptable implementation plans.
We concluded: (i) cursory examinations of some                (Ophthalmology Resident Competence, Harry S.
psychiatric patients resulted in delayed treatment            Truman Memorial Veterans Hospital, Columbia,
and could have been interpreted by some patients as           Missouri, 00-02038-29, 1/23/01)
prejudicial; (ii) the psychiatry service physician on-
call schedule had adversely affected clinic                   Issue: Unauthorized care and treatment.
appointment availability and psychiatrist                     Conclusion: The VAMC was operating an
attendance at treatment team meetings; and (iii)                 unauthorized clinic.
patients rights were being violated on the inpatient          Impact: Unauthorized services
psychiatry unit.                                                 discontinued.

We made recommendations aimed at improving the
management and administration of the psychiatry
service and quality of care provided to psychiatric
patients. The Director concurred with our
recommendations and provided adequate
implementation plans. (Healthcare Inspection –
Multiple Allegations Regarding Psychiatry Service
Management and Patient Care Issues, Department
of Veterans Affairs Medical Center, San Juan,
Puerto Rico, 99-01260-7, 11/15/00)

Issue: Resident competence.
Conclusion: Senior VAMC managers were                               VA Medical Center, New Orleans, LA
   aware of the complications caused by
   a resident and had suspended his                           A complainant alleged that VAMC New Orleans
   surgical privileges on three occasions.                    was operating a transgender clinic and not
Impact: Strengthened procedures for                           following VA policy. Additionally, the complainant
   monitoring residents.                                      alleged this clinic was not an authorized medical
                                                              clinic and was taking away funds and resources
A complainant alleged that a resident, whose                  from other authorized clinics. We found the VHA
clinical privileges had been suspended at the                 set certain prohibitions against providing patients
university hospital, was allowed to perform surgery           gender revision care. In essence, VA clinicians
at the VAMC. We confirmed that the resident                   cannot carry out any process or procedure
continued to perform surgery in spite of the fact             involving genital identity revision. We found the
that his clinical privileges had been previously              VAMC was operating a transgender clinic and that
suspended. Senior managers were aware of the                  clinic clinicians were providing hormonal therapy
issues involving the resident, and suspended and              to patients.
reinstated his surgical privileges on several
occasions during his rotation.                                We recommended discontinuation of the prohibited
                                                              services and VHA determine whether transgender
We made recommendations that will strengthen                  clinics are operating in other VISNs. The Acting
procedures for monitoring and approving residents’            Chief Network Officer concurred with our




                                                         45
Office of Healthcare Inspections

recommendations and provided adequate                        importance of placing guardianship and advance
implementation plans.(Operation of a                         directive documents in the front of patients’current
Transgender Clinic at VAMC New Orleans,                      medical records. The Director concurred with the
Louisiana, 00-02019-31, 1/23/01)                             recommendations and provided acceptable
                                                             implementation plans. (Healthcare Inspection –
Issue: Research improprieties.                               Patient Research and Other Health Care Issues,
Conclusion: Clinicians enrolled the                          John L. McClellan Memorial Veterans Hospital,
   patient in a research study without                       Little Rock, AR, 99-01321-47, 3/23/01)
   obtaining the proper consent from the
   guardian.                                                 Issue: Patient care and discharge
Impact: Strengthened policies for                               planning.
   documenting patients’competency and                       Conclusion: The VAMC’s admission policy
   guardianship status.                                         to the nursing home care unit is
                                                                misguided.
                                                             Impact: Strengthened admission and
                                                                exclusion guidelines.

                                                             A complainant contacted the OIG concerning
                                                             several quality of care issues related to the care and
                                                             treatment regime of a chronically ill patient. We
                                                             concluded that neither the patient nor his family
                                                             objected to the discharge as alleged. Nevertheless,
                                                             we questioned the appropriateness of the discharge
                                                             to the patient’s home or a community nursing home
           John L. McClellan Memorial                        (more than 100 miles from the medical center). We
               Veterans Hospital                             found that the medical center’s nursing home care
                 Little Rock, AR                             unit admission policy was misguided. VAMC
A patient’s family alleged that clinicians enrolled          clinicians, whom we interviewed, all informed us
the patient in a research study without obtaining            that they understood that admission was precluded
consent from the court-appointed guardian. The               to patients receiving continuous positive airway
family made two other allegations concerning the             pressure and/or bi-level positive airway pressure
quality of care provided to the patient. We                  therapy. However, no such policy existed in
substantiated the allegation that clinicians enrolled        writing. Furthermore, this exclusionary practice
the patient in a research study without obtaining the        would not be consistent with community standards
consent of his court-appointed guardian. We did              of care.
not find that clinicians wasted time in taking the
patient to the operating room for emergency                  We recommended the VAMC Director ensure that
surgery. We were unable to reach a conclusion                clinical managers re-evaluate admission policy
regarding the allegation that clinicians misplaced           regarding the admission of continuous positive
the patient’s advance directive.                             airway pressure or bi-level positive airway pressure
                                                             supported patients. The Director concurred with
We recommended providing training to research                our recommendation. (Inspection of Allegations
nurse coordinators and managers, and ensuring                Regarding Patient Care and Discharge Planning,
local directives delineate responsibility for                Department of Veterans Affairs Central Texas
documenting a patient’s competency and                       Health Care System, Temple, Texas, 00-01491-57,
guardianship status. We also recommended the                 3/26/01)
VAMC Director remind employees of the



                                                        46
                                                               Office of Management & Administration

OFFICE OF MANAGEMENT &
ADMINISTRATION

Mission Statement                                           The Division also maintains the Master Case Index
                                                            (MCI) system, the OIG’s primary information
    Promote OIG organizational                              system for case management and decision-making.
    effectiveness and efficiency by providing               The Data Analysis section, located in Austin, TX
    reliable and timely management and                      provides data processing support, such as computer
    administrative support, and providing                   matching and data extraction from VA databases, to
    products and services that promote the                  the OIG and other VA entities.
    overall mission and goals of the OIG.
    Strive to ensure that all allegations                   IV. Resources Management Division - The
    communicated to the OIG are effectively                 Division is responsible for OIG financial
    monitored and resolved in a timely,                     operations, including budget formulation and
    efficient, and impartial manner.                        execution, OIG personnel management, and all
                                                            other OIG administrative support services.
The Office of Management and Administration is a
diverse organization responsible for a wide range of        Resources
administrative and operational support functions.
The Office includes four Divisions:                         The Office of Management and Administration has
                                                            53 FTE allocated to the following areas.
I. Hotline Division - The Division is responsible
for determining action to be taken on allegations
                                                                                           Hotline
received by the OIG Hotline. The Division receives                                          21%
thousands of contacts annually, mostly from                       Resources

veterans, VA employees, and Congress. The work                   Management
                                                                     26%
includes controlling and referring many cases to the
Office of Investigation, Office of Audit, and Office
                                                                                                  IT & Data
of Healthcare Inspections or impartial VA
                                                                                                     Analysis
components for investigation.
                                                                                                       36%
                                                                      Operational
II. Operational Support Division - The Division                         Support
does follow up tracking of OIG report                                      17%
recommendations; Freedom of Information Act
releases; strategic, operational, and performance
planning; and IG reporting and policy development.

III. Information Technology (IT) and Data
Analysis Division- The Division manages
nationwide IT support, systems development and
integration; represents the OIG on numerous intra-
and inter-agency IT organizations; and does
strategic IT planning for all OIG requirements.




                                                       47
Office of Management & Administration

I. HOTLINE DIVISION                                         Overall Performance

                                                            During the reporting period the Hotline received
Mission Statement                                           8,324 contacts. Of this number, 529 cases were
                                                            opened. The OIG reviewed 135 of these and the
    Ensures that allegations of fraud, waste,               remaining 394 cases were referred to VA program
    abuse, and mismanagement are                            offices for review.
    responded to in an efficient and effective
    manner.                                                 Output
                                                            l During the reporting period, Hotline staff
The Division operates a toll-free telephone service         closed 530 cases, of which 151 contained
five days a week, Monday through Friday, from               substantiated allegations (28 percent). The Hotline
8:30 AM to 4 PM Eastern Time. Phone calls,                  staff opened 12 cases and generated 90 letters
letters, and e-mail messages are received from              responding to inquiries received from members of
employees, veterans, the general public, Congress,          the Senate and House of Representatives.
General Accounting Office, and other Federal
agencies reporting issues of fraud, waste, and              Outcome
abuse. Due consideration is given to all complaints         l VA managers imposed 33 administrative
and allegations received; mission-related issues are        sanctions against employees and took 71 corrective
addressed by OIG or other Departmental staff.               actions to improve operations and activities as the
                                                            result of these reviews. The monetary impact
Resources                                                   resulting from these cases totaled $968,316.

The Hotline Division has 11 FTE staff positions.            The Hotline Division’s most significant leads are
The following chart shows the percentage of                 referred to other OIG elements. Hotline staff also
resources devoted to various program areas.                 retain oversight on a number of other cases that are
                                                            referred to VA program officials for resolution.

                              A&MM                          The Hotline staff worked with VA program offices
                               13%                          on allegations concerning patient care and services,
       VHA                                                  quality of care issues, employee misconduct,
                                  Information
       55%                                                  outside employment concerns, contracting
                                     Technology
                                                            activities, Government equipment and supplies,
                                           6%
                                                            time and attendance, and ethical improprieties.
                                Financial
                                                            Hotline staff also worked with VBA on allegations
                              Management
                                                            concerning the payment of compensation and
                                     12%                    pension to incarcerated veterans, and benefits
                        VBA                                 awarded to veterans and beneficiaries who were not
                        14%                                 entitled to receive payments.

                                                            The following are some examples of Hotline-
                                                            prompted reviews that were closed during this
                                                            reporting period.




                                                       48
                                                                  Office of Management & Administration

                                                              and interstitial lung disease, and as a matter of
Veterans Health                                               routine, a work-up for pulmonary infectious
Administration                                                diseases was warranted. However, there is no
                                                              documentation of the veteran's consent to or refusal
Quality of Care                                               of the HIV test. Management counseled the clinical
                                                              staff on procedures involving informed consent,
l   Prompted by a Hotline inquiry, a VHA review               including HIV testing.
substantiated a veteran’s receipt of the wrong
medication through the mail. To assure better                 l   A VHA review substantiated the allegation of
quality of care, the facility assigned a pharmacist to        delay in treatment and poor communication with a
the mental health clinic and apologized to the                patient. A resident physician examined a veteran
veteran for the error.                                        and planned to schedule a urology consult for him.
                                                              However, the resident physician and the attending
l    A VAMC review substantiated an allegation                physician thought each other had scheduled the
that staff shortages in the department of surgery led         consult for the veteran. Finally, a registered nurse
to several delays in scheduling a veteran's knee              practitioner examined the veteran and scheduled the
surgery. The department was placed under new                  consult. Management reviewed procedures for
management, staff was hired, and a new program                scheduling consults to ensure that patients are
for residents was developed to improve patient                served properly in the future.
services. Additionally, the veteran received his
surgery.                                                      l    A VHA review substantiated the allegation of
                                                              poor communication with a patient. A veteran
l    A VHA review substantiated an allegation of              complained that medical personnel at a VA clinic
slow response by a physician serving as medical               did not discuss or review medical test results with
officer of the day to a nurse's summons for                   him. Reviewers found no progress notes in the
assistance. In addition, the same physician was               veteran’s medical file showing that care providers
found to have transposed entries in the medical               discussed or reviewed the test results with him.
records of two patients. When the entries were                The chief medical officer reminded all providers to
questioned, the physician refused to correct the              follow-up on and document all abnormal test
records. VAMC management counseled the                        results and subsequent action to inform the patient.
physician and notified the state professional board.
The physician no longer has privileges to practice            l    A review at a VAMC substantiated the
at the VAMC.                                                  allegation that there was a 21-minute delay in
                                                              transporting a grounds employee, who is a veteran,
l    A VHA review substantiated the allegation of             to the medical center for treatment in what
poor communications with a patient's family when              appeared to be a seizure or a diabetic episode. The
a physician hung up on the patient's wife while she           review revealed that proper procedures were not
was inquiring about her husband's care. VAMC                  followed in transporting all patients, visitors or
officials completed a formal report of contact                employees with emergent, questionable, or
regarding the incident and counseled the physician            unknown conditions to the medical center for
concerning customer relations.                                treatment. Management forwarded guidance on
                                                              emergency medical responses on facility grounds to
l   A VHA review substantiated the allegation that            all division managers.
a VAMC administered an HIV test without the
knowledge or consent of a veteran. The veteran                l    A VHA review substantiated an allegation of
was admitted to the hospital for a chronic cough              staffing shortages at a VA facility, although the




                                                         49
Office of Management & Administration

review concluded that patient care was not                    l   A review at a VAMC substantiated poor
compromised as a result. The VAMC is monitoring               communications with a patient who thought he was
daily staffing and has adopted a policy to suspend            awaiting a liver transplant. The facility failed to
surgical admissions, if necessary, when staffing              inform the veteran that due to serious medical
levels are low. An effort to recruit staff is ongoing.        complications, he had not been placed on the
In addition, the VAMC took steps to improve such              transplant waiting list. There was also confusion
administrative functions as medical transcription             among his care providers at the facility as to his
that had experienced delays because of the staffing           being placed on the list. The medical complications
problems.                                                     were resolved and the patient was accepted at the
                                                              national VA transplant center.
l    A VHA review substantiated the allegation of
incorrect treatment. A nurse practitioner placed a            l   A VHA review substantiated an allegation of
medication order to the pharmacy on a computer                poor communications with a patient's family. The
that another provider was using. As a result, the             review revealed that an inquiry from the patient's
medication order was placed for the wrong veteran.            wife about her husband's care was mistakenly
The nurse coordinator discussed this with the nurse           handled by an employee in human resources. The
practitioner and used this circumstance in training           VAMC instituted a policy requiring that all
for all employees on how to avoid similar situations          telephone calls involving significant issues or
in the future.                                                complaints about patient care be forwarded to the
                                                              patient representative to ensure follow up.
l   A VHA review substantiated a veteran's
allegation that the VAMC delayed his sinus surgery            l   A VHA review substantiated allegations of
with a series of cancellations beginning in May               poor communications with a patient and his family;
2000. As a result, the VAMC has adopted a policy              and delay in the receipt of medical care due to the
mandating the clinics not cancel scheduled appoint-           unavailability of a gastrointestinal specialist. Both
ments less than 90 days before the appointment. In            the chief, surgical service and chief, medical
addition, medical center administrators are review-           service have discussed the facility’s customer
ing the existing scheduling system to minimize any            service expectations with staff, and implemented a
cancellations. The veteran received the surgery.              patient sensitivity training program. In addition,
                                                              both services initiated processes for coordinating
l   A VHA review determined that there was a                  specialists’leave schedules.
breakdown in communications between a patient
and his family and the VAMC staff. To decrease                l   A VHA review substantiated allegations of
the possibility of future communications lapses, the          problems with a VAMC’s hearing aid program.
Director had meetings with the cardiology staff to            Multiple fee basis referrals had been returned
define which care team has responsibility for a               unprocessed without informing the facility’s
patient who is being seen for an outpatient proce-            audiologists. Management is keeping the
dure, but who will be subsequently admitted to the            audiologists in the communications loop and
VAMC.                                                         negotiated a contract with one outside provider
                                                              rather than using multiple providers.
l   A VHA review substantiated the allegation of
inappropriate or incorrect treatment. The review              l   A VHA review substantiated an allegation of
found that an order for medication was written on a           poor communications with a patient's family. The
medication profile form for the wrong veteran.                review found that although VAMC employees acted
This error was discovered before any medication               properly in refusing to release the patient’s medical
was dispensed. Management implemented new                     records to his son, it was acknowledged that the
procedures for ordering medications.



                                                         50
                                                                 Office of Management & Administration

employees should have referred the complainant to            delay in funeral services. To correct this situation,
the office of release of information for the records         management assigned a member of the surgical
he sought. The staff was reminded to refer all such          staff primary responsibility for decedent affairs.
requests.
                                                             l   A VHA review found that a physician who
l   A VHA review substantiated poor                          claimed to have discussed a proposed surgical
communications with a patient. The review found              procedure with a veteran, failed to document the
the facility failed to notify the patient of his             discussion in the patient’s medical records.
upcoming appointments in a timely manner. The                Additionally, some information was missing from
appointment manager was instructed to provide                the signed consent form, such as the patient's name
appointment notices more expeditiously.                      and Social Security number. The physician was
                                                             counseled on the need to improve documentation.
l   A VHA review substantiated a veteran's
allegations that a physician misdiagnosed him and            l   A VHA review substantiated a family's
prescribed a course of treatment for acid reflux             perception of poor quality of care and poor
rather than a collapsed lung. When the veteran               communications by VA staff in an extended care
requested an appointment with his primary care               unit. Management counseled the staff on the
physician, he could not be seen for more than 2              importance of maintaining good and courteous
months. The VAMC review showed the                           communications with patients and families,
misdiagnosis resulted from the physician not                 particularly in an extended-care ward, and was
reading an x-ray in a timely manner. The                     reminded to promptly report evidence of neglect.
contractor employing the physician was requested
to check the physician's records for a pattern of            l   A VAMC review verified a patient's allegations
missed diagnoses, the incident was referred to the           that dental appointments were cancelled at the last
peer review committee, and all emergency room                minute. The record showed at least once in the
providers were reminded to read x-rays in a timely           preceding year an appointment had been cancelled
manner. In addition, providers were requested to             because the provider was summoned for jury duty.
keep daily slots open on their calendars for patients        The director apologized to the veteran for the
requiring immediate attention.                               inconvenience. The VAMC response also indicated
                                                             the veteran's traumatic brain injury and resulting
l   A VHA review substantiated the allegation of             cognitive distortions may have lead to his
excessive waiting time. The review found the                 perception of poor and unprofessional treatment.
pharmacy was 2 weeks behind inputting new mail-              The veteran's concerns about communications
out prescriptions due to staffing and workload               problems were discussed with all dental clinic staff
issues. This caused a delay in a veteran receiving           and customer service training was provided.
his prescription. As a result, management hired
additional employees and made changes in the                 Employee Misconduct
processing of prescriptions.
                                                             l   As the result of a Hotline inquiry, a VHA
l   A VHA review substantiated the allegations of            review substantiated the allegations that a VA
poor communications with a family member and                 employee misused official time, misused
poor documentation. The review found                         Government resources, and violated ethical conduct
communication lapses occurred between the VAMC               standards. The review found the employee posted
and family members of a deceased veteran resulting           numerous bulletin board messages using a
in numerous death certificates being issued and a            Government computer. As a result, the employee
                                                             was suspended for 14 days without pay.




                                                        51
Office of Management & Administration

l    A VHA review substantiated the allegation of              l    A VHA review substantiated the allegation that
misuse of Government sources and other violations              an employee was improperly receiving on-call pay
of ethical conduct standards. The review found                 for 8 months. The VAMC took numerous
that a VA police officer purchased alcohol while in            corrective actions and appointed an administrative
uniform and driving a Government vehicle. The                  board to review recommendations related to the
review also found that the VA police supervisor                findings.
previously reviewed the same allegation and
improperly conducted the investigation.                        l   A VHA review substantiated the allegation of
Management took action to remove the police                    time and attendance irregularities. A former
officer and suspended the police supervisor.                   radiology supervisor granted extended lunch
                                                               periods to a certain employee and allowed the
l    A VHA review disclosed communications                     employee to work beyond the tour of duty as
problems at an outpatient clinic that caused a                 compensation. However, the supervisor failed to
perception of employee misconduct on the part of               provide official documentation of time worked
two employees involved in a personal relationship.             outside normal duty hours. Timecards on the
A board of investigation found that clinic                     employee involved were corrected. The supervisor
employees were not aware that an August 2000                   and staff received instruction on the correct
reorganization had realigned the supervisory lines.            electronic time and attendance policies.
The board recommended that classes be held to
educate the employees about the organizational                 l   A VHA review substantiated the allegation that
restructuring. In addition, the board recommended              a nurse misreported leave taken and that her
the clinic implement a schedule of daily, monthly,             husband, a physician, signed the timecard as the
and quarterly meetings to address the clinic's                 approving official. The nurse was charged the
general communications problems.                               appropriate annual leave and admonished, and her
                                                               husband was counseled about signing any
l   A VHA review substantiated the allegation of               document involving his wife.
Privacy Act violations. The review found that a VA
employee accessed her ex-husband's medical                     l    A VHA review substantiated the allegation of
records without his knowledge or authorization.                time and attendance abuse. The review found that
Management counseled the employee on the serious               a 20-year VA employee’s use of sick leave was
nature of her action and the potential consequences            excessive when the employee stated that she did not
should there be a recurrence.                                  suffer from a major illness of a chronic nature. As
                                                               a result, the employee received a sick leave
Time and Attendance                                            restriction letter and a referral to the employee
                                                               assistance program. Management will continue to
l    Prompted by a Hotline inquiry, a VHA review               review the employee’s use of sick leave.
substantiated timekeeping irregularities. A
timekeeper was allowed to post her own time, and               Fiscal Controls
the approving official was also the alternate
timekeeper. Additionally, the supervisor allowed               l    In response to a Hotline inquiry, a VAMC
staff to alter their tours of duty without reflecting a        review found that inadequate staffing caused a
change in the timecards. The facility moved the                backlog of approximately 12,000 possible revised
timekeeper’s card to another unit, removed the                 billings. The VAMC review also found that an
supervisor’s alternate timekeeper duties, corrected            estimated 4,000 episodes of care could not be billed
the tours of duty for the section, and counseled the           because VA has not formulated a national policy on
supervisor on the correct method of maintaining                resident supervision meeting Health Care Financing
timecards.



                                                          52
                                                                  Office of Management & Administration

Administration standards. Using figures provided              family was not notified of the patient’s falls or
by the facility, it was determined the VAMC had an            bruises as they occurred. The director instituted
estimated loss of $712,000 for FY 2000. The                   corrective actions.
VAMC hired additional staff, provided training in
coding procedures, and authorized overtime to                 l   A VHA review substantiated the allegation of
address the billings backlog.                                 patient safety violations. The review found a
                                                              veteran was improperly discharged from a VAMC
l   A VHA review substantiated the allegation that            prior to arrival of his family. As a result, the
a veteran was improperly billed for home health               veteran, who has a history of wandering off, left his
care services that were not received. The review              room and was found 6 hours later in a waiting
found the home health care provider generated the             room of the hospital.
invoice in error. The invoice was retracted, VA files
were amended, and a letter of apology sent to the             Government Equipment and Supplies
veteran.
                                                              l   As the result of a Hotline inquiry, a VHA
l   A VHA review substantiated the allegation that            review substantiated an allegation that an
the VAMC improperly billed a veteran $4,800 for               outpatient clinic employee was conducting outside
health care services. The VAMC failed to locate a             business using a Government telephone. The
signed VA form showing that the veteran was aware             employee's supervisor counseled him to refrain
he would be charged a co-payment. The VAMC                    from such inappropriate use and will periodically
cancelled the bill for services and changed                   review telephone call logs.
procedures for obtaining signed means tests.
                                                              l    Prompted by a Hotline inquiry, a VHA review
l    A VHA review found that a VAMC did not                   substantiated the allegation of misuse of
process a veteran's health insurance claim in a               Government resources. A VA employee misused a
timely and correct manner. When the facility’s                Government computer, telephone system, and fax
billing process was changed, the new process                  machine for her personal use. As a result,
caused delays and errors in processing claims until           disciplinary action will be determined in concert
the staff was fully trained. The VAMC purchased               with the findings of an active board of investigation
new computer software and implemented training                of a parallel matter and a review of the employee's
of employees regarding coding and billing                     personnel record.
procedures.
                                                              Contracting Activity
Patient Safety
                                                              l   Prompted by a Hotline inquiry, a VBA review
l    As the result of a Hotline inquiry, a VHA                found that a construction contractor on a VA
review substantiated the allegations of violation of          project, in violation of the Davis Bacon Act, did not
patient safety protocols, inadequate staff                    pay one of its laborers at the prevailing wage rate.
supervision, and poor communication with patient/             The VISN, as contract administrator, ordered the
family members. The review found: (i) the level of            contractor to issue a check to the employee for
patient supervision and assessment was inadequate             $2,935.
for a wheelchair bound patient who was left
unattended; (ii) the VAMC did not follow                      l   A VHA review substantiated the allegation of
established guidelines regarding the timeliness of            contract/procurement irregularities. The review
the patient's skin assessment; and (iii) the patient’s        found that a veteran encountered problems with a
                                                              contractor hired by VA to build a wheelchair ramp,




                                                         53
Office of Management & Administration

porch lift, and scooter lift for his flat bed truck to        perception of a conflict of interest. VAMC
accommodate his disability. Management hired a                management counseled the employee to avoid the
new contractor and is monitoring the situation until          appearance of impropriety. Additionally, the
the contract has been successfully completed.                 director reviewed the summer jobs program to
                                                              ensure that application procedures are easy to
Personnel Issues                                              follow and that VA employees are not in a position
                                                              to hire or supervise family members.
l   Prompted by a Hotline inquiry, a VHA review
substantiated the allegation of irregular VAMC                Workers’Compensation
personnel practices. The VAMC granted a newly
transferred employee relocation expenses, however             Prompted by a Hotline inquiry, a VISN review
relocation expenses were not included in the                  found the VAMC failed to properly bill the
original vacancy announcement. The VAMC has                   Department of Labor for workers’compensation
issued a $4,322 bill of collection for the                    claims. Management implemented process changes
reimbursement of the relocation expenses.                     to improve the program.

l   A VHA review substantiated the allegation of
prohibited personnel actions. The review found
that a VA physician circumvented normal
                                                              Veterans Benefits
procedures for posting job vacancy announcements.             Administration
Management counseled the physician and an
administrative officer on the proper procedures for           Receipt of VA Benefits
posting announcements.
                                                              l    As the result of a Hotline inquiry, a VBA
Ethical Improprieties                                         review found that a veteran who was incarcerated
                                                              in a state prison since 1997, never reported his
l   In response to a Hotline inquiry, a VHA review            status change to VA. The VARO reduced the
determined that a VA official used official e-mail to         veteran's benefits and created an overpayment of
solicit gifts from subordinate employees for a                $66,905.
newborn grandchild. The official was counseled
about the ethics violation and the inappropriate use          l   A VBA review substantiated a veteran's
of VA equipment and he had to attend a special                allegation that certain documentation was missing
ethics training session.                                      from his VA file. The VARO requested copies of
                                                              those records from the federal archives and the
l   A VHA review substantiated an allegation of               National Guard.
conflict of interest. The review found two VA
employees were accepting meals from agents of                 l    A VHA and VBA review at a VAMC and a
prohibited sources. As a result, the employees                VARO found that a non-veteran had assumed the
received written counselings.                                 identity of a veteran with a similar name in order to
                                                              receive outpatient medical services. The VAMC
Abuse of Authority                                            terminated medical services for the non-veteran and
                                                              flagged the veteran’s file with a national alert
As the result of a Hotline inquiry, a VHA review              should the non-veteran seek services at another
found that an employee had hired her two children             VAMC. The VARO also flagged the claims folders
for the summer jobs program, creating the                     for both the veteran and the non-veteran.




                                                         54
                                                                  Office of Management & Administration

l   A VBA review at a VARO substantiated the                  veteran), a widow married for the fifth time and
allegation of erroneously withheld attorney fees of           drew benefits for 29 years until the fraud was
$3,497 from a veteran. The funds were                         reported. The VARO notified the widow of the
subsequently released to the veteran.                         termination of her benefits back to the inception
                                                              date, creating an overpayment of $191,690.
l   A VBA review substantiated the allegation that
a VARO mishandled and lost a veteran’s claim file.            l   A VBA review of a widow's records revealed
The review found the VARO’s computer system                   that she continued to receive DIC benefits during a
erroneously reflected that her file was located in the        4-year period in which she was remarried. The
rating activity, when in fact it had been missing for         VARO created an overpayment of $60,284.
10 months. The VARO began rebuilding the
veteran’s claim file and informed her of this action          Privacy Issues
by mail.
                                                              Prompted by a Hotline inquiry, a VBA review
l   A VBA review found a veteran was improperly               found that a veteran's records were improperly
receiving benefits for a stepchild who did not reside         reclassified from a "sensitive" status, although the
with her. As a result, the stepchild was removed              review did not determine that his personal
from the award and the VARO processed an                      information had been released. The VARO
overpayment.                                                  reclassified the veteran's file to a higher level of
                                                              security than was used previously, placed it in a
l   A VBA review substantiated the allegation of              locked file, and protected it with a "flash" notice
problems with administrative services. The review             that permits information release only with written
found that a veteran was improperly billed for a              consent from the veteran.
debt resulting from non-payment of a home loan.
As a result, the VARO granted the veteran a pre-
foreclosure waiver, relieving him of the outstanding          National Cemetery
debt of $11,952, and will refund monies already
paid against the debt.                                        Administration
l   A VBA review substantiated the allegation of              As a result of a Hotline inquiry, a VA national
fiduciary irregularities in the non-payment of a              cemetery review found problems with a cemetery’s
veteran’s nursing home bill. The fiduciary was                facilities and services. The review found that flat
withholding payment until a pending guardianship              markers were damaged, grass was growing up
issue was settled. The VARO authorized the                    around the markers, and over 40,000 markers were
fiduciary to pay the outstanding bill of $15,121 on           in need of raising and realignment. The cemetery is
behalf of the veteran.                                        currently undergoing extensive renovation.

l    A VBA review found that due to a clerical error
the VARO had erroneously notified the VA Debt
Management Center of a veteran's death, resulting             Board of Veterans’
in the suspension of the veteran’s benefits. The
VARO reinstated the veteran's benefits and
                                                              Appeals
apologized to him for their error.
                                                              Prompted by a Hotline inquiry, a Board of
                                                              Veterans’Appeals review substantiated the
l   A VBA review substantiated fraud in the
                                                              allegation of Privacy Act violations. The Board
receipt of DIC benefits. Prior to applying for DIC
benefits on her deceased fourth husband (a WWI



                                                         55
Office of Management & Administration

published their decisions on the Internet, containing        Resources
veterans' Social Security numbers and other
personal identifiers, such as familial relationship,
                                                             This Division has 9 FTE assigned with the
and words indicating that an address of the veteran
                                                             following allocation:
may be present. As a result, management revised
its procedures for reviewing decisions prior to
publication, and discontinued public distribution
and sale of yearly decisions on CD-ROM. The
Board is also reviewing previously published                         FOIA/PA
decisions from 1994 to the present to ensure no                        45%

further Privacy Act violations.                                                                  Leg. Reviews
                                                                                                        8%


Outside Organization                                              Follow Up                Planning &
                                                                     30%                    Reports
Prompted by a Hotline inquiry, a review found that                                            17%
a veterans’service organization improperly solic-
ited donations from the veteran after his legal
guardian requested that all solicitations be discon-
tinued. As a result, the organization’s vice presi-          Overall Performance
dent has implemented new procedures to preclude
this problem from occurring in the future. His
organization returned the veteran's initial donation         Follow Up on OIG Reports
and issued a letter of apology.
                                                             The Division is responsible for obtaining
                                                             implementation actions on previously issued audits,
                                                             inspections, and reviews with over $2.9 billion of
II. OPERATIONAL                                              actual or potential monetary benefits as of March
                                                             31, 2001. Of this amount $1.2 billion is resolved,
SUPPORT DIVISION                                             but not yet realized as VA officials have agreed to
                                                             implement the recommendations, but have not yet
Mission Statement                                            done so. In addition, $1.7 billion relates to
                                                             unresolved reviews awaiting contract resolution by
                                                             VA contracting officers and one audit with VHA
    Promote OIG organizational
                                                             deferment on concurrence or non-concurrence with
    effectiveness and efficiency by providing
                                                             the recommendations pending more focused
    reliable and timely follow up reporting
                                                             attention and direction by VHA’s National
    and tracking on OIG recommendations;
                                                             Leadership Board.
    responding to Freedom of Information
    Act (FOIA)/Privacy Act (PA) requests;
                                                             The Division is also responsible for maintaining the
    conducting policy review and
                                                             centralized, follow up system that provides for
    development; strategic, operational, and
                                                             oversight, monitoring, and tracking of all OIG
    performance planning; and overseeing
                                                             recommendations through both resolution and
    Inspector General reporting
                                                             implementation. Resolution and implementation
    requirements.
                                                             actions are monitored to ensure that disagreements




                                                        56
                                                                Office of Management & Administration

between OIG and VA management are resolved as                investigation, contract audit, and internal audit
promptly as possible and that corrective actions are         reports and files. We also process OIG reports and
implemented as agreed upon by VA management                  documents to assist VA management in establishing
officials. VA’s Deputy Secretary, as the                     evidence files used to support administrative or
Department’s audit resolution official, resolves any         disciplinary actions against VA employees.
disagreements about recommendations.
                                                             During this reporting period, we processed 153
As of March 31, 2001, VA had 68 open internal                requests under the Freedom of Information and
OIG reports with 163 resolved but unimplemented              Privacy Acts and released 199 audit, investigative,
recommendations, 39 unresolved contract review               and other OIG reports. In five instances we had no
recommendations that are awaiting contracting                records. Information was totally denied in 3
officers’decisions, and 3 unresolved                         requests and partially withheld in 93 requests
recommendations awaiting VHA’s National                      because release would have constituted an
Leadership Board action.                                     unwarranted invasion of personal privacy,
                                                             interfered with enforcement proceedings, disclosed
After obtaining information that showed                      the identity of confidential sources, disclosed
management officials had fully implemented                   internal Department matters, or was specifically
corrective actions, the Division took action to close        exempted from disclosure by statute.
during this period 58 internal reports and 248
recommendations with a monetary benefit of                   During this period, one FOIA case did not receive a
$486 million.                                                written response within 20 work days, as required.
                                                             There are no cases pending over 1 year. Our
During this period, 100 percent of follow up                 average processing times were 172 work days for
requests on immediate actions were sent within               complex cases, 31 work days for less complicated
three months. Also, 100 percent of the initial and           requests, and 10 work days for routine matters.
the subsequent follow up letters were processed in
less than 3 months. In both cases, we met the                The Information Technology and Data Analysis
standard.                                                    Division section reports on electronic FOIA
                                                             activities.
Freedom of Information Act, Privacy Act,
and Other Disclosure Activities                              Review and Impact of Legislation and
                                                             Regulations
The Division processes all OIG FOIA and Privacy
Act requests from Congress (on behalf of                     The Division coordinated concurrences on
constituents), veterans, veterans service                    legislative and regulatory proposals from the
organizations, VA employees, news media, law                 Congress, OMB, and the Department that relate to
firms, contractors, complainants, general public,            VA programs and operations. The OIG commented
and subjects/witnesses of inquiries and                      and made recommendations concerning the impact
investigations. In addition, the Division processes          of the legislation and regulations on economy and
official requests for information and documents              efficiency in the administration of programs and
from other Federal Departments and agencies, such            operations or the prevention and detection of fraud
as the Office of Special Counsel, the Department of          and abuse. During this period, we reviewed 30
Justice, and the FBI. These requests require the             legislative, 51 regulatory, and 35 administrative
review and possible redacting of OIG Hotline,                proposals.
healthcare inspection, criminal and administrative




                                                        57
Office of Management & Administration

                                                            (Note): There are two additional 1998 reports not
Status of OIG Reports                                       listed in the above “FY 98 and earlier” columns and
Unimplemented for Over                                      not listed in the below summaries because they are
                                                            contractor related reports. One is an A&MM
3 Years                                                     acquisition center report and one is a VHA facilities
                                                            management report. Both reports are listed in
                                                            Appendix C on contractor reviews.
We require management officials to provide us with
documentation showing the completion of                     We are particularly concerned about the FY 98 and
corrective actions on OIG reports, including                earlier reports that have not been implemented 3
reporting of collection actions until the amounts           years after being issued. The status and OIG
due VA are either collected or written off. In turn,        concerns on these FY 98 and earlier reports are
we conduct desk reviews of status reports                   summarized as follows.
submitted by management officials to assess both
the adequacy and timeliness of agreed upon
implementation actions. When a status report                Veterans Health
adequately documents corrective actions, the follow
up staff closes the recommendation after
                                                            Administration
coordination with the OIG office that wrote the
report. If the actions do not implement the                 Unimplemented Recommendations and
recommendation, we request a status update.                 Status (FY 98 and Earlier Reports)

The following chart lists the total number of               Report: VHA Activities for Assuring Quality Care
unimplemented OIG reports and recommendations.              for Veterans in Community Nursing Homes, 4R3-
It also provides the total number of unimplemented          A28-016, 1/11/94
reports and recommendations issued in FY 98 and             Recommendation: VHA develop standardized
earlier.                                                    community nursing homes inspection procedures
                                                            and criteria for approving homes for
                                                            participation in the program.
                    Unimplemented OIG
                Reports and Recommendations                 Status: In December 2000, VHA staff indicated a
                                                            revised draft directive on transmission of
                     Total           FY 98 and              information on assaultive patients was in the
   VA                               Earlier (note)
  Office                                                    concurrence process, but they were unable to
             Repts       Recoms    Repts    Recoms          predict a publication date. VHA staff also
                                                            indicated another draft would be put into the
   VHA         35            106     4          5           concurrence process in March 2001, however this
   VBA          9            50      3          3           did not occur. No planned completion date has
                                                            been provided.
  A&MM         21            46      0          0           Concern: The OIG is concerned that this report,
                                                            which dates back to 1994, has not yet been
   HRA          2             2      0          0
                                                            implemented. The final report showed that
   I&T          1             1      0          0           inspection procedures varied between VAMCs,
                                                            appropriateness of community nursing homes
   Total       68            205     7          8           inspection team makeup could be improved, and
                                                            annual reinspections should be conducted more
Office of Acquisition and Materiel Management (A&MM)
Office of Human Resources and Administration (HRA)          timely. These are still issues which need to be
Office of Information and Technology (I&T)                  addressed to improve care of veterans.




                                                       58
                                                               Office of Management & Administration

Report: Evaluation of VHA’s Policies and                    2001, VHA stated another draft directive would be
Practices for Managing Violent and Potentially              put into the concurrence process in April 2001. No
Violent Psychiatric Patients, 6HI-A28-038,                  planned completion date has been provided.
 3/28/96                                                    Concern: The June 1997 final report showed that
Recommendation: VHA managers should                         contracting for home health services could save at
explore network flagging systems that would                 least $1.8 million annually, however the
ensure employees at all VAMCs are alerted                   recommendations remain unimplemented. The
when patients with histories of violence present            May 1997, comments to the draft report referred to
for treatment to their medical centers.                     a pilot project that would implement the
Status: The title of the implementation project is          recommendations. However, 1½ years later, the
computerized advisories to reflect the new                  December 1998 status update reported that the
approach VHA is proposing to develop warnings on            pilot did not address these recommendations. We
repetitively dangerous patients. The draft directive        are concerned that the last four status updates from
is going through concurrence. VHA will also                 the program office reported either delays in planned
require a computer approach that is system wide to          completion dates or did not provide a planned
implement this project. A draft proposal will be            completion date. As a result, over $5.3 million has
presented to the VA information technology                  been spent on these contracts which could have
advisory council in May 2001. Tied to the                   been avoided. We are also concerned that until this
implementation of the computer approach and                 condition is corrected, at least $1.8 million
directive is the need for training of staff in the          annually is not saved.
proper use of computerized use of patient flagging
as a treatment tool. The final products may not             Report: Evaluation of VA Capital Programming
reach the field until 2002.                                 Practices and Initiatives, 8R8-A19-061, 1/28/98
Concern: The OIG report included                            Recommendation: Develop a policy for VISN-
recommendations that were meant to strengthen               controlled capital investments, including policy
areas that may reduce that incidence of injury              on the types of investments subject to capital
associated with violence in inpatient psychiatric           programming, on dollar thresholds, and on
units. The original planned completion date was             responsibilities for considering alternatives,
October 1996. A directive provided in 1998 did not          performing benefit-cost analysis, and meeting
address the issue. The OIG believes the new                 other capital programming requirements.
computerized advisory project, when implemented,            Status: VHA has written a detailed draft directive
will close this 1996 recommendation.                        on network capital asset planning that will
                                                            implement the recommendation. The draft directive
Report: Internal Controls Over the Fee-Basis                has been shared with field staff and minor project
Program, 7R3-A05-099, 6/20/97                               applications for the FY 2002 operating plan are
Recommendations: VHA improve the cost                       being prepared in accordance with the draft
effectiveness of home health services by: (1)               directive. VHA management may decide to hold
establishing guidelines for contracting for such            the final publication of the directive pending any
services, and (2) providing contracting officers            recommendations for improvement that will result
with benchmark rates for determining the                    from the General Accounting Office’s review of the
reasonableness of charges.                                  process which should be completed shortly.
Status: VHA provided a 10-page draft directive on           Concern: In FY 1997, VA’s capital investment
purchased skilled home health care and                      costs were about $1.3 billion. Historically VA has
homemaker/home health aide services in July 2000,           not had a comprehensive capital programming
and again in December 2000, however both drafts             process. The report noted VA did not always
did not address recommendation (2). In March




                                                       59
Office of Management & Administration

consider alternatives to proposed capital asset              Recommendation: Correct electronic
acquisitions and did not use benefit-cost analysis to        beneficiary data base system errors, and link
support capital decisions. The original planned              other electronic beneficiary data bases, where
completion date was September 1998.                          necessary.
                                                             Status: VBA stated they plan to run a one-time
                                                             match between the beneficiary identification
Veterans Benefits                                            records locator system and the master record to
                                                             identify the extent of the problem. After the match
Administration                                               is completed, VBA will conduct another analysis.
                                                             Once the extent of the problem is determined,
Unimplemented Recommendations and                            appropriate measures will be implemented. No
Status (FY 98 Reports)                                       planned completion date has been provided.
                                                             Concern: The IG report found that VBA needed to
Report: Review of VBA’s Procedures to Prevent                develop and implement an effective method to
Dual Compensation, 7R1-B01-089, 5/15/97                      identify deceased veteran beneficiaries and
Recommendation: VBA follow up on FYs 1993                    terminate their benefits timely. Based on
through 1996 dual compensation cases to ensure               information about veterans’deaths received from
either VBA disability payments are offset or the             SSA, audit sample results showed that only 56
Department of Defense is informed of the need                percent of veterans reported by SSA as deceased
to offset reservist pay.                                     were, in fact, deceased. VBA benefit awards for 27
 Status: VBA stated a letter was sent to the                 percent of the sampled deceased claimants were
Director, Defense Manpower Data Center in                    still running, had incorrect termination dates, or
December 2000, requesting that VA be provided an             had incorrect suspense dates. The OIG is
accurate file of reservist training days. Once the           concerned that approximately $4 million in
center provides the accurate data, VBA can begin             erroneous payments were made throughout VBA.
the match. VBA also plans to set up a series of
meetings with the manpower data center to further            Report: Alleged Improper Reimbursement of
discuss this issue. No planned completion date has           Relocation Expenses, VARO San Diego, CA, 8PR-
been provided.                                               B01-097, 4/17/98
Concern: The audit’s purpose was to determine if             Recommendation: The VARO Director should
VBA’s procedures ensured that disability                     establish a debt and collect the real estate
compensation benefits of active military reservists          expenses that were improperly paid to a VARO
were properly offset from their training and drill           supervisor. The collection should include all
pay. It found that 90 percent of the potential dual          withholding tax and relocation income tax
compensation cases reviewed did not have offsets             allowances paid.
from their military reserve pay. We are concerned            Status: VBA stated they received an opinion from
that an estimated $8 million in annual dual                  the VA regional counsel that indicated the
compensation payments continue to be made each               individual did not receive proper notice of a hearing
year because this recommendation has not been                to allow salary offset. Regional counsel is in the
implemented.                                                 process of providing the notice and hearing for a
Report: Audit of Veterans Benefits Administration            salary offset. No planned completion date has been
SSA/VA Death Match Procedures, 8R4-B01-069,                  provided.
2/6/98




                                                        60
                                                              Office of Management & Administration

Concern: A review at a VARO substantiated an               guarantee uninterrupted access to electronic mail,
allegation that a supervisor improperly claimed and        service personal computers, detect and defeat
was reimbursed real estate expenses not incidental         computer threats, and provide support in protecting
to a transfer to a new duty location. The report           all electronic communications. The Division,
recommended a debt be established to collect the           which is managed by the OIG’s Chief Information
real estate expenses, including all withholding tax        Officer, represents the OIG on numerous intra- and
and relocation income tax allowances improperly            inter-agency IT organizations and is responsible for
paid to the employee. A final accounting found the         strategic IT planning for all OIG requirements.
debt was $19,352.                                          The Data Analysis section in Austin, TX provides
                                                           data gathering and analysis support to those
III. INFORMATION                                           employees of the OIG, as well as VA and other
                                                           Federal agencies, requesting information contained
TECHNOLOGY AND DATA                                        in VA automated systems. Finally, a member of
                                                           this division serves as the OIG statistician.
ANALYSIS DIVISION
                                                           Resources
Mission Statement
                                                           The Division has 19 FTE currently assigned in
    Promote OIG organizational                             Washington, DC; Austin, TX; and Atlanta, GA.
    effectiveness and efficiency by ensuring               These FTE are devoted to the following areas:
    the accessibility, usability, and security of
    OIG information assets; developing,
    maintaining, and enhancing the                                               Programmers
    enterprise database application;                                                13%
                                                                                               PC Comp. Spec.
    facilitating reliable, secure, responsive,              Sup. Comp Spec.
                                                                                                    6%
    and cost-effective access to this database,                   13%
    VA databases, and electronic mail by all                                                       Program Assistant
                                                                                                          6%
    authorized OIG employees; providing
    Internet document management and                         Statisician
    control; and providing statistical                           6%
    consultation and support to all OIG                                    CIO
    components. Provides automated data                                    6%
    processing technical support to all                                                           Mainframe
    elements of the OIG and other Federal                       Webmaster/                     Computer Spec.
    Government agencies needing                                   Security                          44%
                                                                      6%
    information from VA files.

The Information Technology (IT) and Data
Analysis Division provides IT and statistical              Overall Performance
support services to all components of the OIG. It
has responsibility for the continued development           Master Case Index (MCI)
and operation of the management information
system known as the Master Case Index (MCI), as            During this reporting period, we completed more
well as the OIG’s Internet resources. The Division         than 50 enhancements of the MCI, the OIG’s
interfaces with VA IT units nationwide to establish        enterprise database. Most significantly, we
and support local and wide area networks,                  developed a new form and several reports that




                                                      61
Office of Management & Administration

allowed our Hotline Division to abandon a                    Information Management, Security, and
standalone database solution to capturing                    Departmental Coordination
information about the 16,000 telephone calls this
Division receives each year. This enhancement                We enhanced the security of sensitive OIG data and
reuses data saved on this new form when Hotline              systems through OIG employee information
personnel open an MCI case on a different form               security education and awareness, timely computer
thereby saving tens of thousands of keystrokes each          security incident response, and additional internal
year. We undertook this effort with existing staff           network monitoring. During one security incident,
when three vendors advised us that the development           we identified and analyzed a macro virus that was
costs of a form with even less functionality than the        not being detected by the Department’s antivirus
one we developed would cost $50,000. We also                 program -- our analysis was used to get updated
enhanced the Office of Investigation’s forms by              virus signatures from the Department’s antivirus
providing a more robust case management module.              vendor. We provided hands-on encryption training
Audit’s forms were enhanced with the addition of             to OIG's healthcare inspectors to further prepare
nearly 14 years of legacy data about report                  for the pending security and privacy requirements
recommendations previously maintained in a                   of the Health Insurance Portability and
standalone database. Finally, we also significantly          Accountability Act.
enhanced the Office of Healthcare Inspections form
to allow staff to take full advantage of the time-           We actively participate in the development of
saving features previously developed on other                departmental policies and programs to improve VA
forms.                                                       information security, IT accessibility, and Internet
                                                             resources and utilization. We assessed the
Internet and E-FOIA                                          Department’s proposed public key infrastructure
                                                             and made recommendations regarding OIG access
The Division is responsible for processing and               to encrypted data, protection from unauthorized
controlling electronic publication of OIG reports,           decryption/key recovery, VA-wide user agreements
including maintaining the OIG websites and posting           that include consent to access and recovery of
OIG reports on the Internet. Data files on the OIG           encrypted data, audit trails for all key recovery
websites were accessed over 631,000 times by                 actions, and improved reporting of key compromise
more than 107,000 visitors. Our most popular                 procedures.
reports were downloaded over 50,000 times,
providing both timely access to OIG customers and            We provided comments on the Department’s
cost avoidance in the reduced number of reports              proposed VA-wide intrusion detection statement of
that must be printed and mailed. Our vacancy                 work, including recommendations on determining
announcements accounted for an additional 42,000             the boundaries of the VA network to be included
downloads.                                                   and reporting requirements if the boundaries are
                                                             exceeded, stating the depth of the network topology
We posted CAP, healthcare inspection, and audit              maps to be created, and securing the information
reports in our electronic reading room in                    generated by the project.
compliance with the Electronic Freedom of
Information Act. This included restricted                    We provided feedback on the Department's
publications that we electronically redact before            proposed Internet/Intranet services policies. In
making them available online. We published 9                 conjunction with the Department of Justice
reports, 46 Office of Investigations press releases,         Computer Crimes and Intellectual Property
the OIG’s latest strategic plan, and other OIG               Section, we developed proposed warning notices
publications, including this semiannual report to            for all VA Internet and Intranet sites to help ensure
Congress, on our website.



                                                        62
                                                                 Office of Management & Administration

successful prosecutions of future attacks on VA’s
Internet infrastructure. We also recommended
                                                             DATA ANALYSIS SECTION
adding Federal Records Act requirements, rewriting
the external links policy, and modifying cookie              The Data Analysis section analyzes data in VA
policies to conform with the latest promulgations            computer files and systems. They develop
from the OMB Office of Information and                       proactive computer profiles that search VA
Regulatory Affairs.                                          computer data for patterns of inconsistent or
                                                             irregular records with a high potential for fraud and
Statistical Support                                          they refer these leads to OIG auditors and
                                                             investigators for further review.
The OIG statistician is part of the technical support
team under the direction of the OIG's Chief                  They conduct reviews that identify invalid or
Information Officer. The OIG statistician is the             erroneous information in VA computer files that can
subject matter expert providing statistical                  lead to bad results or erroneous conclusions. They
consultation and support to the VA OIG. The                  provide automated data processing technical
statistician provides assistance in planning,                assessments and support to all elements of the OIG
designing, and sampling for relevant IG projects.            and other governmental agencies needing
In addition, the statistician provides support in the        information from VA computer files. They also
implementation of appropriate methods to ensure              provide automated data processing technical
that data collection, preparation, analysis, and             support to preaward and postaward OIG audit
reporting are accurate and valid.                            reviews that assist VA contracting officers in price
                                                             negotiations and to ensure reasonableness of
For this period, the OIG statistician and a computer         contract prices.
specialist provided statistical support for all CAPs.
This support involved preparing and processing the           The support work provided by the section staff is
random samples of full-time VAMC employees                   reported in many of the OIG audits, inspections,
who were part of the CAP's employee satisfaction             and investigative cases described in other sections
survey. In addition, the individuals provided                of this report.
support to process the CAP data collected while on-
                                                             Collaborations with VA Office of Financial
site.
                                                             Policy, Financial and Systems Quality
                                                             Assurance Service
Information Technology Training Initiative
                                                             During this reporting period, the section worked
We have contracted with four vendors to provide
                                                             closely with auditors from the Service to test newly
instructor-led training in a variety ofMicrosoft
                                                             developed fraud detection computer profiles. They
applications in our newly constructed classroom in
                                                             developed four new computer profiles during this
our Washington, DC headquarters office and one
                                                             reporting period that resulted in three potential
vendor with training facilities in each city in which
                                                             fraud cases. Examples include:
the OIG is located to provide training for our field
employees. To date, 93 employees have received
                                                             l   Service auditors reviewed profiled cases at one
196 days of instructor-led training in Washington,
                                                             VARO by pulling folders and reviewing the
DC, while 48 field employees have received 64
                                                             documentation. The results were three potential
days of training locally.
                                                             fraud referrals to OIG investigators with estimated
                                                             dollar recoveries for VA of $656,876.




                                                        63
Office of Management & Administration

l   In May 2000, the section provided the Service             and in accord with the terms of the contract.
auditors with a list of eight potential bogus veterans        Examples include:
whose folders were maintained at the VARO. After
the auditors on-site visit to the VARO, they                  l   During a postaward contract review, a
reported that a folder for one of the eight could not         company provided the top 100 sales made to VA for
be located. The section reviewed the computer                 both federal supply and non-federal supply
record further and found the veteran’s record had             schedule sales. Many of the item numbers
been changed to reflect his death on the first                provided by the company had changed from a
workday following the team’s visit to the VARO.               previous audit and some needed data was omitted
The record was referred to OIG investigators. In              from what the company provided. As a result,
February 2001, a VARO employee and a non-VA                   there was not enough data for the auditor to
employee associate were indicted by a grand jury              perform the review. The section worked with
with 24 counts of fraud against VA.                           company IRM staff and IG auditors to obtain the
                                                              needed information in the proper format to
Collaborations with VBA                                       complete the audit.

The section worked with the VBA to form a                     l   The section assisted auditors during a
collaborative effort to help identify internal and            company’s voluntary disclosure concerning pricing
external fraud within VBA computerized systems.               reductions they charged VA. The company
The effort is currently limited to computer profiles          provided the information voluntarily, but it was on
developed for the compensation and pension area,              magnetic media more advanced than could be
but long-range plans include developing additional            processed at the Austin Automation Center. The
profiles that include the VA life insurance and loan          section worked with company IRM and the Austin
guaranty programs. An example of this                         Automation Center staff to successfully convert the
collaboration was the referral to VBA of 21 cases             data.
of retroactive one-time payments in excess of
$25,000 at VARO Wichita, Kansas. VBA                          Requests from Other Federal Agencies
determined that 20 of the cases appeared to be
correct. In the remaining case, their review showed           The section completed 13 requests from other
that 2 payments of more that $85,000 each had                 Federal agencies for information contained in VA
been made erroneously to the same widow. One of               computer files and systems. Examples include:
the checks was returned. A second check, made 5
months later, was deposited directly into her bank            l   Fourteen requests originated from joint
account.                                                      criminal and/or civil investigations between the
                                                              Department of Health and Human Services and
Postaward and Preaward Contract                               Department of Justice. Allegations generally
Reviews                                                       involved companies or entities alleged to have
                                                              defrauded Medicare or Medicaid programs and
The section assisted OIG auditors by providing                determination that VA may have been defrauded in
automated data processing support in obtaining and            the same or similar manner.
analyzing the sales data provided by independent
vendors seeking or under contract with VA. During             l    The section provided a list of veteran addresses
the course of providing this assistance, the section          to the FBI that had been involved in a fraudulent
coordinated with company personnel and attorneys              medical reimbursement payment scheme. Six VA
and OIG auditors to ensure the needs of the audit             employees have been indicted.
were met and that VA prices were fair and equitable




                                                         64
                                                               Office of Management & Administration

l    The section provided a list containing VA              their own resources. During any given quarter,
benefit check information on 230 checks requested           about 10 million account receivable bills and about
by a U. S. postal inspector. The checks had been            20 million payments are reconciled.
stolen during a large-scale theft.
                                                            General Workload
Requests from VA
                                                            During this reporting period, the section completed
During this reporting period, the section completed         238 ad hoc requests submitted from all OIG
27 requests for information from other VA offices.          operational elements and supported 13 OIG
Examples include:                                           Combined Assessment Program reviews. They also
                                                            worked on 39 proactive projects involving data
l    The section provided eight files to VARO               mining to detect potential fraud in VBA and VHA
Manila that identified Philippine scouts that served        systems. They also completed 61 requests from
during World War II who are receiving VA pension            auditors in the OIG Contract Review and
to which they are not entitled. They also provided          Evaluation Division.
lists containing Philippine veterans whose age on
VA files was shown as equal to or greater than 99
years. The data was provided so the VARO could
identify potential fraud within their records.
                                                            V. RESOURCES
                                                            MANAGEMENT DIVISION
l   The section also provided OIG investigators
with a listing of 17,000 veterans and beneficiaries
receiving VA benefits who are living in the                 Mission Statement
Philippines. An analysis of these veterans showed
widow’s ages ranging from 2 to 194 years old, and               Promote OIG organizational
a veteran who was recorded as being 6 years old.                effectiveness and efficiency by providing
They also showed nearly 3,000 beneficiaries whose               reliable and timely management and
folder resides at VARO Manila, but live in other                administrative support services.
countries. Based on the information provided by
the section, OIG investigators identified about             The Division provides support services for the
4,000 folders that warranted closer review.                 entire OIG. Our services include personnel services
                                                            and liaison; budget formulation, presentation, and
l    At the request of the VHA, the OIG section             execution; travel processing; procurement; space
turned over files, program code, and system                 and facilities management; and general
documentation they had developed to VHA IRM                 administrative support.
staff. The programs are used to help VHA perform
a national reconciliation of their account                  Resources
receivables. All VHA stations transmit their
account receivables to the Austin Automation
                                                            The Division has 14 FTE currently assigned. The
Center on a quarterly basis. The OIG program
                                                            staff allocation for the four functional areas is as
code was used to gather, consolidate, and compare
                                                            follows:
station totals to nationally reported totals. VHA
expressed an interest in obtaining the programs for
their own use. The section worked closely with
VHA to ensure everything needed was provided and
that VHA could continue to run the system using




                                                       65
Office of Management & Administration

                                                            Administrative Support
                             Admin. Supt.
            Travel              21%
             14%                                            The administrative staff works closely with Central
                                                            Office administrative offices and building
                                                            management to coordinate various administrative
                                      Budget                functions, office renovation plans, telephone
                                       21%
                                                            installations, and the procurement of furniture and
                                                            equipment.
                 HRM
                 44%
                                                            In addition, this component processed 107
                                                            procurement actions and reviewed and approved,
                                                            each month, the 30 statements received from the
Overall Performance                                         OIG’s cardholders under the Government’s
                                                            purchase card program.
Budget

The staff assisted in the preparation of the FY 2002
budget submission and materials for associated
hearings in the Department and with the
Congressional Committees.

The staff executed 45 percent of the OIG’s FY
2001 budget authority.

Human Resources Management

During this period, the staff brought 44 new
employees on board. In addition, the staff
processed 144 personnel actions, 3 outstanding
career awards, 53 special contribution awards, 17
time-off awards, 28 on-the-spot awards, and 1 peer
award.

Travel

By the nature of our work, OIG personnel travel
almost continuously. As a result, we processed
1,600 travel and 56 permanent change of station
vouchers in addition to 17 new permanent change
of station authorities and 22 amendments to
existing authorities.




                                                       66
                                                                         Other Significant OIG Activities

OTHER SIGNIFICANT OIG ACTIVITIES
President’s Council on Integrity                            for finance and development supervision. The
and Efficiency                                              presentations included an overview of the U.S.
                                                            Government, VA, VA OIG, Government
Financial Audit Division staff participate in the           Performance and Results Act, and the Office of
Federal audit executive committee financial                 Audit's auditor training program. In addition, they
statement audit workgroup. The workgroup                    provided summaries of three prior audits.
facilitates communication of financial statement
audit issues throughout the Federal audit                   Office of Acquisition and Materiel
community.                                                  Management Seminar

                                                            The Financial Audit Division Director provided a
OIG Management Presentations
                                                            presentation on nonexpendable equipment and
                                                            excess property accounting and controls at an
Leadership VA 2000 Program
                                                            Office of Acquisition and Materiel Management
                                                            seminar.
The Inspector General made a presentation on the
work of the OIG to the Leadership VA Class of
                                                            VHA Training Sessions on Workers’
2000. This program is VA's premier leadership
                                                            Compensation Program Cases
development program.
                                                            Management and Fraud Detection
Midwestern Intergovernmental
                                                            The Central Office Audit Operations Division
Audit Forum
                                                            Director, audit manager, and representatives from
                                                            the Office of Investigations participated in training
The Inspector General participated in the
                                                            sessions for VISN managers who were assigned
conference in Chicago. His presentation included
                                                            responsibility for coordinating VHA’s national case
real life examples of OIG findings at VAMCs and
                                                            review. This effort is being completed as part of a
the efforts by the OIG staff to analyze common
                                                            one time national case review that we
problems among these hospitals.
                                                            recommended. OIG representatives presented
                                                            training sessions at VAMCs Bay Pines and Long
General Accounting Office
                                                            Beach on Using Information Technology for
Intergovernmental Audit Forum
                                                            Successful Workers’Compensation Program Case
                                                            Management and Fraud Detection. Over 50 VHA
The AIG for Auditing was on a General Accounting
                                                            health and safety staff attended.
Office intergovernmental audit forum panel. The
panel addressed audit involvement with
                                                            National Acquisition Center Federal
Government Performance and Results Act data
                                                            Supply Schedule Training
validation.
                                                            The Director and an audit manager from the
Indonesian Audit Agency Meeting
                                                            Contract Review and Evaluation Division assisted
                                                            the acquisition resources team and Office of
The Director, Operational Support Division;
                                                            General Counsel in conducting training related to
Director, Planning Division; and investigative staff
                                                            price reductions on Federal supply schedule
made presentations to the Indonesian audit agency




                                                       67
Other Significant OIG Activities

contracts. The presentation addressed the VA              Awards
OIG’s role in evaluating compliance with price
reduction clauses contained in contracts and              Office of the U. S. Attorney for the Eastern
focused on what actions are needed to improve             District of New York
overall compliance with contract term.
                                                          l    The Office of the U. S. Attorney for the
VA Health Care Contracting Training                       Eastern District of New York, Long Island
                                                          Division, presented VA OIG employees Samantha
The Director and an audit manager from the                Lockery, Thomas Valery, Jenny Pate, Shirley
Contract Review and Evaluation Division provided          Henley, Patricia Christ and Linda DeLong with
a presentation on contracting for scarce medical          awards for their involvement in the investigation
specialist services to VHA contracting officers in        leading to the indictment and conviction of a former
Little Rock, AR. The presentation covered the             physician. The physician pleaded guilty to the
history of contracting with affiliates for scarce         murder of three veteran patients at VAMC
medical resources, the preaward review process,           Northport and was sentenced to three consecutive
and common problems the OIG has encountered               life sentences.
over the last year performing these reviews.
                                                          l    The Office of the U. S. Attorney for the
Association of Military Surgeons of the                   Eastern District of New York, Long Island
United States Conference                                  Division, presented VA OIG special agents
                                                          Samantha Lockery and Thomas Valery with awards
Three Office of Healthcare Inspections employees          for their involvement in a multi-faceted real estate
(George Wesley, M.D.; Linda DeLong, R.N.,                 fraud investigation in which seven defendants have
MSN; and Jim Marchand, MA, CPHQ, CGFM)                    entered guilty pleas and three mortgage banks have
made a poster presentation titled: Hepatitis C: A         been closed. The investigation established the
Study of Clinical and Economic Concerns for               defendants submitted false information enabling
HCV Infected Patients Treated by the Department           non-qualified home buyers to qualify for
of Veterans Affairs.                                      Government insured loans. Several of the
                                                          properties purchased have since gone into
Unsuspected Poisoning in Suspicious                       foreclosure.
Hospital Deaths Conference
                                                          American Pharmaceutical Association
Two senior Office of Healthcare Inspections
employees (George Wesley, M.D.; and Patricia              Healthcare Inspector, Wilma K. Wong, Pharm.D.,
Christ, RN, MBA, CPHQ) were discussants on the            was selected as a Fellow of the American
conference’s concluding panel. This panel                 Pharmaceutical Association.
addressed possible protocols in instances of
unexpected hospital deaths and what needs to be
done when a suspicious death occurs in a hospital.




                                                     68
                                                            Other Significant OIG Activities

International Journal of Military Medicine

Dr. George Wesley, Director, Medical Assessment
and Consultation; and Verena Briley-Hudson,
Director, Chicago Healthcare Regional Office were
recognized in the January 2001 issue of the
International Journal of Military Medicine, for
their work in peer reviews of articles submitted for
publication.

OIG Congressional Testimony

In March 2001, the Inspector General testified
before the House Committee on Government
Reform, Subcommittee on National Security,
Veterans Affairs, and International Relations. The
testimony addressed the major performance and
management challenges facing VA and highlighted
the contributions of the OIG in combating crime,
waste, fraud, and abuse in the Department.

Obtaining Required Information or
Assistance

l    Sections 5(a)(5) and 6(b)(2) of the Inspector
General Act of 1978 require the Inspector General
to report instances where access to records or
assistance requested was unreasonably refused,
thus hindering the ability to conduct audits or
investigations. During this 6-month period, there
were no reportable instances under these sections of
the Act.

l   Under P.L. 95-452, the IG has authority
 “… to require by subpoena the production of all
information, documents, reports, answers, records,
accounts, papers, and other data and documentary
evidence necessary . . . .” The use of IG subpoena
authority has proven valuable in our efforts,
especially in cases dealing with third parties.
During this reporting period, the OIG issued 44
subpoenas in conjunction with OIG investigations
and audits.




                                                       69
Other Significant OIG Activities




                                   70
  Report                                                     Funds Recommended
 Number/                               APPENDIX A               for Better Use   Questioned
Issue Date                  Report Title                      OIG     Management   Costs

                         DEPARTMENT OF VETERANS AFFAIRS
                           OFFICE OF INSPECTOR GENERAL
                               REVIEWS BY OIG STAFF


  Report                                                     Funds Recommended
 Number/                                                        for Better Use   Questioned
Issue Date                  Report Title                      OIG     Management   Costs

COMBINED ASSESSMENT PROGRAM REVIEWS

00-02022-17   Combined Assessment Program Review, VA
11/30/00      Pittsburgh Healthcare System                 $250,794     $250,794

00-01222-11   Combined Assessment Program Review of VA
12/20/00      Montana Healthcare System and Regional
              Office

00-02062-22   Combined Assessment Program Review of VA
1/19/01       Medical Center Spokane, WA

00-02974-35   Combined Assessment Program Review, VA
1/31/01       Medical Center Miami, FL                     $102,639     $102,639

00-02560-28   Combined Assessment Program Review, VA
2/2/01        Regional Office Boston, MA                    $66,767      $66,767

00-02679-41   Combined Assessment Program Review,
2/22/01       Hunter Holmes McGuire VA Medical Center
              Richmond, VA                                 $333,130     $333,130

00-02068-24   Combined Assessment Program Review of VA
2/24/01       Eastern Kansas Health Care System

00-02063-52   Combined Assessment Program Review of the
2/26/01       VA Palo Alto Health Care System             $1,195,900   $1,195,900

01-00071-59   Combined Assessment Program Review of the
3/16/01       VA Puget Sound Health Care System

00-02023-36   Combined Assessment Program Review of VA
3/26/01       Health Care Network Upstate New York at
              Syracuse                                     $188,410




                                                 71
  Report                                                              Funds Recommended
 Number/                                                                 for Better Use   Questioned
Issue Date                       Report Title                          OIG     Management   Costs

INTERNAL AUDITS
99-00054-1       Audit of Veterans Benefits Administration's
1/8/00           Income Verification Match (IVM) Results        $806,300,000    $81,668,735*

99-00057-4       Audit of Veterans Health Administration
12/20/00         Pharmacy Co-Payment Levels and
                 Restrictions on Filling Privately Written
                 Prescriptions for Priority Group 7 Veterans   $1,613,617,281          $0**

00-01702-50     Report of Audit of the Department of
2/28/01         Veterans Affairs Consolidated Financial
                Statements for Fiscal Years 2000 and 1999

00-02165-54      Audit of the Department of Veterans Affairs
3/26/01          Health Eligibility Center Atlanta, GA           $15,300,000     $15,300,000

OTHER OFFICE OF AUDIT REVIEWS

99-00191-2      Evaluation of Financial and Administrative
10/12/00        Controls in the Research Program at the VA
                Greater Los Angeles Healthcare System               $268,000        $268,000

99-00177-14      Accuracy of Data Used to Compute the
11/16/00         Foreclosure Avoidance Through Servicing
                 Ratio

00-02285-19     Review of Hotline Complaint: Misuse of
12/6/00         Government Purchase Card

99-01685-10     Review of Selected Construction Contracts,
1/25/01         Purchase Card Activities, and Vehicle
                Administration at Veterans Affairs Medical
                Center Clarksburg, WV

CONTRACT REVIEWS ***

99-00117-3      Postaward Review of VA's Federal Supply
10/4/00         Schedule Contract with Sherwood Davis &
                Geck, Contract Number V797P-3022k


* VBA did not agree with the OIG average processing time figure used in the extrapolation method.

** VHA deferred on concurrence or non-concurrence with the recommendations pending more focused
attention and direction by VHA’s National Leadership Board.

*** Management estimates are not applicable to contract reviews. Cost avoidances resulting from these
reviews are determined when the OIG receives the contracting officer’s decision on the recommendations.




                                                         72
  Report                                                         Funds Recommended
 Number/                                                            for Better Use   Questioned
Issue Date                    Report Title                        OIG     Management   Costs
CONTRACT REVIEWS (Cont’d)

00-00242-6    Review of Proposal Submitted by University of
10/6/00       Pennsylvania School of Medicine for
              Radiology Services at the VA Medical Center
              Philadelphia, PA                                   $3,198

00-00240-8    Review of Federal Supply Schedule Proposal
10/13/00      Submitted by Mallinckrodt Inc., St. Louis,
              Missouri, Under Solicitation Number M6-Q5-
              98                                              $3,057,692

01-00060-15   Review of Proposal Submitted by University of
11/16/00      Arkansas for Medical Services for
              Anesthesiology Services at the John L.
              McClellan Memorial Veterans Hospital Little
              Rock, AR                                         $413,704

01-00343-16   Review of Voluntary Disclosure and Refund
11/16/00      Offer Under Federal Supply Schedule
              Contract Number V797P-5354x, Awarded to
              Novartis Pharmaceuticals Corporation, East                                $18,296
              Hanover, NJ

00-02769-20   Review of Federal Supply Schedule Proposal
12/12/00      Submitted by Medline Industries, Inc., Under
              Solicitation Number RFP-797-FSS-99-0025          $227,454

98-00087-21   Review of DuPont Pharmaceuticals Company's
12/12/00      Implementation of Section 603 Drug Pricing
              Provisions of Public Law 102-585 Under
              Federal Supply Schedule Contract Numbers                                 $329,128
              V797P-5720n and V797P-5337x

99-00105-25   Review of a Pharmaceutical Company's
12/27/00      Implementation of Section 603 Drug Pricing
              Provisions of Public Law 102-585 Under 10                               $2,367,268
              Federal Supply Schedule Contracts

00-00248-26   Review of a Pharmaceutical Company's
12/27/00      Voluntary Disclosure of Pricing Violations
              Under Three Federal Supply Schedule                                     $4,915,903
              Contract Numbers

99-00077-27   Review of Billings Submitted by a Prime
12/27/00      Vendor Under Five VA Pharmaceutical Prime                               $4,234,671
              Vendor Contracts

00-00239-32   Review of Federal Supply Schedule Proposal
1/18/01       Submitted by Olympus America Inc., Under
              Solicitation Number RFP 797-652A-99-0001        $2,986,205




                                                      73
  Report                                                         Funds Recommended
 Number/                                                            for Better Use   Questioned
Issue Date                     Report Title                       OIG     Management   Costs

CONTRACT REVIEWS (Cont’d)

00-00260-33   Review of Radiation Therapy Systems
1/18/01       Proposal Submitted by Nucletron Corporation
              Under Solicitation Number RFP-797-DD-00-
              0031

00-02815-34   Review of Federal Supply Schedule Proposal
1/18/01       Submitted by GE Marquette Medical Systems
              Under Solicitation Number RFP-797-652A-
              99-0001                                         $2,109,282

00-00237-37   Review of a Medical Equipment and Supply
1/25/01       Company's Voluntary Disclosure and Refund                                $580,000
              O ffer

01-00061-38   Review of Federal Supply Schedule Proposal
1/31/01       Submitted by Sewing Source, Inc., Under
              Solicitation Number RFP 797-652A-99-0001         $715,928

01-00460-39   Review of Federal Supply Schedule Proposal
1/31/01       Submitted by Omnicell, Inc., Under
              Solicitation Number RFP-797-FSS-99-0025

98-00068-40   Review of Moore Medical Corporation's
2/1/01        Voluntary Disclosure and Refund Offer Under
              Federal Supply Schedule Contracts V797P-                                $5,822,656
              5576M and V797P-3137K

01-00194-44   Review of Federal Supply Schedule Proposal
2/23/01       Submitted by Roche Diagnostics Corporation
              Under Solicitation Number RFP M5-Q52C-00        $1,669,920

00-02269-45   Review of Proposal Submitted by Department
2/23/01       of Surgery, Indiana University School of
              Medicine Under Solicitation Number RFP
              583-46-00 for Cardiovascular Surgery
              Services at the VA Medical Center
              Indianapolis, IN                                 $158,796

00-00263-46   Review of Federal Supply Schedule Proposal
2/23/01       Submitted by Amigo Mobility International,
              Inc., Under Solicitation Number RFP 797-
              652F-99-0004                                     $212,160

00-00254-48   Review of Proposal Submitted by Varian
2/23/01       Medical Systems Under Solicitation Number
              RFP 797-DD-00-0031 for Radiation Therapy
              Systems

00-02396-49   Review of Proposal Submitted by Indiana
2/23/01       Pathology Institute, P.C., Under Solicitation
              N umber RFP 583-44-00 for Pathology
              Services at the VA Medical Center,
              Indianapolis, IN




                                                       74
  Report                                                       Funds Recommended
 Number/                                                          for Better Use   Questioned
Issue Date                    Report Title                      OIG     Management   Costs
CONTRACT REVIEWS (Cont’d)

01-00625-53   Review of Federal Supply Schedule Proposal
2/27/01       Submitted by ConvaTec (A Bristol-Myers
              Squibb Company) Under Solicitation Number
              RFP 797-FSS-99-0025

01-00754-60   Review of Proposal Submitted by Advanced
3/20/01       Technology Laboratories Under Solicitation
              No. M6-Q9-00 for Ultrasound Systems

98-00096-61   Final Report Post-Award Review of a
3/27/01       Company's Federal Supply Schedule Contract                            $1,821,499
              for X-Ray Equipment and Supplies

01-00201-62   Review of Federal Supply Schedule Proposal
3/28/01       Submitted by Abbott Laboratories, Diagnostic
              Division, Under Solicitation Number M5-
              Q52C-00                                         $576,675

01-00335-66   Review of Proposal Submitted by University of
3/29/01       Minnesota Physicians for Radiologist Services
              at VA Medical Center Minneapolis, MN            $248,894

00-00397-64   Review of a Pharmaceutical Company's
3/30/01       Implementation of Section 603, Drug Pricing
              Provisions of Public Law 102-585, Under                                 $13,185
              Two Federal Supply Schedule Contracts


ADMINISTRATIVE INVESTIGATIONS

00-02176-9    Administrative Investigation, Attendance,
10/30/00      Personnel, and Vehicle Issues, VBA
              Headquarters, Washington, DC

00-01137-18   Administrative Investigation, Use of
11/30/00      Government Vehicles, Other Property, and
              Official Time, VA Domiciliary White City, OR

00-00700-23   Administrative Investigation, Improper
12/19/00      Acquisition and Use of Cellular Telephone,
              VHA Central Office Washington, DC

98-01138-13   Administrative Investigation, Nepotism Issue,
1/2/01        VA Medical Center Philadelphia, PA

00-01829-63   Administrative Investigation, Resource Misuse
3/28/01       Issue, VA Regional Office Phoenix, AZ




                                                      75
  Report                                                          Funds Recommended
 Number/                                                             for Better Use   Questioned
Issue Date                    Report Title                         OIG     Management   Costs

HEALTHCARE INSPECTIONS

00-02096-5    Letter Report - Department of Transportation
10/5/00       Inspection of Department of Veterans Affairs
              Clinical Laboratories

99-01260-7    Healthcare Inspection, Multiple Allegations
11/15/00      Regarding Psychiatry Service Management and
              Patient Care Issues, Department of Veterans
              Affairs Medical Center San Juan, PR

00-00282-12   Evaluation of Veterans Health Administration
11/30/00      Missing Patient Policies and Procedures

00-02038-29   Ophthalmology Resident Competence, Harry
1/23/01       S. Truman Memorial Veterans Hospital
              Columbia, MO

00-02019-31   Operation of a Transgender Clinic at the VA
1/23/01       Medical Center New Orleans, LA

99-01321-47   Healthcare Inspection: Patient Research and
3/23/01       Other Health Care Issues, John L. McClellan
              Memorial Veterans Hospital Little Rock, AR

00-01491-57   Inspection of Allegations Regarding Patient
3/26/01       Care and Discharge Planning, Department of
              Veterans Affairs Central Texas Health Care
              System Temple, TX


TOTAL:                      58 Reports                       $2,450,002,829   $99,185,965 $20,102,606




                                                    76
                                            APPENDIX B

                            DEPARTMENT OF VETERANS AFFAIRS
                              OFFICE OF INSPECTOR GENERAL
                          CONTRACT REVIEWS BY OTHER AGENCIES

                                                                                  Funds
                                                                               Recommended
                                                                                 for Better Unsupported
           Report Title (Report Number, Issue Date)                                 Use        Costs
Proposal, Solicitation No. 619A4, Renovation, VAMC Tuskegee, Thomas
Construction and Masonry Company, Montgomery, AL (2000-00021-PE-0310-
N03, 10/4/00)

 Proposal, RFP No. 688-61-00, Replace Fire Alarm System, VAMC Washington,
 Ferguson and Ramey Electrical Contractors, Capitol Heights, MD (2000-00021-
 PE-0311-N03, 10/5/00)

Claim, Contract No. V69DC-142, Install Sprinkler System, VAMC Lakeside,
Beckman Construction Company, Fort Worth, TX (2000-00021-PE-0306-N03,
10/23/00)                                                                           $926,180

Proposal, Contract No. V200C-003, Asbestos Removal, Austin Automation
Center, O'Neal Construction of Texas, Inc., Austin, TX (1998-02749-PE-0122-
N03, 10/30/00)                                                                       $89,056

Proposal, Solicitation No. RFP 521-063-0, Renovation, VAMC Birmingham, LJC
Construction Company, Inc., Headland, AL (2000-00021-PE-0315-N03,
11/14/00)

Proposal, Contract No. V688C1470, Patient Privacy, VAMC Washington, AEC
Services, Inc., Gaithersburg, MD ( 2001-00314-PE-0303-N03, 1/3/01)                  $112,558

Claim, Contact No. V101BC0077, Construction, VAMC Lake City, G. H.
Johnson Construction Co., Tampa, FL (2001-00314-PE-0002-N02, 2/5/01)                $541,862

Claim, Contract No. V626C-597, Ward Upgrade, VAMC Nashville, Jimenez,
Inc., Mobile, AL (2001-00314-PE-0306-N03, 3/1/01)                                    $81,502

Claim, Project No. 646-400, Construction, VAMC Pittsburgh, Poerio, Inc.,
Pittsburgh, PA (2000-00021-PE-0006-N02, 3/21/01)                                    $288,901
TOTALS:                                    9 Reports                               $2,040,059              $0

The Defense Contract Audit Agency completed all reports issued. This data is also reported in the Department of
Defense OIG’s Semiannual Report to Congress.




                                                       77
78
                                      Recommended                       Reason for Delay
                                     APPENDIX      C
                                        Better Use Unsupported          and Planned Date
Report Title, Number, and Issue Date     of Funds     Costs              for a Decision

                          CONTRACT REVIEW REPORTS FOR WHICH A
                              CONTRACTING OFFICER DECISION
                          HAD NOT BEEN MADE FOR OVER 6 MONTHS

                                                         Recommended    Reason for Delay
                                               Questioned Better Use    and Planned Date
Report Title, Number, and Issue Date             Costs      of Funds     for a Decision

Contract Reviews by OIG

OFFICE OF ACQUISITION AND MATERIEL MANAGEMENT
Audit of Claims and Requests for Equitable                  $394,154   Claim in litigation before the
Adjustments Submitted by Bay Construction                              VA Board of Contract
Company, Contract Number V662C-1439,                                   Appeals; no planned
8PE-E10-082, 3/25/98                                                   resolution date available.


Review of Federal Supply Schedule Proposal                  $680,400   Pending receipt of
(Solicitation Number M3-QF-98), Everest &                              Contracting officer Price
Jennings, Earth City, MO, 9PE-E02-036,                                 Negotiation Memorandum
2/23/99                                                                (PNM); anticipated award
                                                                       date is May 1, 2001.


Final Report Review of Proposal Submitted by                $297,833   Pending receipt of
University of Pittsburgh Physicians for                                Contracting officer PNM; no
Anesthesiology Physician Services at the                               planned resolution date
University Drive Division, VA Pittsburgh                               available.
Healthcare System, Pittsburgh, PA,
00-01584-73, 5/31/00

OFFICE OF FACILITIES MANAGEMENT (VHA)
Review of Structural Design Problems at the                            Negotiations re-opened.
New VA Regional Office, Bay Pines, FL,                                 Planned resolution by
8PE-E02-053, 3/16/98                                                   September 30, 2001.




                                                   79
                                     Recommended                 Reason for Delay
                                       Better Use Unsupported    and Planned Date
Report Title, Number, and Issue Date    of Funds     Costs        for a Decision

Contract Reviews by Other Agencies

OFFICE OF FACILITIES MANAGEMENT (VHA)

Proposal, Project No. 672-045, Change             $284,827      Negotiation not finalized; no
Order Outpatient Clinic Addition, VAMC San                      planned resolution date
Juan, J. A. Jones Construction Co., San Juan,                   available.
PR,7PE-N02-007, 12/9/97

Claim, Contract No. V101BC131,                   $3,787,571     Negotiation not finalized; no
Ambulatory Care Addition, VAMC San Juan,                        planned resolution date
J. A. Jones Construction Co., Charlotte, NC,                    available.
9PE-N02-013, 4/6/99

Proposal, Project No. 614-011,                  $1,912,868      Negotiation not finalized; no
Seismic/Modernization, VAMC Memphis,                            planned resolution date
Caddell Construction,                                           available.
9PE-N02-007, 9/15/99

Claim, Contracting No. V101CC-0052,             $24,261,851     Negotiation not finalized; no
Construction, VAMC Detroit, Centex                              planned resolution date
Construction Company, Dallas, TX,                               available.
1999-03107-PE-0107-N02, 10/26/99

Claim, Project No. 317-007, Construction,       $2,866,738      Negotiations re-opened.
VARO St. Petersburg, J. Kokolakis                               Planned resolution by
Contracting, Inc., Tarpon Springs, FL, 1999-                    September 30, 2001.
03115-PE-0201-N02, 12/22/99

Claim, Project No. 508-018C, Clinical           $2,187,794      Negotiation not finalized; no
Addition, VAMC Atlanta, Caddell                                 planned resolution date
Construction, Co., Montgomery, AL,                              available.
1999-03095-PE-0001-N02, 12/29/99

Claim, Contract No. V101AC0141,                   $149,760      Negotiation not finalized;
Construction, VAMC Mt. Home, Summit                             planned resolution by
Construction Company, Inc., Cuyahoea Falls,                     April 30, 2001.
OH, 2000-00021-PE-0002-N02, 3/21/00

Claim, Project No. 609-019, Construction,          $95,238      Negotiation not finalized;
VAMC Marion, Huber, Hunt, and Nichols,                          planned resolution by
Inc., 2000-00021-PE-0105-N02, 5/9/00                            December 31, 2001.




                                                    80
                                     Recommended                 Reason for Delay
                                       Better Use Unsupported    and Planned Date
Report Title, Number, and Issue Date    of Funds     Costs        for a Decision

OFFICE OF THE GENERAL COUNSEL

Adjustment Claim, V101C-1606, Construction     $271,599         Claim in litigation before the
Service, VAMC Albany, Bhandari                                  VA Board of Contract
Constructors Inc., Syracuse, NY,                                Appeals; no planned
5PE-N02-007, 3/31/95                                            resolution date available.


Claim, Contract V101C-1651, Environment       $7,370,861        Claim in litigation before the
Improvement, VAMC North Chicago, Blount                         VA Board of Contract
Inc., 4PE-N02-202, 2/7/96                                       Appeals; no planned
                                                                resolution date available.


Proposal, Project No. 543-015, Sprinkler &     $503,356         Claim in litigation before the
Fire Alarm Pro., VAMC Columbia Fire                             VA Board of Contract
Security Systems, Inc., Bossier City, LA,                       Appeals; no planned
8PE-N03-110, 3/19/98                                            resolution date available.


Claim, Contract No. V621C-505, Correct         $300,626         Claim in litigation before the
Lake Drainage, VAMC Mountain Home, TN,                          VA Board of Contract
Carpenter Construction, Inc., Robbinsville,                     Appeals; no planned
NC,9PE-N03-107, 5/12/99                                         resolution date available.


Proposal, Project No. 543-015, Sprinkler &    $1,109,745        Claim in litigation before the
Fire Alarm Pro., VAMC Columbia, SC, Fire                        VA Board of Contract
Security System, Inc., Bossier City, LA,                        Appeals; no planned
9PE-N03-108, 7/27/99                                            resolution date available.


Claim, Contract No. V640P-5285,               $1,463,111        Claim in litigation before the
Transportation Services, VA HCS Palo Alto,                      VA Board of Contract
Bay Trans Company, Inc., Santa Clara, CA,                       Appeals; no planned
9PE-N03-111, 8/18/99                                            resolution date available.




                                                  81
                                     Recommended                Reason for Delay
                                       Better Use Unsupported   and Planned Date
Report Title, Number, and Issue Date    of Funds     Costs       for a Decision




                                         82
                                            APPENDIX D

                  FOLLOW UP/RESOLUTION OF OIG RECOMMENDATIONS

The Inspector General Act Amendments of 1988 require identification of all significant management decisions
with which the Inspector General is in disagreement and all significant and other recommendations unresolved
for over 6 months (management decisions not made). We had no Inspector General disagreements on
significant management decisions and there were no internal audit recommendations unresolved for over 6
months as of the end of this reporting period. Contract report recommendations unresolved for over 6 months
are included in Appendix C.

Following are tables which provide a summary of the number of OIG reports with potential monetary benefits
that were unresolved at the beginning of the period, the number of reports issued and resolved during the period
with potential monetary benefits, and the number of reports that remained unresolved at the end of the period.

As required by the IG Act Amendments, Tables 1 - 3 provide statistical summaries of unresolved and resolved
reports for this reporting period. The dollar figures used throughout this report are based on the definitions
included in the IG Act Amendments of 1988. The figures may reflect changes from the data in the individual
reports due to OIG validation to ensure compliance with the IG Act Amendments definitions.

TABLE 1 - SUMMARY OF UNRESOLVED AUDIT REPORTS

Table 1 provides a summary of all unresolved reports and the length of time they have been unresolved.

                    MONTHS                  TYPE AUDIT                NUMBER        TOTAL

                                            Internal Audit                0
                      Over                                                            18
                    6 Months                                              18
                                          Contract Review

                                            Internal Audit                1
                    Less Than                                                         19
                     6 Months                                             18
                                          Contract Review

                                            TOTAL                                     37


Tables 2 and 3 show a total of 34 reports that were unresolved as of March 31, 2001. This number differs
from the 37 reports shown above because tables 2 and 3 include only reports with monetary benefits as required
by the IG Act Amendments. Tables 2 and 3 also provide the reports resolved during the period with theOIG
estimates of disallowed costs and funds to be put to better use, including those in which management agreed to
implement OIG recommendations and those in which management did not agree to implement OIG
recommendations. The Assistant Secretary for Management maintains data on the agreed upon reports and
Management estimates of disallowed costs and funds to be put to better use in order to comply with the
reporting requirements for the Secretary’s Management Report to Congress, required by the IG Act
Amendments.




                                                         83
TABLE 2 - RESOLUTION STATUS OF REPORTS WITH QUESTIONED COSTS

Table 2 summarizes reports, the dollar value of questioned costs, and the costs disallowed and allowed.

                                                                    NUMBER             QUESTIONED
                    RESOLUTION STATUS                                  OF                  COSTS
                                                                    REPORTS             (In Millions)
    No management decision by 9/30/00                                     0                     $0
    Issued during reporting period                                        9                   $20.1
          Total Inventory This Period                                    9                    $20.1
    Management decision during reporting period
       Disallowed costs (agreed to by management)                         9                   $20.1
       Allowed costs (not agreed to by management)                        0                     $0
          Total Management Decisions This Period                         9                    $20.1
          Total Carried Over to Next Period                              0                    $0


Definitions:

l   Questioned Costs
    VA pursue collection, including Government property, services or benefits provided to ineligible recipients;
recommended collections of money inadvertently or erroneously paid out; and recommended collections or
offsets for overcharges or ineligible costs claimed.
    For contract review reports, it is contractor or grantee costs OIG recommends be disallowed by the
contracting officer, grant official, or other management official. Costs normally result from a finding that
expenditures were not made in accordance with applicable laws, regulations, contracts, grants, or other
agreements; or a finding that the expenditure of funds for the intended purpose was unnecessary or
unreasonable.

l    Disallowed Costs are costs that contracting officers, grant officials, or management officials have
determined should not be charged to the Government and which will be pursued for recovery; or on which
management has agreed that VA should bill for property, services, benefits provided, monies erroneously paid
out, overcharges, etc. Disallowed costs do not necessarily represent the actual amount of money that will be
recovered by the Government due to unsuccessful collection actions, appeal decisions, or other similar actions.

l   Allowed Costs are amounts on which contracting officers, grant officials, or management officials have
determined that VA will not pursue recovery of funds.




                                                      84
TABLE 3 - RESOLUTION STATUS OF REPORTS WITH RECOMMENDED
          FUNDS TO BE PUT TO BETTER USE BY MANAGEMENT

Table 3 summarizes reports with Recommended Funds to be Put to Better Use by management, and the dollar
value of recommendations that were agreed to and not agreed to by management.


                                                                NUMBER            RECOMMENDED
                                                                                 FUNDS TO BE PUT
                RESOLUTION STATUS                                  OF             TO BETTER USE
                                                                REPORTS             (In Millions )
    No management decision by 9/30/00                                27                    $75.6
    Issued during reporting period                                   28                 $2,452.0
         Total Inventory This Period                                 55                 $2,527.6

    Management decisions during reporting period
        Agreed to by management                                       18                  $830.3
        Not agreed to by management                                    3                   $21.9
         Total Management Decisions This Period                       21                  $852.2
         Total Carried Over to Next Period                           34                 $1,675.4


Definitions:

l   Recommended Better Use of Funds
    For audit reports, it represents a quantification of funds that could be used more efficiently if management
took actions to complete recommendations pertaining to deobligation of funds, costs not incurred by
implementing recommended improvements, and other savings identified in audit reports.
    For contract review reports, it is the sum of the questioned and unsupported costs identified in preaward
contract reviews which the OIG recommends be disallowed in negotiations unless additional evidence
supporting the costs is provided. Questioned costs normally result from findings such as a failure to comply
with regulations or contract requirements, mathematical errors, duplication of costs, proposal of excessive
rates, or differences in accounting methodology. Unsupported costs result from a finding that inadequate
documentation exists to enable the auditor to make a determination concerning allowability of costs proposed.

l    Dollar Value of Recommendations Agreed to by Managementprovides the OIG estimate of funds that
will be used more efficiently based on management’s agreement to implement actions, or the amount contracting
officers disallowed in negotiations, including the amount associated with contracts that were not awarded as a
result of audits.

l Dollar Value of Recommendations Not Agreed to by Managementis the amount associated with
recommendations that management decided will not be implemented, or the amount of questioned and/or
unsupported costs that contracting officers decided to allow.




                                                       85
86
                                                 APPENDIX E

                    REPORTING REQUIREMENTS OF THE INSPECTOR GENERAL

The table below cross-references the reporting requirements to the specific pages where they are prescribed by
the Inspector General Act of 1978 (Public Law 95-452), as amended by the Inspector General Act Amendments
of 1988 (Public Law 100-504), and the Omnibus Consolidated Appropriations Act of 1997 (Public Law 104-
208).

 IG Act
References                                 Reporting Requirement                                          Page

Section 4 (a) (2)      Review of legislation and regulations                                                57

Section 5 (a) (1)      Significant problems, abuses, and deficiencies                                      1-66

Section 5 (a) (2)      Recommendations with respect to significant problems, abuses, and                   1-66
                       deficiencies

Section 5 (a) (3)      Prior significant recommendations on which corrective action has not been            83
                       completed

Section 5 (a) (4)      Matters referred to prosecutive authorities and resulting prosecutions and            i
                       convictions

Section 5 (a) (5)      Summary of instances where information was refused                                   69

Section 5 (a) (6)      List of audit reports by subject matter, showing dollar value of questioned        71 to 77
                       costs and recommendations that funds be put to better use                       (App. A & B)

Section 5 (a) (7)      Summary of each particularly significant report                                     i to v

Section 5 (a) (8)      Statistical tables showing number of reports and dollar value of questioned          84
                       costs for unresolved, issued, and resolved reports                                (Table 2)

Section 5 (a) (9)      Statistical tables showing number of reports and dollar value of                     85
                       recommendations that funds be put to better use for unresolved, issued, and       (Table 3)
                       resolved reports

Section 5 (a) (10)     Summary of each audit report issued before this reporting period for which no     79 to 81
                       management decision was made by end of reporting period                           (App. C)

Section 5 (a) (11)     Significant revised management decisions                                            None

Section 5 (a) (12)     Significant management decisions with which the Inspector General is in             None
                       disagreement

Section 5 (a) (13)     Information described under section 05(b) of the Federal Financial                   39
                       Management Improvement Act of 1996 (Public Law 104-208)




                                                            87
88
                                               APPENDIX F

                                     OIG OPERATIONS PHONE LIST

Investigations


Central Office Investigations Washington, DC .................................................. (202) 565-7702
Northeast Field Office (51NY) New York, NY ................................................... (212) 807-3444
      Boston Resident Agency (51BN) Bedford, MA ............................................. (781) 687-3138
      Newark Resident Agency (51NJ) Newark, NJ ............................................... (973) 645-3590
      Pittsburgh Resident Agency (51PB) Pittsburgh, PA....................................... (412) 784-3818
      Washington Resident Agency (51WA) Washington, DC................................. (202) 691-3338
Southeast Field Office (51SP) Bay Pines, FL ..................................................... (727) 398-9559
      Atlanta Resident Agency (51AT) Atlanta, GA............................................... (404) 929-5950
      Columbia Resident Agency (51CS) Columbia, SC......................................... (803) 695-6707
      Nashville Resident Agency (51NV) Nashville, TN......................................... (615) 736-7200
      New Orleans Resident Agency (51NO) New Orleans, LA............................. (504) 619-4340
      West Palm Beach Resident Agency (51WP) West Palm Beach, FL ................ (561) 882-7720
Central Field Office (51CH) Chicago, IL ........................................................... (708) 202-2676
      Dallas Resident Agency (51DA) Dallas, TX.................................................. (214) 655-6022
      Denver Resident Agency (51DV) Denver, CO............................................... (303) 331-7673
      Houston Resident Agency (51HU) Houston, TX ........................................... (713) 794-3652
      Kansas City Resident Agency (51KC) Kansas City, KS................................. (913) 551-1439
Western Field Office (51LA) Los Angeles, CA ................................................... (310) 268-4268
      Phoenix Resident Agency (51PX) Phoenix, AZ............................................. (602) 640-4684
      San Francisco Resident Agency (51SF) Oakland, CA.................................... (510) 637-1074
      Seattle Resident Agency (51SE) Seattle, WA ...................................... (206) 220-6654, ext 31


Healthcare Inspections


Central Office Operations Washington, DC ...................................................... (202) 565-8305
Healthcare Regional Office Atlanta (54AT) Atlanta, GA................................... (404) 929-5961
Healthcare Regional Office Chicago (54CH) Chicago, IL ................................. (708) 202-2672
Healthcare Regional Office Los Angeles (54LA) Los Angeles, CA .................... (310) 268-3005



                                                          89
                              OIG OPERATIONS PHONE LIST (CONT’D)


Audit


Central Office Operations Washington, DC ...................................................... (202) 565-4625
Central Office Operations Division (52CO) Washington, DC ........................... (202) 565-4434
Contract Review and Evaluation Division (52C) Washington, DC ................... (202) 565-4818
Financial Audit Division (52CF) Washington, DC ............................................ (202) 565-7913
Operations Division Atlanta (52AT) Atlanta, GA .............................................. (404) 929-5921
Operations Division Bedford (52BN) Bedford, MA ........................................... (781) 687-3120
      Philadelphia Residence (52PH) Philadelphia, PA........................................... (215) 381-3052
Operations Division Chicago (52CH) Chicago, IL ............................................ (708) 202-2667
Operations Division Dallas (52DA) Dallas, TX .................................................. (214) 655-6000
      Austin Residence (52AU) Austin, TX ........................................................... (512) 326-6216
Operations Division Kansas City (52KC) Kansas City, MO ............................. (816) 426-7100
Operations Division Los Angeles (52LA) Los Angeles, CA ................................ (310) 268-4335
Operations Division Seattle (52SE) Seattle, WA ................................................ (206) 220-6654




                                                          90
                                APPENDIX G

                                    GLOSSARY

BDN       Benefits Delivery Network
CAP       Combined Assessment Program
C&P       Compensation & Pension
CHAMPVA   Civilian Health and Medical Program of the Department of Veterans Affairs
DEA       Drug Enforcement Administration
DIC       Dependency and Indemnity Compensation
FAA       Federal Aviation Administration
FBI       Federal Bureau of Investigation
FDA       Food and Drug Administration
FOIA      Freedom of Information Act
FTE       Full Time Equivalent
FTI       Federal Tax Information
FY        Fiscal Year
GPRA      Government Performance and Results Act
HEC       Health Eligibility Center
IRS       Internal Revenue Service
IG        Inspector General
IT        Information Technology
IVM       Income Verification Match
MCI       Master Case Index
MT        Means Test
NCA       National Cemetery Administration
OHI       Office of Healthcare Inspections
OIG       Office of Inspector General
OMB       Office of Management and Budget
PI        Principal Investigator
PNM       Price Negotiation Memorandum
QM        Quality Management
SSA       Social Security Administration
VA        Department of Veterans Affairs
VAMC      Veterans Affairs Medical Center
VARO      VA Regional Office
VBA       Veterans Benefits Administration
VHA       Veterans Health Administration
VISN      Veterans Integrated Service Network




                                          91
Copies of this report are available to the public. Written requests should be sent to:


                Office of the Inspector General (53B)
                Department of Veterans Affairs
                810 Vermont Avenue, NW
                Washington, DC 20420


The report is also available on our Web Site:

                http://www.va.gov/oig/53/semiann/reports.htm

For further information regarding VA’s OIG, you may call 202-565-8620




Cover photo of
World War I Soldier,
West Virginia Veterans Memorial,
Charleston, WV by
Joseph M. Vallowe, Esq.
VA OIG, Washington, DC




                                       92
Help VA’s Secretary ensure the integrity of departmental
operations by reporting suspected fraud, waste, or abuse in
VA programs or operations to the Inspector General Hotline.


            (CALLER CAN REMAIN ANONYMOUS)




To Telephone:          (800) 488 - 8244
                       (800) 488 - VAIG
FAX:                   (202) 565 - 7936

To Send
Correspondence:        Department of Veterans Affairs
                       Inspector General Hotline (53E)
                       P.O. Box 50410
                       Washington, DC 20091-0410

Internet Homepage:     http://www.va.gov/oig/hotline/hotline.htm

E-mail Address:        VAOIG.HOTLINE@forum.va.gov




                  Department of Veterans Affairs
                    Office of Inspector General
                        Semiannual Report

                  October 1, 2000 - March 31, 2001
